APPENDIX

TABLE OF APPENDICES
Appendix A
Order of the Superior Court of Jackson
County, Georgia, Denying Petitioner’s
Motion for New Trial, State v. Lance,
No. 98-CR-0036 (Sept. 30, 2019) .................. App-1
Appendix B
Order of the Supreme Court of Georgia
Denying Petitioner’s Application to
Appeal, Lance v. State, No. S20D0423
(Dec. 2, 2019) .............................................. App-25
Appendix C
Order of the Supreme Court of Georgia
Denying Petitioner’s Motion for
Reconsideration, Lance v. State,
No. S20D0423 (Jan. 13, 2020) .................... App-27
Appendix D
Opinion of the Supreme Court of
Georgia, Lance v. State, No. S01P1813
(February 25, 2002) .................................... App-29
Appendix E
Opinion of the Superior Court of Butts
County, Georgia, Lance v. Hall,
No. 2003-V-490 (Apr. 28, 2009) .................. App-58
Appendix F
Opinion of the Supreme Court of
Georgia, Hall v. Lance, Nos. S09A1536,
S09X1538 (Jan. 25, 2010)......................... App-148

ii
Appendix G
Opinion of the Eleventh Circuit Court of
Appeals, Lance v. Warden, No. 16-15008
(Aug. 31, 2017) .......................................... App-171
Appendix H
Order of the United States Supreme
Court Denying Petition, Lance v. Sellers,
No. 17-1382 (Jan. 7, 2019)........................ App-198
Appendix I
Relevant Statute O.C.G.A. § 5-5-41 ......... App-211

App-1
Appendix A
IN THE SUPERIOR COURT
OF JACKSON COUNTY
STATE OF GEORGIA
________________
No. 98-cr-0036
________________
STATE OF GEORGIA,
v.
DONNIE LANCE,
Defendant.
________________
September 30, 2019
________________
ORDER ON DEFENDANT’S
EXTRAORDINARY MOTION FOR NEW TRIAL
Donnie Lance (“Defendant” hereinafter) was
indicted by a Jackson County grand jury on March 2,
1998 on two counts of malice murder, two counts of
felony murder, one count of burglary, one count of
possession of a firearm during the commission of a
crime, and two counts of possession of a firearm by a
convicted felon. For a period of six (6) days, excluding
jury selection, in June of 1999, Defendant stood trial
before a jury of his peers. Judge David Motes
presided over the trial. 1 After deliberating for three

1 Judge Motes has since retired and the undersigned was
appointed on November 7, 2018, to fill his seat on the Piedmont

App-2
hours and fifty minutes, the jury found Defendant
guilty for the murders of Butch Wood and Joy Lance.
The jury deliberated for an additional one hour and
fifty minutes before sentencing Defendant to death.
FACTS OF THE CASE
On two occasions, the Georgia Supreme Court
has succinctly summarized the facts presented to the
jury at trial. In the direct appeal, the Georgia
Supreme Court found the facts as follows:
The bodies of the victims were discovered in
Butch Wood’s home on November 9, 1997.
Butch had been shot at least twice with a
shotgun and Joy had been beaten to death
by repeated blows to her face. Expert
testimony suggested they had died earlier
that day, sometime between midnight and
5:00 a.m. The door to Wood’s home had
imprints consistent with size 7½ EE Sears
“Diehard” work shoes. Joy’s father testified
he told appellant Joy was not at home when
appellant had telephoned him looking for
Joy at 11:55 p.m. on November 8. A law
enforcement officer testified he saw
appellant’s car leave appellant’s driveway
near midnight. When questioned by an
investigating officer, Lance denied owning
Diehard work shoes; however, a search of
Lance’s shop revealed an empty shoe box
that had markings showing it formerly
contained shoes of the same type and size as
Judicial Circuit bench. The matter was assigned to the
undersigned as the trial court’s replacement.

App-3
those that made the imprints on Wood’s
door, testimony by Sears personnel showed
that Lance had purchased work shoes of the
same type and size and had then exchanged
them under a warranty for a new pair, and
footprints inside and outside of Lance’s shop
matched the imprint on Butch Wood’s door.
Officers also retrieved from a grease pit in
Lance’s shop an unspent shotgun shell that
matched the ammunition used in Wood’s
murder.
Joe Moore testified he visited Lance at his
shop during the morning of November 9,
1997, before the victims’ bodies were
discovered. Referring to Joy, Lance told
Moore that “the bitch” would not be coming
to clean his house that day. Lance stated
regarding Butch Wood that “his daddy could
buy him out of a bunch of places, but he can’t
buy him out of Hell.” Lance also informed
Moore that Joy and Butch were dead. Moore
disposed of several shotgun shells for Lance,
but he later assisted law enforcement
officers in retrieving them.
The State also presented the testimony of
two of appellant’s jail mates who stated
appellant had discussed his commission of
the murders.
The State also presented evidence that
appellant had a long history of abuse against
Joy, including kidnapping, beatings with his
fist, a belt, and a handgun, strangulation,
electrocution or the threat of electrocution,

App-4
the threat of burning with a flammable
liquid and of death by a handgun and with a
chainsaw, the firing of a handgun at or near
her, and other forms of physical abuse.
Several witnesses testified that appellant
had repeatedly threatened to kill Joy if she
divorced him or was romantically involved
with Butch, and that Lance had also beaten
and threatened to kill Butch’s wife and
several other persons related to Joy. A
relative of Joy testified that Lance once
inquired how much it would cost to “do away
with” Joy and Butch.
Tawana Wood, who was Butch’s former wife,
and Joe Moore testified about an invasion of
Butch’s home committed by Joe Moore and
appellant in 1993.
The invasion was prompted in part by
appellant’s
belief
that
Butch
was
romantically involved with Joy. In the 1993
incident, appellant kicked in a door to the
home, entered carrying a sawed-off shotgun,
and loaded the chamber of the shotgun.
Lance v. State, 275 Ga.11, 12-13 (2002).
In
Donnie
Lance’s
subsequent
habeas
proceedings in 2010, the Georgia Supreme Court
described the facts of the case as follows:
The evidence at trial showed that Lance had
a long history of abusing Joy Lance both
before and after they divorced, including
kidnapping her, beating her with his fist, a
belt, and a handgun, strangling her,
electrocuting her with a car battery, and

App-5
threatening her with a flammable liquid,
handguns, and a chainsaw. He had
repeatedly threatened to kill her himself,
and he had once inquired of a relative about
what it might cost to hire someone to kill her
and Butch Wood. Lance kicked in the door of
Butch Wood’s home in 1993 armed with a
shotgun, loaded a shell into the chamber of
the shotgun, and then fled only after a child
in the home identified and spoke to Joe
Moore,
Lance’s
friend
who
was
accompanying Lance that night. Hall v.
Lance, 286 Ga. 365,366 (2010).
APPELLATE HISTORY
Following his conviction,
appellate relief as follows:

Defendant

sought

In 2002, Defendant filed a direct appeal and the
Georgia Supreme Court unanimously affirmed
Defendant’s convictions and sentences. Lance v.
State, 275 Ga. 11, n.1 (2002), cert. denied, 537 U.S.
1050 (2002). Defendant then filed a state habeas
petition on May 29, 2003, and that court vacated
Defendant’s death sentence on the grounds that
Defendant’s trial counsel failed to adequately prepare
for the sentencing phase of the trial. Lance v. Hall,
No. 2003-V-490, slip op. at 58 (Super. Ct. Butts Cty.
Apr. 28, 2009). The Warden appealed and Defendant
cross-appealed. The Georgia Supreme Court then
reversed and reinstated Defendant’s death sentence.
Hall v. Lance, 286 Ga. 365 (2010). The United States
Supreme Court denied certiorari of the Georgia
Supreme Court’s decision on June 28, 2010, and

App-6
denied a petition for rehearing on September 3, 2010.
Lance v. Hall, 561 U.S. 1026 (2010).
Defendant’s federal habeas claim was filed July
29, 2010 and denied in 2015. Lance v. Upton, Case.
No. 2:10-CV-000143-WBH (N.D. Ga. 2015). The
Eleventh Circuit affirmed the ruling on August 31,
2017. Earlier this year, the United States Supreme
Court declined to hear the case. Lance v. Warden, 706
Fed. Appx 565 (11th Cir 2017) (unpublished), cert.
denied, 139 S. Ct. 511 (2019).
EXTRAORDINARY MOTION FOR NEW TRIAL
AND POST-CONVICTION DNA TESTING
All other avenues of appellate review being
exhausted, on April 26, 2019, Defendant filed his
Extraordinary Motion for New Trial pursuant to
O.C.G.A § 5-5-41, seeking DNA testing of certain
evidentiary items and a new trial based on the
anticipated results of the testing. O.C.G.A. § 5-5-41
allows the filing of an extraordinary motion for new
trial outside the 30-day window for motion for new
trials based on extraordinary circumstances. More
specifically, O.C.G.A. § 5-5-41(c) allows a person who
has been convicted of a felony to file a motion before
the trial court that entered the judgment of
conviction in his case for performance of DNA
testing. The Court held a hearing on July 31, 2019 on
Defendant’s motion, at which time Defendant was
represented by Mary Wells, L. Joseph Loveland,
James Boswell, and Jonathan Chally, and and the
State was represented by District Attorney Bradley
Smith and Senior Assistant Attorney General Beth
Burton.

App-7
REQUIREMENTS TO OBTAIN A HEARING
In order to obtain a hearing to determine
whether DNA testing should be ordered, Defendant’s
motion must comply with O.C.G.A § 5-5-41(c)(3) and
(c)(4). The Court previously found that Defendant’s
motion complied with the filing requirements of
subsections (c)(3) and (4), and scheduled a hearing.
Subsection (3) requires that the motion be verified by
the petitioner and show or provide the following:
(A) that evidence potentially containing
DNA was obtained in relation to the crime
and subsequent indictment, which resulted
in the petitioner’s conviction;
(B) the evidence was not subjected to the
requested DNA testing or was unknown to
the petitioner or his attorney at the time of
trial because such technology was not
available at that time;
(C) the identity of the perpetrator was or
should have been a significant issue in the
case;
(D) the requested testing would raise a
reasonable probability that the petitioner
would have been acquitted if the results of
the testing had been available at the time of
conviction, in light of all the evidence in the
case;
(E) a description of the evidence to be tested
and any known details about its present
location and original collection;

App-8
(F) the results of any other DNA or biological
evidence testing that was previously
conducted, if known;
(G) the contact information of all persons or
entities who may have possession of any of
this evidence; and (H) the contact
information of all persons or entities who
may testify for the petitioner.
Subsection (4) merely requires that the motion
state that it is not filed for the purpose of delay, and
that the issue has not been raised by the petitioner or
the requested DNA testing ordered in a prior
proceeding.
Defendant’s motion pled the necessary factors in
O.C.G.A § 5-5-41(c)(3) and (c)(4) such that this Court
ordered a hearing on the matter. In interpreting the
statute, this Court understands that Defendant had
to simply provide or state the information sought in
(c)(3) and (c)(4). It is this Court’s understanding,
pursuant to O.C.G.A § 5-5-41(c)(6)(E), that the
purpose of the hearing is then to determine whether
Defendant has established what is required in (c)(3)
and (c)(4) and ultimately whether there is a
reasonable probability that the verdict would have
been different if the results of the requested DNA,
assuming their validity, had been available at the
time of trial in light of all of the evidence presented
to the jury. This interpretation is consistent with the
holding in White v. State,
assuming the petitioner complies with the
filing requirements set forth in O.C.G.A. § 55-41 (c)(3) and (4), the trial court is required
to hold a hearing on the Motion. The

App-9
Petitioner
must
satisfy
the
filing
requirements and persuade the judge that
there is a reasonable probability that the
trial verdict would have been different if the
results of the requested DNA testing (which
are assumed to be valid for the purposes of
the motion) had been available at the time of
the petitioner’s trial. If the petitioner carries
this burden, the motion isto be granted
where each of the [O.C.G.A. 5-5-41 (c)(7)
factors] are established. 346 Ga. App. 448
(2018) (emphasis added).
In granting the hearing request, the Court did
not rule on the merits of whether Defendant had
actually established that the DNA testing would
raise a reasonable probability that he would have
been acquitted if the results had been available at
the time of conviction, in light of all of the evidence in
the case. The language of O.C.G.A § 5-5-41(c)(6)(E)
would have little meaning and import if granting a
hearing was tantamount to ruling on the merits.
ITEMS SOUGHT TO BE TESTED FOR DNA
Defendant seeks to have several items from the
crime scene tested for DNA. Those items and their
corresponding exhibit numbers are specifically laid
out in his Extraordinary Motion for New Trial and
For Post-Conviction DNA Testing. Those items which
Defendant contends should be given priority for
testing are addressed in his post-hearing brief. They
are identified generally as follows:
• 2 spent shotgun shell casings from the crime
scene;

App-10
• a lift from a partial fingerprint on one of the
shell casings found at the crime scene;
• the unfired shell casing found in the grease
pit at Defendant’s shop;
• wood fragments found near Joy Lance’s body;
• tape liftings and hand swabs from Joy Lance;
• Q hairs found on Butch Wood’s body; and
• latent prints found on the storm door and
front door to Butch Wood’s trailer.
The Court does not speculate about what the
results of the requested testing may be, but rather
presumes the hypothetical results to be valid for the
purpose of this motion. Crawford v. State, 278 Ga. 95
(2004).
ANALYSIS REGARDING REASONABLE
PROBABILITY OF A DIFFERENT VERDICT
The evidence at trial made clear that Defendant
was prone to fits of cruelty and violence, which he
inflicted on Joy for years. His jealousy of her
relationship with Butch led him to threatening to kill
Joy on multiple occasions if he caught her with
Butch. Even as recently as two weeks before the
murder, Defendant bit Joy’s nose and blackened her
eyes for refusing to have sex with him. Four years
before the murders of Joy and Butch, Defendant
attempted a nearly identical crime when he, along
with his life-long friend Joe Moore, kicked in the door
to Butch’s trailer 2 in the middle of the night.
Defendant was armed at that time with a sawed-off
2 Butch Wood was living in a different trailer at the time he
was murdered.

App-11
12 gauge shotgun. On December 8, 1997, Defendant
called Joy’s parents just before midnight and asked
to speak to his young daughter. Joy’s father, who had
answered the phone, told Defendant that the child
was asleep. Defendant then asked to speak to Joy
and was told that she was not at home. Minutes
later, a deputy who was familiar with Defendant saw
Donnie’s car leaving his driveway. According to
expert testimony, Joy and Butch were murdered
between midnight on December 8, 1997, and 5:00
a.m. on December 9, 1997. Butch’s door had been
kicked open, just like it had been four years prior.
Butch was shot in the back with a 12 gauge shotgun.
Joy had been beaten in the face with no less than five
crushing blows with an object not inconsistent with
the butt of a shotgun. Her face was mutilated beyond
recognition from the brutal blows.
The crime scene expert from the GBI was able to
lift a Diehard brand shoe imprint from the kicked-in
door. Records from the Sears store in Gainesville, the
closest one to Defendant, established that he
purchased Diehard shop shoes on September 9, 1996.
The shoes came with a one year warranty. On the
last day of the warranty, September 8, 1997, two
months before the murders, Defendant returned the
shoes to Sears and received an identical replacement
pair. When asked by law enforcement investigating
the murders if he owned or wore Diehard shoes,
Defendant responded “not that I know of.” When the
Diehard shoe box was found in his shop, Defendant
said that he did not know where the box came from.
Diehard shoe impressions matching the one on
Butch’s locked-in door were found by law
enforcement all around Defendant’s shop. No

App-12
Diehard shoes were ever recovered by law
enforcement despite multiple searches of Defendant’s
property.
Though Defendant was known to keep a sawedoff shotgun at his shop, the same one he carried when
he kicked in Butch Wood’s door in 1994, no shotgun
was ever recovered by law enforcement. Evidence
indicated that shotgun shells had recently been
removed from the shelf above where the shotgun was
customarily kept at Defendant’s shop, and two
Federal brand 12 gauge double-aught buck shells
were found at the crime scene in Butch’s trailer. A
matching Federal 12 gauge double-aught buck shell
was found in the grease pit of Defendant’s shop.
Defendant had told one of Joy’s co-workers that
he would kill Joy and the kids if he found them at
Butch’s house. Defendant told Butch’s ex-wife that
one day someone would find Butch and Joy dead in
that trailer.
Hours before the bodies of Joy and Butch were
discovered, Defendant told Joe Moore that both of the
victims were dead and that law enforcement would
probably be coming to his shop soon. After his arrest,
Defendant separately told two fellow inmates that he
killed Joy, revealing to one that he hit her so hard
that her eyeball stuck to the wall.
Addressing the probable impact of the
hypothetical DNA evidence, the Court shows as
follows:
With respect to the wood fragments from the
gun, shell casings, and spent round, there was no
evidence at trial that Defendant exclusively had
access to the gun and ammunition kept at his shop;

App-13
rather, testimony indicated that the gun was kept in
his shop, in plain view, and that people frequently
shot pool and hung out in his shop. Additionally, as
the Georgia Supreme Court pointed out in Hall v.
Lance, “it was a matter of common sense that the
murders could have been committed by more than
one person.” 286 Ga. 365, 375 (2010). Defendant had
broken into Butch Wood’s trailer four years before
with the assistance of Joe Moore. Accordingly, even if
DNA on the wood fragments, shell casings, and spent
round included someone’s DNA other than
Defendant’s, the Court finds it would not create a
reasonable probability of a different verdict in light of
all the evidence in the case.
The unfired shell in the grease pit at Defendant’s
shop showed that Defendant had access to the very
same shells that were used to murder Butch Wood.
The unfired shell in the grease pit was obviously not
used to kill Butch Wood. People with no motive to kill
Joy or Butch that hung out in Defendant’s shop could
have touched the unfired shell and left DNA on it.
The Court finds that someone else’s DNA on the
unfired shell from the grease pit would not create a
reasonable probability of a different verdict in light of
all the evidence in the case.
Butch was found dead in his underwear and Joy
was found completely naked. It is almost certain that
Joy’s and Butch’s DNA would be found on each other.
Joy’s sister, Jill Love, entered the home and was the
first to discover their dead bodies. Butch’s father was
the second person to enter the crime scene to check to
see if Butch was alive. Butch’s son was the third
person to enter the crime scene after hearing that his

App-14
dad had been shot. The son testified that he touched
Butch’s body. All three of these individuals were
present at the crime scene prior to the arrival of law
enforcement. Joy and Butch interacted with other
individuals the evening before they were murdered.
Touch DNA and hair of someone other than
Defendant, if found, on the bodies of Joy and Butch
would not create the reasonable probability of a
different verdict in light of all the evidence in the
case.
The storm door and front door would be expected
to have DNA from countless visitors at Butch’s home.
Virtually every person who entered Butch’s house
could have left touch DNA. DNA from persons other
than Defendant on the doors would not exonerate
him nor would it create a reasonable probability of a
different verdict in light of all the evidence in the
case.
DNA in certain types of cases is immensely
probative. Semen in a rape case is all but conclusive
when the identity of the perpetrator is the issue.
None of the items sought to be tested would have
anywhere near the probative value of semen in a
rape case. While the existence of touch DNA from
someone other than Defendant on the items sought to
be tested would be relevant and something that
Defendant would argue indicates reasonable doubt at
trial, it would not create a reasonable probability of
an acquittal in light of all the evidence in the case.
The jury did not convict Defendant because of DNA
evidence. The jury convicted him in three hours and
fifty minutes because his jealous, abusive, and
violent history towards Joy demonstrated his

App-15
capacity, desire, and motive to murder her. He lied
about owning the distinctive Diehard shoes which
connected him to the crime scene. The Diehard shoes
and shotgun he had been known to have had been
disposed of and were never recovered. The jury
convicted Defendant because he admitted to the
crime before the murders were known by anyone and
again after his arrest. The manner in which Joy was
beaten is indicative of a violence that is personal. If
someone simply wanted to kill Joy, he or she could
have shot her with the shotgun. Joy’s entire face was
beaten in. Defendant was the only person who had
exhibited that type of cruelty towards her. The jury
had no residual doubt as to its verdict and sentenced
Defendant to death after an additional one hour and
fifty minutes of deliberation. Juries are instructed
that there is no legal difference between direct and
circumstantial evidence. The motive to murder and
circumstantial evidence in this case were
overwhelming.
An extraordinary motion for new trial is not
favored, and one who seeks to overturn his conviction
for murder many years later bears a heavy burden to
bring forward convincing and detailed proof of his
innocence. Davis v. State, 283 Ga. 438 (2008). The
fundamental issue at stake is whether an innocent
person might have been convicted. The Court finds
that there is no reasonable probability that the jury
would have reached a different verdict if presented
with the hypothetical DNA test results sought by
Defendant.
Therefore,
Defendant’s
extraordinary motion for a new trial and for
post-conviction DNA testing is hereby denied.

App-16
REQUIREMENTS OF O.C.G.A. § 5-5-41(c)(7)
Even though the Court has found that the items
sought to be tested would not raise the reasonable
probability of a different verdict and that Defendant’s
motion is thus being denied, the Court will address
the (c)(7) factors which Defendant is also required to
establish before the motion for DNA testing can be
granted. The (c)(7) factors and analysis are as
follows:
(c)(7)(A) AV AVAILABILITY OF EVIDENCE
The first inquiry concerns whether “the evidence
to be tested is available and in a condition that would
permit the DNA testing requested in the motion.”
The State does not dispute that the evidence
Defendant seeks to have tested is available and in a
condition suitable for the requested DNA testing.
Therefore, the Court finds that this requirement is
satisfied.
(c)(7)(B) CHAIN OF CUSTODY
The second requirement relates to the chain of
custody, and requires that the evidence to be tested
“has been subject to a chain of custody sufficient to
establish that it has not been substituted, tampered
with, replaced, or altered in any material respect.”
The State does not dispute that the evidence
Defendant seeks to have tested has been subject to
such a chain of custody. Therefore, the Court finds
that this requirement is satisfied.
(c)(7)(C) PREVIOUS TESTING
The third question relates to previous testing of
the evidence, requiring that “the evidence was not
tested previously or, if tested previously, the

App-17
requested DNA test would provide results that are
reasonably more discriminating or probative of the
identity of the perpetrator than prior test results.”
The State does not dispute that the evidence
Defendant seeks to have tested has not been tested
previously. Therefore, the Court finds that this
requirement is satisfied.
(c)(7)(D) DELAY
The fourth inquiry relates to whether the motion
was made for the purpose of delay. O.C.G.A. § 5-5-41
(c)(4) requires that a petitioner’s motion merely state
that it is not being filed for the purpose of delay.
However, following this preliminary inquiry,
Defendant is eventually required to actually
establish that the motion has not been filed for the
purpose of delay. O.C.G.A. § 5-5-41(c)(7)(D). The
Court must resolve both factual and legal issues in
deciding whether Defendant has satisfied this
requirement. White at 451.
O.C.G.A.
§ 5-5-41(c)(1)
states
that
an
extraordinary motion for new trial is subject to the
provisions of subsection (a), which requires a
petitioner to show “some good reason” for delay if the
motion was made outside of a period of 30 days from
the entry of judgment. The statute provides that this
reason shall be judged by the Court. Id. The Georgia
Supreme Court has explained that this kind of good
reason “exists only where the moving party exercised
due diligence but, due to circumstances beyond its
control, was unable to previously discover the basis
for the claim it now asserts.” Ford Motor Co. v.
Conley, 294 Ga. 530, 541 (2014).

App-18
Defendant has failed to meet his burden of
showing that this motion was filed for some good
reason and not simply for the purpose of delay.
Evidence regarding the DNA testing now available
was presented through the affidavit and testimony of
Defendant’s DNA expert, Dr. Gregory Hampikian.
DNA testing has been possible for decades, despite
the fact that the technologies involved in collection
and analysis have advanced since the time of
Defendant’s trial. In 1990, seven years prior to the
commission of these crimes, the Georgia Supreme
Court held DNA identification to be admissible as
evidence. Caldwell v. State, 260 Ga. 278 (1990). One
of the first methods used for genetic typing involved
restriction fragment length polymorphisms (“RFLP”),
which required much larger samples of biological
material than did the later Short Tandem Repeat
(“STR”) method. (Defendant Initial Appendix 27, ¶ 11
(Affidavit of Hampikian)). STR testing became
available around 1998-1999, although RLFP was still
the relied-upon method for DNA testing through
2000. Id. Y-STR testing, which generates DNA
results from male-specific Y chromosomes, became
available around 2002. Id. at ¶ 26. Testing of “touch”
DNA, which is transferred by mere “touch” contact,
rather than by bodily fluids that would leave a stain
on an object, was performed by the State and
admitted as evidence in Georgia criminal cases as
early as 2007. Davis v. State, 304 Ga. 547, 549 (2018).
In 2011, two companies began producing STR kits for
testing of touch DNA with increased sensitivity.
(Defendant Initial Appendix 27, ¶ 20 (Affidavit of
Hampikian)). The newest advancement in this area
is probabilistic genotyping software, which employs

App-19
statistical analysis of DNA evidence to calculate the
probability that an individual touched a particular
object. Id. at ¶ 22. Dr. Hampikian testified that
TrueAllele, the particular probabilistic genotyping
program that Defendant seeks to use here, was being
used in 2017 but was only validated this year.
Advances in DNA collection methods have also
taken place during the past decade. Dr. Hampikian
testified at the July 31, 2019 hearing that the
traditional method involves using two swabs, one dry
and one wet, to collect DNA evidence that is later
copied and analyzed. The modern Bardole method,
which Defendant seeks to use in this case, involves
soaking a piece of evidence in a solution which is
then strained, isolating any DNA present in the
sample. A precursor to the Bardole technique, called
the “soaking” method, involves a very similar
process. The soaking method was developed in 2011
and was being used by the San Diego Police
Department in 2014. Dr. Hampikian testified that
the soaking method has likely been used by labs for
“a long time” but that the improvement the Bardole
method offers over the soaking method is better
cleaning of the sample and more effective removal of
chemicals or other substances that could interfere
with the DNA copying process.
Defendant has been aware since the time of his
trial that these items of evidence exist. Though
technology is constantly advancing and will always
continue to evolve, the law also requires diligence in
pursuing an extraordinary motion for new trial. The
grant of such a motion based on newly discovered
evidence is a remedy reserved for special cases in

App-20
which such facts or evidence had previously been
impossible to discover through due diligence.
Patterson v. State, 228 Ga. 389, 390 (1971).
Defendant argues that diligence should not
factor into the Court’s decision whether to grant a
request for DNA testing. Defendant cites the case of
Johnny Lee Gates, where that defendant’s motion for
DNA testing was granted more than forty years after
trial, and seeks to analogize it with the case at bar.
However, the items of evidence at issue in the Gates
case were thought to have been destroyed in 1979
and were only discovered by two interns in an office
in 2015. Within that same year, that defendant filed
his motion for DNA testing and new trial. That
court’s order granting Gates’ motion does in fact
consider diligence, engaging in an extensive diligence
analysis and finding that “Gates was diligent in his
request for DNA testing because he requested the
testing immediately after Georgia Innocence Project
interns located the two items of evidence in the
District Attorney’s Office in 2015.” Order on Def.’s
Extraordinary Mot. For New Trial, State v. Gates,
No. SU-75-CR-38335, p. 23 (Super. Ct. Muscogee Cty.
Jan. 10, 2019).
Despite his knowledge of the existence of these
evidentiary items, Defendant has waited to file this
motion until now, when all of his other remedies
have been exhausted. The Georgia Supreme Court
has consistently held that waiting even a few years to
raise evidence that the defendant either knew or
should have discovered by reasonable diligence
constitutes a lack of due diligence. Llewellyn v. State,
252 Ga. 426, 428-429 (1984); Bharadia v. State, 297

App-21
Ga. 567, 573 (2015); Drane v. State, 291 Ga. 298, 304,
(2012); Davis v. State, 283 Ga. 438, 445 (2008). Here,
the Court finds that Defendant did not diligently
pursue his claim, and that the instant motion was
filed for the purpose of delay.
To the extent that Timberlake applies to
Defendant’s motion, in “extraordinary motion[s] for
new trial, whether founded on a claim of newly
discovered evidence or other grounds ... ‘good reason
exists only where the moving party exercised due
diligence but, due to circumstances beyond [his]
control, was unable previously to discover the basis
for the claim.”’ Bharadia v. State, 297 Ga. 567 (2015)
(citations omitted). Under Timberlake, Defendant
must establish: (1) that the evidence has come to his
knowledge since the trial; (2) that it was not owing
to the want of due diligence that he did not acquire it
sooner; (3) that it is so material that it would
probably produce a different verdict; (4) that it is not
cumulative only; (5) that the affidavit of the witness
himself should be procured or its absence accounted
for; and (6) that a new trial will not be granted if the
only effect of the evidence will be to impeach the
credit of a witness. Timberlake v. State, 246 Ga-488,
491 (1980). In order to obtain a new trial, Defendant
must establish all six factors.
The Court finds that Defendant has known about
the physical evidence since the time of his 1999 trial
and has been continuously represented in his postconviction proceedings. AB proper venue for DNA
testing has always been with the trial court,
Defendant could have pursued this extraordinary
motion for new trial simultaneously with his habeas

App-22
proceedings, or he could have requested a stay in his
habeas proceedings in order to pursue the motion for
extraordinary trial. Defendant has failed to establish
that he was not able to properly file the motion in
this court while he was litigating his state and
federal habeas petitions. The Court finds that
Defendant failed to exercise due diligence by waiting
to file this motion until all other litigation was
completed and the final petition for writ of certiorari
to the US Supreme Court was denied.
Therefore, Defendant has not established
that the motion was not filed for the purpose of
delay.
(c)(7)(E) IDENTITY OF THE PERPETRATOR
The fifth requirement is that “the identity of the
perpetrator of the crime was a significant issue in the
case.” The State argues that the identity of
Defendant as the perpetrator of the murders was not
a significant issue at trial because of the large
amount of indirect evidence upon which the jury
relied in convicting him. Unlike a case in which the
identity of the perpetrator is known and the jury is
simply asked to decide whether the killing
constituted self-defense, for example, whether
Defendant was the perpetrator is precisely what the
jury was asked to decide in this case. Despite the
overwhelming indirect evidence pointing to
Defendant as the individual who killed Butch Wood
and Joy Lance, there was no eyewitness testimony,
security camera footage, or confession to law
enforcement. The Court is inclined to agree with
Defendant that his identity as the perpetrator of
these crimes was perhaps the most significant issue

App-23
at trial. Therefore, the Court finds that this
requirement is satisfied.
(c)(7)(F) SCIENTIFIC METHOD
Sixth, the statute requires that the requested
testing “employs a scientific method that has reached
a scientific state of verifiable certainty such that the
procedure rests upon the laws of nature.” Defendant’s
expert witness, Dr. Gregory Hampikian, testified
extensively at the July 31, 2019 hearing about the
scientific acceptance and reliability of the TrueAllele
and Bardole methods, and the State does not dispute
that these scientific methods have reached the
requisite state of verifiable certainty. Therefore, the
Court finds that this requirement is satisfied.
(c)(7)(G) MATERIALITY
The final requirement of the statute is that the
petitioner “has made a prima facie showing that the
evidence sought to be tested is material to the issue
of the petitioner’s identity as the perpetrator of, or
accomplice to, the crime, aggravating circumstance,
or similar transaction that resulted in the
conviction.” As to the materiality prong, the Court
has previously explained above that even if the DNA
results came back in a manner most favorable to
Defendant, there is no reasonable likelihood of a
different result in light of all the other evidence in
the case.
O.C.G.A. § 5-5-41 (c)(7) CONCLUSION
Having failed to establish all the required factors
from (c)(7)(A) through (G), Defendant’s motion is
denied as he cannot establish that the motion has not

App-24
been filed for the purpose of delay in light of the lack
of diligence exhibited in pursuing this motion.
FINAL CONCLUSION
The Court has carefully considered Defendant’s
Extraordinary Motion for New Trial and PostConviction DNA Testing and thoroughly reviewed
the record from Defendant’s trial in 1999. In light of
all of the evidence at presented at trial, the Court
finds that there is no reasonable likelihood that the
jury would have reached a different verdict if the
hypothetical DNA results had been available at the
time of trial. The Court also concludes that
Defendant, who was convicted in 1999, has failed to
establish that this motion was not filed for the
purpose of delay. DEFENDANT’S MOTION AND
REQUEST FOR DNA TESTING IS DENIED.
SO ORDERED
SEPTEMBER, 2019.

THIS

30TH

DAY

s/
NICHOLAS PRIMM
JUDGE, SUPERIOR COURT
JACKSON COUNTY

OF

App-25
Appendix B

SUPREME COURT OF GEORGIA
________________
No. S20D0423
________________
DONNIE CLEVELAND LANCE,
v.
THE STATE.
________________
December 2, 2019
________________
ORDER
The Honorable Supreme Court met pursuant to
adjournment.
The following order was passed:
DONNIE CLEVELAND LANCE v. THE STATE.
Upon consideration of Lance’s Motion to
Supplement Application to Appeal Denial of
Extraordinary Motion for New Trial, the motion is
granted, and the arguments presented therein are
considered pursuant to OCGA § 5-6-35 (a), (c).
Upon consideration of Lance’s application for
discretionary appeal as supplemented, it is denied.
All the Justices concur, except Warren, J.,
disqualified.

App-26
SUPREME COURT OF THE STATE OF GEORGIA
Clerk’s Office, Atlanta
I certify that the above is a true extract from the
minutes of the Supreme Court of Georgia.
Witness my signature and the seal of said court
hereto affixed the day and year last above written.
s/

, Clerk

App-27
Appendix C

SUPREME COURT OF GEORGIA
________________
No. S20D0423
________________
DONNIE CLEVELAND LANCE,
v.
THE STATE.
________________
January 13, 2020
________________
ORDER
The Honorable Supreme Court met pursuant to
adjournment.
The following order was passed:
DONNIE CLEVELAND LANCE v. THE STATE.
Upon consideration of the Motion for
Reconsideration filed in this case, it is ordered that it
be hereby denied.
All the Justices concur, except Warren, J.,
disqualified.

App-28
SUPREME COURT OF THE STATE OF GEORGIA
Clerk’s Office, Atlanta
I certify that the above is a true extract from the
minutes of the Supreme Court of Georgia.
Witness my signature and the seal of said court
hereto affixed the day and year last above written.
s/

, Clerk

App-29
Appendix D
SUPREME COURT OF GEORGIA
________________
No. S01P1813
________________
LANCE,
v.
THE STATE
________________
February 25, 2002
Reconsideration Denied March 28, 2002
560 S.E.2d 663, 02 FCDR 595, 275 Ga. 11 (2002)
________________
OPINION
BENHAM, Justice.
A jury found appellant Donnie Cleveland Lance
guilty of murdering Sabrina “Joy” Lance and Dwight
“Butch” Wood, Jr., and of burglary and possession of
a firearm during the commission of a crime.1 The jury
The crimes were committed on November 9, 1997. Appellant
was indicted by a Jackson County grand jury on March 3, 1998,
on two counts of malice murder, two counts of felony murder,
one count of burglary, one count of possession of a firearm
during the commission of a crime, and two counts of possession
of a firearm by a convicted felon. The State filed written notice
of its intent to seek the death penalty on March 19, 1998.
Lance’s trial began on June 14, 1999, and concluded on June 23
when the jury returned its guilty verdicts and fixed Lance’s
sentences for the murders at death. The trial court imposed two
death sentences on the two malice murder counts in conformity
with the jury’s sentencing verdicts and further imposed
1

App-30
fixed the sentence for the murder of Joy Lance at
death after finding beyond a reasonable doubt that
the murder was committed while appellant was
engaged in another capital felony (the murder of
Butch Wood), was committed while appellant was
engaged in a burglary, and was outrageously or
wantonly vile, horrible, or inhuman in that it
involved torture, depravity of mind, and an
aggravated battery to the victim. See OCGA § 17–10–
30(b)(2) and (7). The jury fixed the sentence for the
murder of Butch Wood at death after finding beyond
a reasonable doubt that the murder was committed
while appellant was engaged in another capital
consecutive terms of imprisonment of twenty years for the
burglary and five years for the possession of a firearm during a
crime. The other firearm possession charges were dismissed.
The felony murder verdicts were properly vacated by operation
of law. See Malcolm v. State, 263 Ga. 369, 371–372(4), 434
S.E.2d 479 (1993); OCGA § 16–1–7(a)(1). Pursuant to a notice of
appeal timely filed on July 19, 1999, Lance’s appeal was
docketed in this Court on December 16, 1999. The appeal was
stricken from this Court’s docket on February 11, 2000, and the
case was remanded for an evidentiary hearing requested by
Lance. This Court’s remittitur issued on May 11, 2000. After the
hearing was concluded, the appeal was docketed again in this
Court on August 30, 2001. The absence of a notice of appeal
preceding this appeal is not fatal to this appeal (compare
Davidson v. Callaway, 274 Ga. 813, 559 S.E.2d 728 (2002); City
of Atlanta v. SDH Investment Corp., Case No. S02A0247,
decided 11/30/01 (dismissed by unpublished order)) since OCGA
§ 17–10–35 requires mandatory appellate review of cases in
which the death penalty is imposed (Thomas v. State, 260 Ga.
262, 392 S.E.2d 520 (1990)), and the Unified Appeal Procedure
requires this Court to review a death penalty case whether or
not a notice of appeal is filed. See Rule IV A3(a)(2000). Colwell
v. State, 273 Ga. 338, 543 S.E.2d 682 (2001). Oral arguments
were heard on February 11, 2002.

App-31
felony (the murder of Joy Lance) and while appellant
was engaged in a burglary. See OCGA § 17–10–
30(b)(2).
1. The evidence presented at trial showed the
following. The bodies of the victims were discovered
in Butch Wood’s home on November 9, 1997. Butch
had been shot at least twice with a shotgun and Joy
had been beaten to death by repeated blows to her
face. Expert testimony suggested they had died
earlier that day, sometime between midnight and
5:00 a.m. The door to Wood’s home had imprints
consistent with size 7 ½ EE Sears “Diehard” work
shoes. Joy’s father testified he told appellant Joy was
not at home when appellant had telephoned him
looking for Joy at 11:55 p.m. on November 8. A law
enforcement officer testified he saw appellant’s car
leave appellant’s driveway near midnight. When
questioned by an investigating officer, Lance denied
owning Diehard work shoes; however, a search of
Lance’s shop revealed an empty shoe box that had
markings showing it formerly contained shoes of the
same type and size as those that made the imprints
on Wood’s door, testimony by Sears personnel showed
that Lance had purchased work shoes of the same
type and size and had then exchanged them under a
warranty for a new pair, and footprints inside and
outside of Lance’s shop matched the imprint on
Butch Wood’s door. Officers also retrieved from a
grease pit in Lance’s shop an unspent shotgun shell
that matched the ammunition used in Wood’s
murder.
Joe Moore testified he visited Lance at his shop
during the morning of November 9, 1997, before the

App-32
victims’ bodies were discovered. Referring to Joy,
Lance told Moore that “the bitch” would not be
coming to clean his house that day. Lance stated
regarding Butch Wood that “his daddy could buy him
out of a bunch of places, but he can’t buy him out of
Hell.” Lance also informed Moore that Joy and Butch
were dead. Moore disposed of several shotgun shells
for Lance, but he later assisted law enforcement
officers in retrieving them. The State also presented
the testimony of two of appellant’s jail mates who
stated appellant had discussed his commission of the
murders.
The State also presented evidence that appellant
had a long history of abuse against Joy, including
kidnapping, beatings with his fist, a belt, and a
handgun, strangulation, electrocution or the threat of
electrocution, the threat of burning with a flammable
liquid and of death by a handgun and with a
chainsaw, the firing of a handgun at or near her, and
other forms of physical abuse. Several witnesses
testified that appellant had repeatedly threatened to
kill Joy if she divorced him or was romantically
involved with Butch, and that Lance had also beaten
and threatened to kill Butch’s wife and several other
persons related to Joy. A relative of Joy testified that
Lance once inquired how much it would cost to “do
away with” Joy and Butch.
Towana Wood, who was Butch’s former wife, and
Joe Moore testified about an invasion of Butch’s
home committed by Joe Moore and appellant in 1993.
The invasion was prompted in part by appellant’s
belief that Butch was romantically involved with Joy.
In the 1993 incident, appellant kicked in a door to

App-33
the home, entered carrying a sawed-off shotgun, and
loaded the chamber of the shotgun.
Viewing all of the evidence adduced at the
guilt/innocence phase in the light most favorable to
the jury’s guilt/innocence phase verdicts, we conclude
that the evidence was sufficient to enable a rational
trier of fact to find beyond a reasonable doubt that
Lance was guilty on all charges of which he was
convicted. Jackson v. Virginia, 443 U.S. 307, 99 S.Ct.
2781, 61 L.Ed.2d 560 (1979). We apply the same
standard of review to conclude that the trial court did
not err by denying Lance’s motion for a directed
verdict at the conclusion of the guilt/innocence phase.
Miller v. State, 270 Ga. 741, 742(1), 512 S.E.2d 272
(1999).
Pretrial Issues
2. After receiving briefs from Lance and
conducting an ex parte hearing, the trial court issued
an ex parte order granting Lance $4,000 for
investigative assistance and denying his request for
funds to hire several experts. Lance argues on appeal
that the trial court erred by denying his request for
funds to hire experts on the issues of time of death
and latent footprint analysis.
This Court has held the following:
A motion on behalf of an indigent criminal
defendant for funds with which to obtain the
services of a scientific expert should disclose
to the trial court, with a reasonable degree of
precision, why certain evidence is critical,
what type of scientific testimony is needed,
what that expert proposes to do regarding

App-34
the evidence, and the anticipated costs for
services.
Roseboro v. State, 258 Ga. 39(3)(d), 365 S.E.2d 115
(1988). The decision whether to grant or deny an
indigent criminal defendant’s motion for the
appointment of an expert rests within the trial
court’s sound discretion, and the trial court’s decision
will be upheld in the absence of an abuse of
discretion. Crawford v. State, 267 Ga. 881(2), 485
S.E.2d 461 (1997). Our review of the record indicates
that Lance’s request for the contested funds was too
unspecific, uncertain, and conclusory to support a
finding that the trial court abused its discretion in
concluding that the requested funds were not
necessary to a fair trial. See Thomason v. State, 268
Ga. 298(7), 486 S.E.2d 861 (1997).
3. After reviewing the record, we conclude the
trial court did not abuse its discretion by denying
Lance’s motion for a continuance filed one month
before trial. See OCGA § 17–8–22; Johnson v. State,
271 Ga. 375(8), 519 S.E.2d 221 (1999).
4. Appellant sees error in the trial court’s denial
of appellant’s pre-trial motion to preclude the State
from seeking the death penalty. Appellant’s motion
was based on his assertion that the State would not
be able to prove its case against appellant. In order
for the trial court to have granted appellant’s motion,
appellant would have had to prove that the State
could not prove its case against him. See Speed v.
State, 270 Ga. 688(49), 512 S.E.2d 896 (1999);
Jenkins v. State, 269 Ga. 282(2), 498 S.E.2d 502
(1998) (motion to preclude State from seeking death
penalty properly denied when movant did not prove

App-35
grounds on which motion was based). Appellant did
not carry his burden; accordingly, the trial court did
not err in denying the motion.
Voir Dire
5. Contrary to appellant’s assertion, the process
of qualifying potential jurors on the basis of their
death penalty views is not unconstitutional. DeYoung
v. State, 268 Ga. 780(11), 493 S.E.2d 157 (1997).
6. The trial court did not err by denying
appellant’s request that he be permitted to conduct
voir dire about potential jurors’ views on the meaning
of a life sentence. In Zellmer v. State, 272 Ga. 735(1),
534 S.E.2d 802 (2000), this Court held that criminal
defendants and the State are entitled to examine
potential jurors on their inclinations and biases
regarding parole, but the examination
should be limited to jurors’ willingness to
consider both a life sentence that allows for
the possibility of parole and a life sentence
that does not. Exposure to the complexities
of the future role of the Board of Pardons
and Paroles ... is not an appropriate matter
for voir dire. Likewise, because OCGA § 17–
10–31.1(d) authorizes the trial court to
charge the jury on the meaning of life
imprisonment without parole and life
imprisonment,
“the
juror(s)’
beliefs
regarding the meaning of those options (are)
not a proper subject for voir dire.”
7. Lance complains that both the trial court and
the prosecutor asked questions during voir dire that
amounted to improper “coaching” of potential jurors
on issues related to the jurors’ death penalty

App-36
qualifications. Since appellant did not object to any of
the allegedly improper questions, this claim has been
waived. See Whatley v. State, 270 Ga. 296(5), 509
S.E.2d 45 (1998).
8. Lance contends the trial court erred when it
qualified three potential jurors who appellant
believes automatically would have imposed a death
sentence upon a conviction for murder. Because
Georgia law entitles a defendant to a panel of 42
qualified jurors, the erroneous qualifying of a single
juror for the panel from which the jury was struck
requires reversal. Lively v. State, 262 Ga. 510 (2), 421
S.E.2d 528 (1992). “A juror who will automatically
vote for the death penalty in every case” upon a
conviction for murder is not qualified to serve.
Morgan v. Illinois, 504 U.S. 719, 729, 112 S.Ct. 2222,
119 L.Ed.2d 492 (1992). This is true because such a
juror, instead of giving consideration to mitigating
circumstances, begins the trial with an unwavering
bias in favor of one of the sentences authorized under
law, to the exclusion of the others. See Zellmer, 272
Ga. at 736(1), 534 S.E.2d 802. A potential juror’s
views on capital punishment will disqualify the juror
from service if the juror’s views would prevent or
substantially impair the performance of the juror’s
duties as a juror in accordance with the instructions
given the juror and the oath taken by the juror.
Greene v. State, 268 Ga. 47, 48, 485 S.E.2d 741
(1997). See also Wainwright v. Witt, 469 U.S. 412,
424(II), 105 S.Ct. 844, 83 L.Ed.2d 841 (1985). In
conducting our review, this Court views the voir dire
of each juror as a whole and gives deference to the
findings of the trial court concerning any juror’s
possible bias. Greene, 268 Ga. at 48, 485 S.E.2d 741.

App-37
(a) Although prospective juror Casey stated that
he believed in “an eye for an eye” and thought the
death penalty should be given for a “violent murder,”
he also gave responses by which he indicated he
would not automatically impose a death sentence
upon a conviction for murder, he would consider any
mitigating evidence that might be presented, and he
would consider all three possible sentences.
(b) Prospective juror Dial acknowledged he would
not automatically give a death sentence in every
murder case. Although the juror later indicated he
would have strong feelings in favor of the death
penalty upon a conviction for murder and once stated
that “if you’re found guilty of murder you should get
the death penalty,” he also indicated he would also
listen to “additional evidence” after a murder
conviction and follow the law as given by the trial
court.
(c) Prospective juror Braswell “guess[ed]” and
“imagine[d]” that the death penalty would be the
appropriate punishment for a murder. However, the
juror also indicated he would give consideration to
both a life and a death sentence, he would not
automatically vote for the death penalty, and he
would follow the law as given by the trial court.
Viewing as a whole the voir dire of each of these
prospective jurors, we conclude that the trial court
did not abuse its discretion by finding the jurors
qualified.
9. Lance also argues the trial court erred when it
refused to disqualify four prospective jurors who
allegedly would not consider a life sentence.

App-38
(a) As discussed above, a juror who will consider
only a death sentence upon a conviction for murder is
not qualified to serve in a death penalty case. Under
Georgia law, the proper standard to be applied by the
trial court where a juror disfavors life with the
possibility of parole as a sentencing option is the
standard applied where a juror so favors the death
penalty that he or she might not give consideration to
mitigating evidence and a life sentence with or
without the possibility of parole. As stated above,
that standard is whether the juror’s views would
prevent or substantially impair the performance of
the juror’s duties in accordance with the trial court’s
instructions and the juror’s oath. Greene, 268 Ga. at
48, 485 S.E.2d 741. In conducting our review of the
trial court’s action, this Court views the voir dire of
each juror as a whole and affords due deference to
the trial court’s application of this standard, both in
the context of death versus life and in the context of
life without the possibility of parole versus life with
the possibility of parole. See Greene, 268 Ga. at 48,
485 S.E.2d 741.
(a) While juror Howard indicated he might favor
or “lean towards” the death penalty upon a conviction
for murder, he also indicated several times he would
not automatically select the death penalty and he
would give consideration to both life without the
possibility of parole and life with the possibility of
parole. We find no abuse of discretion in the trial
court’s determination that juror Howard was
qualified.
(b) Our review of the record confirms the State’s
assertion that Lance did not move the trial court to

App-39
disqualify the three other prospective jurors (Little,
Atha, and Flint) of whom appellant now complains.
The trial court did not err in failing to disqualify
these jurors sua sponte. Whatley, 270 Ga. at 298(3),
509 S.E.2d 45.
10. Lance contends the trial court erred in
excusing prospective juror McCullers despite the
juror’s willingness to consider the death penalty as a
sentencing option. Applying the same standard used
in Divisions 8 and 9 and affording the trial court’s
determination the same deference, we conclude the
trial court did not abuse its discretion by excusing
this juror over Lance’s objection. Juror McCuller’s
voir dire responses, viewed as a whole, demonstrated
he did not believe it would be possible for anything
presented at trial to overcome his strong religious
conviction that he must not take part in imposing a
death sentence. Greene, 268 Ga. at 51, 485 S.E.2d
741.
11. On appeal, Lance contends that jurors
Peters, Witcher, and Dockery were unqualified to
serve based on opinions formed through exposure to
pretrial influences. Lance made no motion to excuse
jurors Peters or Dockery, and the trial court did not
err by failing to excuse these two jurors sua sponte.
See Whatley, 270 Ga. at 297–298(2), 509 S.E.2d 45.
Our review of the record indicates that the trial court
did not abuse its discretion in finding that juror
Witcher did not hold any fixed opinions that would
require her disqualification. See id.
12. Lance asserts that the State’s race-neutral
reasons for striking three African American jurors
were insufficient. See Batson v. Kentucky, 476 U.S.

App-40
79, 106 S.Ct. 1712, 90 L.Ed.2d 69 (1986). After
reviewing the State’s asserted reasons for its strikes,
we conclude the trial court was not clearly erroneous
when it determined appellant had failed to carry his
burden of showing that the State was motivated by
discriminatory intent in the exercise of its strikes.
See Barnes v. State, 269 Ga. 345(6), 496 S.E.2d 674
(1998).
Guilt/Innocence Phase
13. Lance argued at trial that he should be
permitted in the guilt/innocence phase to introduce
evidence and to conduct direct and cross-examination
concerning purported acts of violence by the victims
against appellant and by Butch against Joy, and
purported violent and illegal incidents involving the
victims and third parties.
(a) This Court has long held that, as a general
rule, evidence of the character of a murder victim is
irrelevant and inadmissible at trial. Henderson v.
State, 234 Ga. 827(1), 218 S.E.2d 612 (1975). 2
however, a defendant may present evidence of a
victim’s violent and turbulent character when the
defendant can make a prima facie showing of
justification: that the victim was the assailant, the
defendant was assailed, and the defendant was
honestly seeking to defend himself. Id. See also Lewis
v. State, 268 Ga. 83(2), 485 S.E.2d 212 (1997)
(admission of victim’s specific acts of prior violence
2 “The general character of the parties and especially their
conduct in other transactions are irrelevant matter unless the
nature of the action involves such character and renders
necessary or proper the investigation of such conduct.” OCGA
§ 24–2–2.

App-41
must be preceded by same three-pronged showing
that victim was the assailant, appellant was the
assailed, and appellant acted to defend himself). In
the case at bar, appellant did not assert the defense
of justification; therefore, the exception to the general
rule is inapplicable, and the trial court did not err
when it did not permit appellant to present evidence
of the victims’ purported bad character or their
purported acts of violence against third parties.
Since the trial court announced it would allow
evidence of any acts of violence by either victim that
tended to directly rebut the State’s evidence of
Lance’s prior acts of violence against the victims, we
need not address appellant’s assertions that the trial
court would not permit him to present such evidence.
Appellant’s theory that Butch might have murdered
Joy and then have been murdered himself by some
other person in retaliation was too speculative and
unsupported to justify a suspension of the prohibition
against evidence of Butch’s alleged bad character and
past violent acts. The limitation actually imposed by
the trial court regarding the other proffered evidence
of the victims’ characters and past acts discussed by
Lance on appeal was proper, as Lance’s proffered
evidence would have served no proper purpose in the
guilt/innocence phase of his trial. Finally, appellant’s
argument that the State “opened the door” to
evidence of the victims’ connection to an alleged drug
dealer is without merit, because the incidental
introduction of some such evidence by the State
through Lance’s own unedited, audiotaped statement
did not harm Lance and, accordingly, should not be
regarded as imparting a right upon Lance to

App-42
introduce cumulative evidence for an improper
purpose.
(b) A criminal defendant has the right to present
evidence tending to show that another person is the
guilty party. See Henderson v. State, 255 Ga. 687(1),
341 S.E.2d 439 (1986). In order for such evidence to
be admitted, it cannot raise the mere speculation
that some other person committed the crime. Instead,
“the proffered evidence must raise a reasonable
inference of the defendant’s innocence....” Klinect v.
State, 269 Ga. 570(3), 501 S.E.2d 810 (1998). See also
Azizi v. State, 270 Ga. 709(6), 512 S.E.2d 622 (1999).
The trial court did not err in concluding that
appellant’s potential evidence that the victims
allegedly used and sold illegal drugs and that two
unidentified persons seven years earlier had kicked
in Butch’s door, abducted him, and beat him raised
no such reasonable inference.
(c) Contrary to his assertions on appeal, Lance
has shown no instance in the record where he was
prevented from attempting to impeach the State’s
witnesses or hearsay declarants by the methods
permitted under Georgia law. See Smith v. State, 270
Ga. 240(5), 510 S.E.2d 1 (1998) (noting that hearsay
declarants may be impeached only by same methods
applicable to witnesses testifying at trial).
14. The trial court did not err by refusing to
apply the necessity exception to the hearsay rule to
appellant’s proffer of the hearsay statements of a
witness living in Arizona whom Lance had not
attempted to subpoena under interstate subpoena
procedures. Compare Cook v. State, 273 Ga. 574(3),
543 S.E.2d 701 (2001).

App-43
15. The trial court was not clearly erroneous
when, after conducting a pretrial hearing, it ruled
that the similar transactions proffered by the State
at the hearing and subsequently admitted into
evidence at trial were sufficiently similar to the crime
being tried and were not too remote in time. See
Mullins v. State, 269 Ga. 157(2), 496 S.E.2d 252
(1998).
16. The trial court did not err by allowing
evidence of prior difficulties between Lance and the
victims.
[E]vidence of the defendant’s prior acts
toward the victim, be it a prior assault, a
quarrel, or a threat, is admissible when the
defendant is accused of a criminal act
against the victim, a the prior acts are
evidence of the relationship between the
victim and the defendant and may show the
defendant’s motive, intent, and bent of mind
in committing the act against the victim
which results in the charges for which the
defendant is being prosecuted.
Wall v. State, 269 Ga. 506, 509(2), 500 S.E.2d 904
(1998).
17. The trial court did not abuse its discretion in
concluding that the hearsay statements of Joy
introduced at trial were attended by sufficient
particularized guarantees of trustworthiness to be
admissible under the necessity exception to the
hearsay rule. See Gissendaner v. State, 272 Ga.
704(6), 532 S.E.2d 677 (2000).
18. The evidence of similar transactions and
prior difficulties admitted by the trial court did not

App-44
impermissibly place Lance’s character at issue. See
McKissick v. State, 263 Ga. 188, 189(2), 429 S.E.2d
655 (1993).
19. Appellant contends that the trial court erred
by refusing to suppress the fruits of a number of
searches. We find no error.
(a) Lance argues that a search conducted on
November 10, 1997, was unlawful because the
consent form he signed did not sufficiently limit the
search, making the search an allegedly illegal
“general search.” There is no merit in this argument
since the consent form Lance signed clearly indicated
the potentially extensive scope of the search to be
conducted, Lance gave oral consent to the scope of
the search actually conducted, and Lance attended
the actual search and never withdrew his consent.
See also Hall v. State, 239 Ga. 832(1), 238 S.E.2d 912
(1977) (where actual consent is given, considerations
applicable to non-consensual searches generally do
not apply).
(b) Lance argues that the searches conducted
pursuant to warrants on the following dates were
unlawful: November 11, 1997; December 5, 1997;
January 19, 1998; and June 15, 1998. For the reasons
set forth below, we conclude that each of these
searches was lawful because the magistrate had a
substantial basis for concluding probable cause
existed and the search warrants that issued were
sufficiently limited in scope.
In deciding whether to issue a search warrant,
the magistrate makes
a practical, common-sense decision whether,
given all the circumstances set forth in the

App-45
affidavit before him, including the “veracity”
and “basis of knowledge” of persons
supplying hearsay information, there is a
fair probability that contraband or evidence
of a crime will be found in a particular place.
State v. Stephens, 252 Ga. 181, 182, 311 S.E.2d
823 (1984). The duty of the reviewing court is “to
ensure that the magistrate had a ‘substantial
basis for conclud(ing)’ that probable cause
existed.” Id. After reviewing the record in light of
appellant’s arguments, we have determined
there was before the magistrate a substantial
basis to conclude that probable cause existed for
each of the warrants in question. Our review of
the record also leads us to dismiss as without
merit appellant’s assertion that the magistrate
did not view the totality of the circumstances “for
indications of the existence of reasonable
probability that the conditions referred to in the
sworn testimony would continue to exist at the
time of the issuance of the search warrant.”
Lewis v. State, 255 Ga. 101, 104(2), 335 S.E.2d
560 (1985). See Illinois v. Gates, 462 U.S. 213,
103 S.Ct. 2317, 76 L.Ed.2d 527 (1983); State v.
Luck, 252 Ga. 347, 312 S.E.2d 791 (1984).
Appellant also complains the report of a
“confidential witness” was improperly relied upon to
show probable cause for the November 11, 1997,
warrant. Although several unnamed witnesses were
described in the affidavit used in the application for
the warrant, these witnesses appear likely to have
been merely “citizen informers” rather than the sort
of “informants” typically deemed suspect without a

App-46
showing of reliability. See 3 LaFave, Search and
Seizure § 3.3, pp. 88–89 and § 3.4(a), p. 205 (3rd ed.
1996). While naming the witnesses might have
offered additional indicia of reliability by dispelling
any suspicion the witnesses were fictitious or were
somehow less credible than ordinary citizens,
sufficient other facts from named and reliable
sources were presented in the affidavit to show
probable cause.
Appellant also maintains that the magistrate
who issued the December 5, 1997, warrant relied
upon affidavit testimony about a “confidential
witness” who had informed the affiant of a large hole
filled with water on Lance’s property that had not yet
been searched. Even assuming that use of the report
of this witness, unlike the reports of ordinary
citizens, required a special showing of the witness’s
veracity, the affidavit specifically indicated that the
witness had previously given information that had
led to the discovery of “fruits” of the murders
committed in this case. Accordingly, there is nothing
objectionable in the magistrate’s partial reliance on
the witness’s report.
Having determined that probable cause was
shown for the issuance of each of the warrants in
question at the time of their issuance, we turn to the
question of whether the warrants were sufficiently
limited in scope. Each warrant authorized a search
for specified items of potential evidence as well as for
“any other fruits of the crime of murder.” Appellant
contends the latter phrase authorized an
impermissible “general search.” The quoted phrase is
understood as limiting the search to items (in

App-47
addition to the items specifically mentioned in the
warrant) reasonably appearing to be connected to the
specific crime delineated in the warrant. Because of
the nature of the probable evidence and “fruits” of the
specific crime delineated, we conclude that the
warrant did not authorize an unlawful general
search in contravention of the Fourth and Fourteenth
Amendments or of parallel provisions in Georgia law.
See Andresen v. Maryland, 427 U.S. 463, 479–482, 96
S.Ct. 2737, 49 L.Ed.2d 627 (1976); United States v.
Logan, 250 F.3d 350, 365(II)(B)(1) (6th Cir. 2001) (“A
description contained in a warrant is sufficiently
particular if it is as specific as the circumstances and
the nature of the alleged crime permit.”); United
States v. Smith, 918 F.2d 1501, 1507–1508(II) (11th
Cir. 1990); United States v. Buck, 813 F.2d 588,
591(II) (2d Cir. 1987) (noting that “ ‘boilerplate’
language in a warrant” is more likely to be found
permissible when “it was preceded by a list of specific
items to be sought”); United States v. Christine, 687
F.2d 749, 752–753(II) (3d Cir. 1982); see also United
States v. George, 975 F.2d 72, 75–77(I)(A) (2d Cir.
1992) (“[A]uthorization to search for ‘evidence of a
crime,’ that is to say, any crime, is so broad as to
constitute a general warrant.”); United States v.
Maxwell, 920 F.2d 1028, 1033–1034(II)(A) (D.C. Cir.
1990) (holding that reference in an search warrant to
certain crimes might be sufficiently narrowing but
that reference to other crimes might leave the scope
of the authorized search too broad).
20. Appellant’s failure to demonstrate the trial
court abused its discretion in deciding when to
adjourn in the evenings of the trial makes his
assertion of error in that regard without merit.

App-48
Spencer v. State, 260 Ga. 640(9), 398 S.E.2d 179
(1990).
21. We find no error in the trial court’s
overruling Lance’s “continuing witness” objection to
the admission into evidence of diagrams of the crime
scene and of Lance’s shop since the “continuing
witness” objection is not applicable to drawings or
other documents which, as here, were admitted into
evidence and were “demonstrative evidence that
serve[d] only to illustrate testimony given by the
witnesses.” James v. State, 270 Ga. 675(7), 513
S.E.2d 207 (1999). Lance raised no constitutional
objections to the diagrams and we see no merit in his
conclusory appellate argument that a constitutional
violation occurred.
22. Lance contends that the trial court erred by
propounding to a certain witness questions submitted
in writing to the trial court by the jury. While jurors
may not ask questions of witnesses directly (Hall v.
State, 241 Ga. 252(4), 244 S.E.2d 833 (1978)), a trial
court may receive written questions from the jury
and ask those questions the court finds proper. Story
v. State, 157 Ga.App. 490, 278 S.E.2d 97 (1981). See
Matchett v. State, 257 Ga. 785(2), 364 S.E.2d 565
(1988), where this Court noted that the trial court
“properly instructed the jury as to the appropriate
form of asking questions” which was “to submit any
questions they might wish to have answered to the
trial court in writing at the conclusion of the witness’
testimony.” The trial court did not abuse its
discretion in propounding the questions at issue in a
manner that intimated no opinion held by the trial
court in an effort to fully develop the truth of the

App-49
case. Eubanks v. State, 240 Ga. 544(2), 242 S.E.2d 41
(1978). We also find no error in the trial court having
read aloud to the parties another question submitted
by the jury in writing and then allowing the State to
ask the question when a witness was later testifying.
See Story v. State, supra, 157 Ga.App. 490, 278
S.E.2d 97.
23. Lance contends that the trial court erred
when it declined to declare a mistrial when a State’s
witness being cross-examined by defense counsel
testified he had taken and passed a polygraph
examination. The trial court’s strong curative
instruction and its questioning of the jury regarding
their ability to follow that instruction were sufficient
to remedy any damage to the fairness of the
proceedings. Accordingly, the trial court did not
abuse its discretion in denying Lance’s renewed
motion for a mistrial. Evans v. State, 256 Ga. 10(5),
342 S.E.2d 684 (1986). Compare Morris v. State, 264
Ga. 823(2), (3), 452 S.E.2d 100 (1995), where no
curative instructions were given.
Sentencing Phase
24. The trial court’s failure to charge the jury
that its findings of statutory aggravating
circumstances must be unanimous was not reversible
error because the trial court charged the jury that its
sentencing verdict must be unanimous. Wilson v.
State, 271 Ga. 811(12), 525 S.E.2d 339 (1999).
25. The jury found beyond a reasonable doubt
that the murder of Joy was committed during the
murder of Butch and that the murder of Butch was
committed during the murder of Joy. See OCGA
§ 17–10–30(b)(2). The trial court did not err by

App-50
submitting both of these statutory aggravating
circumstances to the jury for its consideration since
both were supported by the evidence. Heidler v.
State, 273 Ga. 54(22), 537 S.E.2d 44 (2000). However,
following this Court’s rule against “mutually
supporting aggravating circumstances,” we set aside
the jury’s finding that the murder of Joy was
committed during the murder of Butch (id.), but we
need not vacate the death sentence imposed for Joy’s
murder since it remains supported by at least one
remaining statutory aggravating circumstance. See
Division 26, infra. Heidler v. State, 273 Ga. 54(22),
537 S.E.2d 44; Jenkins v. State, 269 Ga. at
294(23)(a), 498 S.E.2d 502 (1998).
26. Although there was evidence that many of
the blows inflicted upon Joy likely would have
rendered her unconscious, there was also sufficient
evidence to support the jury’s finding that Joy’s
murder was outrageously or wantonly vile, horrible,
or inhuman and that her murder involved torture,
depravity of mind, and an aggravated battery against
her before her death. See OCGA § 17–10–30(b)(7).
There was evidence that Butch had been murdered
by multiple shotgun blasts in the same dwelling as
Joy and within her hearing before she was killed;
that Joy had been taken from the bed and thrust face
first into a door; and that Joy was returned to the bed
and brutally beaten repeatedly in the face until she
was horribly disfigured as well as dead. We reject
appellant’s argument that this statutory aggravating
circumstance was used in his case as an unlawful
“catchall” that failed to narrow appropriately the
application of the death penalty. See Phillips v. State,
250 Ga. 336(6)(c), 297 S.E.2d 217 (1982); Hance v.

App-51
State, 245 Ga. 856(3), 268 S.E.2d 339 (1980).
Compare Godfrey v. Georgia, 446 U.S. 420, 100 S.Ct.
1759, 64 L.Ed.2d 398 (1980). We note with approval
that the trial court’s charge to the jury on the OCGA
§ 17–10–30(b)(7) statutory aggravating circumstance
tracked the charge recommended by this Court in
West v. State, 252 Ga. 156, 161–162, 313 S.E.2d 67
(1984). See Suggested Pattern Jury Instructions: Vol.
II, Criminal Charges, Part 4(B), pp. 84–86 (1999).
27. OCGA § 17–10–1.2, which authorizes the
presentation of certain victim impact testimony, is
not unconstitutional. Livingston v. State, 264 Ga.
402, 444 S.E.2d 748 (1994). Appellant has not
demonstrated how the victim impact testimony
presented at the sentencing phase of his trial
exceeded the limits set in Turner v. State, 268 Ga.
213, 214–215, 486 S.E.2d 839 (1997). Although the
testimony was not read from written statements
previously scrutinized outside the jury’s presence by
the trial court and counsel as this Court
recommended in Turner, there is nothing in the
record indicating that this omission resulted in the
admission of unlawfully prejudicial testimony and/or
courtroom demeanor that the recommended
procedure was designed to avoid. Cf. Johnson v.
State, 271 Ga. At 385(19), 519 S.E.2d 221 (1999).
28. Lance has failed to demonstrate that the trial
court erred by admitting, over Lance’s objection
during the sentencing phase, certain photographs of
the victims and their family members. See OCGA
§ 17–10–1.2(a)(1).
29. Appellant has not shown error in the trial
court’s admission into evidence of either a wooden

App-52
paddle with Joy’s name written on it that appellant
had used to beat her, or a photograph of that paddle.
“[B]ad character evidence is admissible in the
sentencing phase.” Gulley v. State, 271 Ga. 337(8),
519 S.E.2d 655 (1999).
30. Appellant asserts that his cross-examination
of certain witnesses during the sentencing phase was
improperly limited by the trial court’s previous
rulings regarding evidence and testimony about the
victims’ alleged past bad acts and alleged bad
characters. Pretermitting the question of what are
the appropriate limits to evidence of a victim’s
character and past acts at the sentencing phase of a
death penalty trial, we note that appellant is
mistaken about the limits placed upon counsel at the
sentencing phase. The trial court advised counsel
that “the Court’s limitations as to evidence in the
first part of the trial are not necessarily the same in
the second part of the trial, that there is a greater—a
relaxation of some evidentiary rules in the
sentencing phase[.]” The trial court restated the
point twice, the second time specifically indicating
that the previous rulings on the State’s motions in
limine were no longer in force. In light of the trial
court’s statements, appellant has failed to show trial
court error with regard to any alleged limitations
placed upon him under these circumstances.
31. During the sentencing phase, Lance objected
on hearsay grounds to the introduction of two letters
written by Joy’s son after her death, both of which
expressed the child’s love for his mother, the fact that
he missed her and longed to see her, and the fact that
he cried at certain times. While the trial court erred

App-53
in overruling that hearsay objection on the ground
that the letters were not offered to demonstrate the
truth of the matter asserted therein (see
Gissendaner, 272 Ga. at 714–715, 532 S.E.2d 677
where the hearsay rules were applied to letters
written by children), we nevertheless conclude that
the error was harmless in light of the cumulative
evidence already properly admitted regarding the
child’s thoughts and emotional state. Appellant’s
argument regarding the inclusion in one of the letters
of the titles of two songs does not alter our finding of
harmlessness.
32. Although we have held that it “might be the
better practice” to charge the jury on the subject of
the credibility of witnesses during the sentencing
phase as well as at the conclusion of the
guilt/innocence phase, the failure to do so is not
reversible error where a proper charge was given
during the guilt/innocence phase. Wilson, 271 Ga. at
818, 525 S.E.2d 339.
33. The trial court did not err when it failed to
charge the jury that findings regarding mitigating
circumstances need not be unanimous since the trial
court properly charged the jury it was not necessary
to find any mitigating circumstances in order to
return a sentence less than death. Gissendaner, 272
Ga. at 716, 532 S.E.2d 677.
34. The trial court did not err by refusing to
allow evidence regarding the possible timing of
Lance’s parole eligibility if the jury were to impose a
sentence of life imprisonment rather than a sentence
of life imprisonment without parole or a sentence of
death. See Philpot v. State, 268 Ga. 168(2), 486

App-54
S.E.2d 158 (1997); Burgess v. State, 264 Ga. 777(33),
450 S.E.2d 680 (1994).
The trial court properly charged the jury on the
meaning of life imprisonment without parole. See
OCGA § 17–10–31.1(d).
Proceedings Held on Remand
35. Upon Lance’s motion, this Court remanded
this case for an evidentiary hearing regarding a
letter written to a newspaper by Frankie Shields, one
of the State’s witnesses at trial. In the letter, Shields
claimed the State had reneged on a promise, made in
exchange for his testimony against appellant, to
move him to a prison closer to his home. Shields’s
testimony at the hearing held on remand indicated
he lied in his letter to the newspaper. That evidence
authorized the trial court to find that no deal had
been offered to or made with Shields by the State
and, accordingly, the conclusion that Lance’s claim of
alleged suppression of exculpatory evidence must
fail. See McGee v. State, 272 Ga. 363(2), 529 S.E.2d
366 (2000) (trial court was authorized to weigh
conflicting testimony and to conclude that defendant
failed to prove he was deprived of any exculpatory
material); Jolley v. State, 254 Ga. 624(5), 331 S.E.2d
516 (1985); see also Giglio v. United States, 405 U.S.
150, 92 S.Ct. 763, 31 L.Ed.2d 104 (1972).
36. Appellant contends the trial court erred when
it permitted the district attorney to continue to serve
as the prosecutor after the DA testified at the posttrial hearing concerning the purported deal Shields
had made with the DA in exchange for his trial
testimony against appellant. Inasmuch as the district
attorney’s testimony was limited to a rebuttal of the

App-55
contents of Shields’s letter and was given nearly a
year after the jury found appellant guilty, none of the
dangers inherent in having an attorney testify in
court was present. See Timberlake v. State, 246 Ga.
488(7), 271 S.E.2d 792 (1980) (trial court has
discretion to allow a prosecutor to testify as a
rebuttal witness).
Constitutional Questions
37. There is no merit to Lance’s allegations that
OCGA § 17–10–30 et seq. violated his right to
“fundamental fairness,” that those statutes are
“vague and overbroad and not properly applied to the
facts of this case,” or that they are otherwise
unconstitutional in general or in his case. See Gregg
v. Georgia, 428 U.S. 153, 96 S.Ct. 2909, 49 L.Ed.2d
859 (1976); Morrow v. State, 272 Ga. 691(15), 532
S.E.2d 78 (2000). Compare Godfrey, 446 U.S. 420,
100 S.Ct. 1759.
38. Because this Court has directed that all
future executions in Georgia be carried out by lethal
injection, Lance’s argument that execution by
electrocution is unconstitutional is moot. See Dawson
v. State, 274 Ga. 327, 328, 554 S.E.2d 137 (2001).
Sentence Review
39. Upon our review of the record, we conclude
that the evidence adduced in the two phases of
Lance’s trial was sufficient to enable a rational trier
of fact to find beyond a reasonable doubt the
existence of the statutory aggravating circumstances
supporting the death sentences in this case. See
Jackson v. Virginia, 443 U.S. 307, 99 S.Ct. 2781, 61
L.Ed.2d 560; OCGA § 17–10–35(c)(2).

App-56
40. Lance committed the two murders for which
he has been sentenced to death as the culmination of
a long history of abuse and violence and after
announcing repeatedly his intent to harm the
victims. See Gissendaner, 272 Ga. at 717(19)(a), 532
S.E.2d 677 (noting that past conduct is relevant to
proportionality review). Considering both the crimes
and the defendant, we conclude that the death
sentences imposed for the murders in this case were
neither excessive nor disproportionate to the
penalties imposed in similar cases in this State.
OCGA § 17–10–35(c)(3). The cases appearing in the
Appendix support this conclusion in that they
demonstrate the willingness of juries to impose a
death sentence where a defendant has murdered
more than one person.
41. After reviewing the record of this case, we
conclude that the death sentences in this case were
not imposed under the influence of passion,
prejudice, or any other arbitrary factor. OCGA § 17–
10–35(c)(1).
Judgment affirmed.
All the Justices concur, except FLETCHER, C.J.,
SEARS,
P.J.,
HUNSTEIN,
THOMPSON,
CARLEY and HINES, JJ., who concur in judgment
only as to Division 22.
APPENDIX
Lucas v. State, 274 Ga. 640, 555 S.E.2d 440 (2001);
Rhode v. State, 274 Ga. 377, 552 S.E.2d 855 (2001);
Colwell v. State, 273 Ga. 634, 544 S.E.2d 120
(2000)[(2001)]; Heidler v. State, 273 Ga. 54, 537
S.E.2d 44 (2000); Morrow v. State, 272 Ga. 691, 532

App-57
S.E.2d 78 (2000); Pace v. State, 271 Ga. 829, 524
S.E.2d 490 (1999); Palmer v. State, 271 Ga. 234, 517
S.E.2d 502 (1999); Cook v. State, 270 Ga. 820, 514
S.E.2d 657 (1999); Jenkins v. State, 269 Ga. 282, 498
S.E.2d 502 (1998); DeYoung v. State, 268 Ga. 780,
493 S.E.2d 157 (1997); Raulerson v. State, 268 Ga.
623, 491 S.E.2d 791 (1997); McMichen v. State, 265
Ga. 598, 458 S.E.2d 833 (1995); Stripling v. State,
261 Ga. 1, 401 S.E.2d 500 (1991); Isaacs v. State, 259
Ga. 717, 386 S.E.2d 316 (1989); Ford v. State, 257
Ga. 461, 360 S.E.2d 258 (1987); Childs v. State, 257
Ga. 243, 357 S.E.2d 48 (1987); Romine v. State, 256
Ga. 521, 350 S.E.2d 446 (1986); Cargill v. State, 255
Ga. 616, 340 S.E.2d 891 (1986); Blanks v. State, 254
Ga. 420, 330 S.E.2d 575 (1985); Putman v. State, 251
Ga. 605, 308 S.E.2d 145 (1983); Wilson v. State, 250
Ga. 630, 300 S.E.2d 640 (1983); Rivers v. State, 250
Ga. 303, 298 S.E.2d 1 (1982); Rivers v. State, 250 Ga.
288, 298 S.E.2d 10 (1982); Waters v. State, 248 Ga.
355, 283 S.E.2d 238 (1981).

App-58
Appendix E
IN THE SUPERIOR COURT
OF BUTTS COUNTY
STATE OF GEORGIA
________________
No. 2003-V-490
HABEAS CORPUS
________________
DONNIE CLEVELAND LANCE,
v.

Petitioner,

HILTON HALL, Warden,
Georgia Diagnostic and Classification Prison,
Respondent.
________________
April 22, 2009
________________
FINAL ORDER
FINDINGS OF FACT
AND CONCLUSIONS OF LAW
PURSUANT TO O.C.G.A. § 9-14-49
This matter comes before this Court on the
Petitioner’s Amended Petition for Writ of Habeas
Corpus as to his convictions and sentences of death
from his trial in the Superior Court of Jackson
County. Having considered the Petitioner’s original
and amended Petition for Writ of Habeas Corpus (the
“Amended Petition”), the Respondent’s Answers to
the original and amended Petitions, relevant portions

App-59
of the appellate record, evidence admitted at the
hearing on this matter on August 28-30, 2006, the
documentary evidence submitted, the arguments of
counsel, and the post-hearing briefs, the Court
hereby DENIES the petition for writ of habeas
corpus as to the convictions and GRANTS the writ of
habeas corpus only as to the death sentences imposed
and VACATES Petitioner’s death sentences. This
Court makes the following findings of fact and
conclusions of law as required by O.C.G.A. § 9-14-49.
***
[Table of Contents omitted]
FINAL ORDER
I. PROCEDURAL HISTORY
On June 23, 1999, Donnie Cleveland Lance
(hereinafter referred to as “Petitioner”) was convicted
in the Superior Court of Jackson County on two
counts of malice murder, two counts of felony
murder, one count of burglary and one count of
possession of a firearm during the commission of a
crime. Following the sentencing phase of trial, the
jury returned two sentences of death against
Petitioner for the murders of Sabrina Joy Lance and
Dwight G. Wood, Jr. (R. 546-547). Petitioner was
further sentenced to twenty years for burglary and
five years for possession of a firearm during the
commission of a crime, all to be served consecutively.
The felony murder convictions were vacated by
operation of law.
The Georgia Supreme Court affirmed Petitioner’s
convictions and sentences on February 25, 2002.
Lance v. State, 275 Ga. 11 (2002). Thereafter,
Petitioner filed a petition for writ of certiorari in the

App-60
United States Supreme Court, which was denied on
December 2, 2002. Lance v. Georgia, 537 U.S. 1050
(2002).
On May 29, 2003, Petitioner filed the abovestyled habeas corpus petition challenging the
convictions and sentences entered in the Superior
Court of Jackson County, Georgia. A motions hearing
was conducted in this case on March 19, 2004. The
evidentiary hearing was held on August 28-30, 2006.
II. STATEMENT OF FACTS
The Georgia Supreme Court summarized the
facts of Petitioner’s case in its opinion on direct
appeal as follows:
The evidence presented at trial showed
the following. The bodies of the victims were
discovered in Butch Wood’s home on
November 9, 1997. Butch had been shot at
least twice with a shotgun and Joy had been
beaten to death by repeated blows to her
face. Expert testimony suggested they had
died earlier that day, sometime between
midnight and 5:00 a.m. The door to Wood’s
home had imprints consistent with size 7 1/2
EE Sears “Diehard” work shoes. Joy’s father
testified he told appellant Joy was not at
home when appellant had telephoned him
looking for Joy at 11:55 p.m. on November 8.
A law enforcement officer testified he saw
appellant’s car leave appellant’s driveway
near midnight. When questioned by an
investigating officer, Lance denied owning
Diehard work shoes; however, a search of
Lance’s shop revealed an empty shoe box

App-61
that had markings showing it formerly
contained shoes of the same type and size as
those that made the imprints on Wood’s
door, testimony by Sears personnel showed
that Lance had purchased work shoes of the
same type and size and had then exchanged
them under a warranty for a new pair, and
footprints inside and outside of Lance’s shop
matched the imprint on Butch Wood’s door.
Officers also retrieved from a grease pit in
Lance’s shop an unspent shotgun shell that
matched the ammunition used in Wood’s
murder.
Joe Moore testified he visited Lance at his
shop during the morning of November 9,
1997, before the victims’ bodies were
discovered. Referring to Joy, Lance told
Moore that “the bitch” would not be coming
to clean his house that day. Lance stated
regarding Butch Wood that “his daddy could
buy him out of a bunch of places, but he can’t
buy him out of Hell.” Lance also informed
Moore that Joy and Butch were dead. Moore
disposed of several shotgun shells for Lance,
but he later assisted law enforcement
officers in retrieving them. The State also
presented the testimony of two of appellant’s
jail mates who stated appellant had
discussed his commission of the murders.
The State also presented evidence that
appellant had a long history of abuse against
Joy, including kidnapping, beatings with his
fist, a belt, and a handgun, strangulation,

App-62
electrocution or the threat of electrocution,
the threat of burning with a flammable
liquid and of death by a handgun and with a
chainsaw, the firing of a handgun at or near
her, and other forms of physical abuse.
Several witnesses testified that appellant
had repeatedly threatened to kill Joy if she
divorced him or was romantically involved
with Butch, and that Lance had also beaten
and threatened to kill Butch’s wife and
several other persons related to Joy. A
relative of Joy testified that Lance once
inquired how much it would cost to “do away
with” Joy and Butch. Towana Wood, who
was Butch’s former wife, and Joe Moore
testified about an invasion of Butch’s home
committed by Joe Moore and appellant in
1993. The invasion was prompted in part by
appellant’s
belief
that
Butch
was
romantically involved with Joy. In the 1993
incident, appellant kicked in a door to the
home, entered carrying a sawed-off shotgun,
and loaded the chamber of the shotgun.
Lance v. State, 275 Ga. 11, at 13 (2002).
III. SUMMARY OF PETITIONER’S CLAIMS
The Petition for Writ of Habeas Corpus (as
amended) enumerates twenty-nine (29) claims for
relief. As is stated in further detail below, the Court
finds: (1) that some of the claims are procedurally
barred due to the fact that they were litigated on
direct appeal; (2) that some of the claims are
procedurally defaulted because Petitioner failed to
timely raise the alleged errors and failed to satisfy

App-63
the cause and prejudice test or
justice exception; (3) that some of
cognizable; and ( 4) that some
neither procedurally barred nor
therefore, properly before the
review.

the miscarriage of
the claims are nonof the claims are
defaulted and are,
Court for habeas

ABANDONED CLAIMS
To the extent Petitioner failed to brief his claims
for relief or failed to present evidence in support of
the claims, the Court deems those claims abandoned.
Any claims made by Petitioner that are not
specifically addressed by this Court are DENIED.
IV. CLAIMS BARRED BY RES JUDICATA
The following claims of the petition were raised
and litigated adversely to Petitioner on his direct
appeal to the Georgia Supreme Court in Lance v.
State, 275 Ga. 11 (2002). Therefore, this Court is
precluded from reviewing such claims under wellsettled Georgia Supreme Court precedent. See Elrod
v. Ault, 231 Ga. 750 (1974); Gunter v. Hickman, 256
Ga. 315 (1986); Roulain v. Martin, 266 Ga. 353
(1996).
The portion of Claim II wherein
Petitioner alleges that the trial court failed
to provide Petitioner with the necessary
assistance of competent and independent
experts on the issues of time of death
(pathologist) and latent footprint analysis
(crime scene expert), (see Lance v. State, 275
Ga. at 13-14(2));
The portion of Claim V wherein Petitioner
alleges that the State engaged in

App-64
prosecutorial misconduct by failing to
disclose material exculpatory information
regarding a deal given to Frankie Shields
and presenting false testimony 1 from
Frankie Shields about possible deals,
benefits, proceeds or other inducements they
had received, expected to receive or did
receive in exchange for such testimony. (see
Lance v. State, 275 Ga. at 25-26(35)).
Claim VI, wherein Petitioner alleges that he
did not kill, attempt to kill, or intend to kill
Joy Lance or Dwight Wood, Jr., (Enmund v.
Florida, 458 U.S. 782 (1982), (see Lance v.
State, 275 Ga. at l2-13(1));
Claim VIII, wherein Petitioner alleges that
the prosecution improperly relied upon
evidence of unadjudicated bad acts, (see
Lance v. State, 275 Ga. at 19-20(15)(16) and
(18));
Claim X, wherein Petitioner alleges that the
trial court erroneously permitted the
prosecution to introduce improper “victim
impact” testimony, (see Lance v. State, 275
Ga. at 24(27));
The portion of Claim XII wherein
Petitioner alleges that the prosecution
impermissibly struck a disproportionate
1 The Court notes that Shields’ testimony in the instant
proceeding does not establish that his trial testimony was false.
The Georgia Supreme Court credits trial testimony more than
post trial recantations. See Norwood v. State, 273 Ga. 352, 353
(2001).

App-65
number of jurors based on racial bias, (see
Lance v. State, 275 Ga. at 17(12));
Claim XVII, wherein Petitioner alleges that
his death sentences are disproportionate to
sentences sought and imposed on others who
have committed similar crimes, (see Lance v.
State, 275 Ga. at 26-27(40));
Claim XIX, wherein Petitioner alleges that
capital punishment is cruel and unusual,
(see Lance v. State, 275 Ga. at 26(37));
Claim XX, wherein Petitioner alleges that
the trial court erred in refusing to excuse for
cause numerous potential jurors (prospective
jurors Casey, Dial, Braswell and juror
Witcher), who were biased against Petitioner
and/or whose views regarding the death
penalty would have substantially impaired
their ability to fairly consider a sentence less
than death and to fairly consider and give
weight and meaning to all proffered
mitigating evidence, (see Lance v. State, 275
Ga. at 15-17(8)(9)(11 ));
Claim XXI, wherein Petitioner alleges that
the trial court erred in excusing for cause
prospective juror (Mc Cullers) whose views
on the death penalty were not extreme
enough to warrant exclusion, (see Lance v.
State, 275 Ga. at 17(10)); and
Claim XXVIl, wherein Petitioner alleges
that
Georgia’s
statutory
aggravating
circumstances as defined and applied are
unconstitutionally vague and arbitrary, (see
Lance v. State, 275 Ga. at 26(37)).

App-66
V. CLAIMS
WHICH
DEFAULTED

ARE

PROCEDURALLY

In his petition, Petitioner raises several claims
which are procedurally defaulted due to Petitioner’s
failure to raise the claims on trial and on direct
appeal. This Court finds that Petitioner has failed to
establish cause 2 and actual prejudice or a
miscarriage of justice sufficient to excuse his
procedural default of the following claims. See Black
v. Hardin, 255 Ga. 239 (1985); O.C.G.A. § 9-14-48(d);
Hance v. Kemp, 258 Ga. 649(4)(1988).
The portion of Claim II wherein
Petitioner alleges that the trial court failed
to provide Petitioner with the necessary
assistance of a mental health expert, a
polygraph expert, and a fingerprint expert;
Claim III, wherein Petitioner alleges that
his execution would be unconstitutional
because he suffers from mental retardation,
illnesses, and disabilities; 3

Petitioner has alleged that to the extent that counsel failed
to raise these claims at trial or direct appeal, counsel rendered
ineffective assistance of counsel in doing so. Except as set forth
in Section VII.A.9 below, these claims of ineffective assistance of
counsel are denied.
2

3 The Court addresses this claim on the merits in Section
VII.B. l below. See Schoefied v. Holsey, 281 Ga. 809, 816-17
(2007) (holding that the habeas court was correct in considering
new claim of mental retardation under the “miscarriage of
justice” exception to the rule of procedural default when issue
was not raised at trial).

App-67
Claim IV, wherein Petitioner alleges that
the jury committed misconduct throughout
all phases of trial;
The portion of Claim V wherein the
Petitioner alleges that the State engaged in
misconduct by not disclosing relevant,
material exculpatory files, documents and/or
evidence regarding acts of misconduct by
members of the jury venire, the actual jurors
and/or the alternate jurors;
The portion of Claim V wherein Petitioner
alleges that the State made improper
arguments to the jury;
Claim VII, wherein Petitioner alleges that
the
prosecution
suppressed
material
exculpatory evidence, including but not
limited to, evidence of communications and
meeting with certain key witnesses who
testified against the Petitioner; 4
Claim IX, wherein Petitioner alleges that
the trial court erred in admitting gruesome
and prejudicial photographs and videotape
taken of the crime scene and the victims;
Claim XI, wherein Petitioner alleges that
the grand jury and traverse jury were
unconstitutionally composed and were the
result of unconstitutional practices and
procedures;
4 To the extent Petitioner alleges that that the State
suppressed exculpatory evidence with regard to Frankie
Shields, this claim was addressed and decided adversely to
Petitioner on direct appeal. Lance v. State, 275 Ga. At 24 (28).

App-68
The portion of Claim XII wherein
Petitioner alleges that the prosecution
impermissibly struck a disproportionate
number of jurors based on gender bias;
Claim XIII, wherein Petitioner alleges that
the State destroyed and/or failed to preserve
potentially exculpatory evidence;
Claim XVI, wherein Petitioner alleges that
the lack of a uniform standard for seeking
and imposing the death penalty across
Georgia and the prosecutor’s potential
arbitrary abuse of discretion to seek the
death penalty renders his death sentence
unconstitutional;
The portion of Petitioner’s PostHearing Brief (as it relates to Claim XX)
wherein Petitioner alleges that the trial
court improperly qualified juror Queen to
serve on Petitioner’s case;
Claim XXII and Claim XXIII, wherein
Petitioner alleges that the trial court’s
instructions to the jury regarding reasonable
doubt were unconstitutional;
Claim XXIV, wherein Petitioner alleges
that the verdict form was unconstitutionally
vague;
Claim XXVIII, wherein Petitioner alleges
that the application of Georgia’s Unified
Appeal Procedure is unconstitutional; and
The portion of Petitioner’s PostHearing Brief wherein Petitioner alleges

App-69
that the trial court erred when it denied
Petitioner’s request for additional counsel.
With regard to the allegation in Petitioner’s
Post-Hearing Brief that the trial court erred when
it denied Petitioner’s request for additional counsel,
the Court notes that Petitioner had retained the
counsel of his choice for his trial. J. Richardson
Brannon, Petitioner’s trial counsel, was an attorney
who had extensive criminal litigation experience,
including capital litigation experience. (Res. Ex. 2,
HT 8304-8305, 8308-8309; HT 35-36). Petitioner
relies on the American Bar Association’s guidelines,
which recommend that two qualified attorneys be
assigned to represent capital defendants, as well as
Georgia’s Unified Appeal Procedure, in support of
this claim. The Court notes that the ABA guidelines
are not “requirements” which were binding on the
trial court at the time of trial, and the Unified Appeal
Procedure did not become effective until after
Petitioner’s trial. Although the better practice would
have been for the trial court to appoint second
counsel to assist in the Petitioner’s defense, the
Court finds that Petitioner has failed to establish
cause and prejudice or a miscarriage· of justice to
overcome his default of this claim.
In Claim IV Petitioner alleges that the jury
committed misconduct throughout all phases of trial,
including but not limited to the following:
1) Jurors searched
deliberations;

the

Bible

during

2) Jurors violated their oaths and the trial
court’s instructions;

App-70
3) Jurors were tainted and/or affected by
and/or relied upon outside, extraneous
and/or unlawful influences, facts, factors,
sources of fact and/or law, persons and
officials, including religious and/or religiousrelated materials;
4) Jurors failed to reveal relevant and
material information during voir dire, on
jury questionnaires, and/or when they were
questioned by the parties and/or the judge;
5) Jurors improperly considered
extraneous to the trial;

matters

6) Certain jurors refused to deliberate;
7) Certain jurors participated in ex parte
deliberations;
8) Certain
jurors
participated
in
deliberations prior to the conclusion of the
guilt/innocence and/or penalty phases of
trial;
9) Jurors had improper biases that infected
their deliberations; and
10) Jurors improperly prejudged Petitioner’s
case;
Petitioner argues that the jurors prayed
together, consulted the Bible to justify imposing the
death penalty and that there were Gideon Bibles in
their hotel rooms. Petitioner failed to raise these
claims at trial or on direct appeal although the
alleged basis for these claims was available to trial
and appellate counsel, just as it was available to
habeas counsel. Petitioner’s allegation rests solely on
the testimony of juror Tona Harrell. Significantly,

App-71
the affidavit of Tona Harrell was obtained by
Petitioner on October 23, 1999, which was four
months after Petitioner”s trial. (HT 3494).
Petitioner’s appeal was docketed in the Georgia
Supreme Court on December 16, 1999. Subsequently,
the case was remanded for an evidentiary hearing on
the issue of whether Frankie Shields was given a
“deal” by the State prior to trial. After the hearing
was concluded, the appeal was docketed again on
August 30, 2001. See Lance, 275 Ga. at 12.
Accordingly, as Petitioner was aware of the basis of
this claim at the time of the April 2000 hearing in the
trial court, Petitioner could have reasonably raised
this claim in a motion for new trial or on direct
appeal.
Georgia law is clear that claims Petitioner failed
to raise on direct appeal are not reviewable by this
Court as Petitioner has failed to establish the
requisite cause and prejudice or a miscarriage of
justice to overcome his procedural default of these
claims. See, e.g., Black v. Hardin, 255 Ga. 239, 336
S.E.2d 754 (1985); O.C.G.A. § 9-14-48(d). Accordingly,
Petitioner has procedurally defaulted this claim and
it is barred from this Court’s review. Black v. Hardin,
supra.
As to prejudice, Petitioner has failed to show
that the jury improperly relied on the Bible or
prayer. The affidavit and deposition of Tona Harrell
states that “[the jurors] also prayed together a lot
and several people searched the Bible for assistance
in being comfortable with our decision.” (HT 1260,
HT 3492). Regarding the fact that the jurors prayed
together, Ms. Harrell stated:

App-72
I don’t recall any prayer to help us with the
deliberation. I recall prayer because it was
such an emotional task that we had ahead of
us. And it was very emotional. I mean, we
had a decision to make that was an
important decision. And I remember—and I
can’t remember if it was a prayer led. I don’t
remember the exact details, but it was about
just—it was for us. It wasn’t the case. It was
for us to give us comfort and to know that—
you know, comfort. I mean, that’s the only
word I can think of to describe it to you. It
was just to give us comfort.
(HT 1259-1260). She further stated that no one
quoted verses from the Bible. (HT 1259).
Ms. Harrell testified that she did not search the
Bible for assistance in making her decision, and she
did not recall that other jurors were searching the
Bible for scriptures. (HT 1260). In fact, she did not
recall seeing any jurors physically looking in the
Bible. (HT 1261). She explained that she prayed for
“personal reason?” in that it was a “personal
comfort.” (HT 1258-1259). Ms. Harrell further stated
that she did not pray out loud, and she could not
recall any of the other jurors praying out loud. (HT
1259). Moreover, Ms. Harrell repeatedly stated in her
deposition that there was not a Bible in the jury
room, and none of the jurors quoted scriptures from
the Bible during their deliberations. (HT 1259, 1261).
To establish the requisite prejudice, Petitioner
had to show that the jurors relied on the Bible for
their sentencing decision, not merely that the jury
read the Bible or prayed for personal inspiration or

App-73
spiritual guidance as the facts establish in the
instant case. As held by the Georgia Supreme Court
in Cromartie v. State, 270 Ga. 780, 789-790 (1999), “a
juror’s personal use of the Bible or other religious
book outside the jury room is not automatically
prohibited.”
Additionally, in Cromartie, the Georgia Supreme
Court relied on Jones v. Kemp, 706 F.Supp. 1534,
1560 (N.D. Ga. 1989), in which the district court held,
“[t]he court in no way means to suggest that jurors
cannot rely on their personal faith and deeply-held
beliefs when facing the awesome decision of whether
to impose the sentence of death on a fellow citizen....”
Thus, “possession, even in the jury room, of personal
Bibles, perhaps even consulted for personal”
“inspiration
or
spiritual
guidance”
is
not
automatically prohibited. (Emphasis added).
Accordingly, Petitioner has failed to establish the
requisite miscarriage of justice or cause and
prejudice to overcome his default of this claim and it
remains barred from this Court’s review.
As to the remainder of Petitioner’s juror
misconduct claims, he has failed to support them
with any evidence or argue them to this Court, thus
the Court find that Petitioner has failed to establish
cause and prejudice or a miscarriage of justice to
overcome his default of these claims.
With regard to the portion of Petitioner’s PostHearing Brief (as it relates to Claim V) wherein
Petitioner alleges that the State made improper
arguments to the jury, the Court finds that Petitioner
has failed to establish cause and prejudice or a

App-74
miscarriage of justice to overcome his default of this
claim.
The Court finds that the State’s argument that
the past incidents of violence by Petitioner against
both victims imply that he killed them was not
improper. (T. 1926-28, 1929). Prior bad acts “are
evidence of the relationship between the [victim and
the defendant] and may show the defendant’s motive,
intent, and bent of mind in committing the act for
which he is being tried.” Graham v. State, 274 Ga.
696, 698 (2002); see also Dixon v. State, 275 Ga. 232,
233 (2002) (finding that the admission of prior
violence was proper because it was “illustrative of
[the defendant’s] abusive course of conduct toward
[the victim]”). Furthermore, this Court notes that
this evidence was admitted at trial as unadjudicated
prior bad acts and the admission of this evidence was
upheld by the Georgia Supreme Court in Petitioner’s
direct appeal. See Lance v. State, 275 Ga 11, 19
(2002). Because the State relied upon admissible
evidence in making a proper deduction of motive,
intent, bent of mind, or course of conduct, Petitioner
failed to establish cause and prejudice or a
miscarriage of justice to overcome his default of this
claim.
The Court finds that the prosecution’s
statements that Petitioner loved to inflict pain on the
victim and that Petitioner’s culpability for the
murders can be implied from his own statement, “if I
can’t have you no one else can,” were not improper.
(T. 1928, 1935). Both the State and the defendant are
given wide leeway during closing argument to argue
all reasonable inferences that may be drawn from the

App-75
evidence. Smith v. State, 279 Ga. 48, 50 (2005). An
attorney may make almost any form of argument he
or she desires if it is based upon the facts in the
record and the deductions that may be drawn
therefrom. Whether such argument is illogical,
unreasonable, or even absurd, is a matter left for the
reply of the adverse party, not for rebuke by the
court. Morgan v. State, 267 Ga. 203, 203-204 (1996).
As these arguments were reasonable inferences from
the considerable evidence that came out at trial of
violence, domestic abuse, and death threats that
Petitioner repeatedly imposed on the victims,
Petitioner failed to establish cause and prejudice or a
miscarriage of justice to overcome his default of this
claim.
Petitioner claims that the State commented on
Petitioner’s failure to waive his privilege against selfincrimination, but has provided no citation to the
trial transcript in support of this claim. The Court
concludes Petitioner has abandoned his attempt to
establish cause and prejudice or a miscarriage of
justice and has not overcome the procedural default
of this claim.
Petitioner also alleges that the State’s comments
about mercy and deterrence were in error. (T. 193637, 1940). The Court finds that both of these
arguments are proper. The Georgia Supreme Court
has held that it is acceptable for the prosecution to
argue that the defendant showed the victim no
mercy. See Crowe v. State, 265 Ga. 582, 592-593;
Moon v. State, 258 Ga. 748, 760 (1988). The Georgia
Supreme Court has also held that a prosecutor may
vigorously argue that a death sentence is the

App-76
appropriate punishment and may remind the jury of
the retributive and general deterrent function of its
verdict. Fleming v. State, 265 Ga. 541, 458 (1995);
Ford v. State, 255 Ga. 81, 93 (1985). As such, the
prosecutor’s references in the instant case to
Petitioner’s lack of mercy and his use of the phrase,
“There’s only one verdict that will stop the Donnie
Lances of this world,” were not improper. Petitioner
failed to establish cause and prejudice or a
miscarriage of justice to overcome his default of this
claim.
Petitioner claims that the State argued facts not
in evidence; however Petitioner does not allege which
facts he is challenging. Therefore, the Court
concludes Petitioner has abandoned his attempt to
establish cause and prejudice or a miscarriage of
justice and has not overcome the procedural default
of this claim.
Petitioner also claims that the prosecutor
improperly offered his personal opinion during
closing arguments. (T-1762-1765, 1769-72, 1773,
1776-77, 1778, 1785-86, 1790-91, 1805-06, 1807,
1808, 1810, 1813, 1814, 1823-27, and 1829). The
Georgia Supreme Court has held that a prosecutor’s
statements, even if “couched in the framework of
personal opinion,” are not improper if the statements
are inferences drawn from the evidence. See Carr v.
State, 267 Ga. 547, 556 (1997). See also Shirley v.
State, 245 Ga. 616, 617 (1980) (holding that it is not
improper for a prosecutor to urge the jury to draw
conclusions as to a witness’ veracity from the
evidence); Jackson v. State, 281 Ga. 705, 708 (2007)
(finding that a “prosecutor’s use of phrases such as ‘I

App-77
think’ and ‘I know’ does not amount to an
impermissible statement of personal opinion”). The
Court finds that some of the statements alleged by
Petitioner to be opinions are actually not opinions,
and the remaining statements are permissible
inferences from the evidence that are merely set in
the framework of a personal opinion. See Carr, 267
Ga. at 556. Thus, the Court concludes that Petitioner
failed to establish cause and prejudice or a
miscarriage of justice to overcome his default of this
claim.
Petitioner claims that the State improperly
referred to religion and/or God in the closing
argument. The laws of Georgia do not forbid all
references to religion in a closing argument. The
Georgia Supreme Court has held, “It is not and has
never been the law of Georgia that religion may play
no part in the sentencing phase of a death penalty
trial.” Greene v. State, 266 Ga. 439, 449 (1996).
“While it is improper for the prosecutor to urge the
imposition of the death penalty based on Appellant’s
beliefs or to urge that the teachings of a particular
religion mandate the imposition of that sentence, the
prosecutor nevertheless may allude to such principles
of divine law relating to transactions of men as may
be appropriate to the case.” Hill v. State, 263 Ga. 37,
46 (1993). While the Georgia Supreme Court has
found error in references to religion which invite
jurors to base their verdict on extraneous matters not
in evidence, (id. at 45-46), the Court has
distinguished these direct references from passing
religious references. See Carruthers v. State, 272 Ga.
306, 309-310 (2000).

App-78
In the instant case, the State did not
impermissibly invite the jurors to base their verdict
on divine law or on any extraneous matters not in
evidence. During the State’s closing argument, the
prosecutor stated, “God does not like to see crimes
like this go unpunished. ... And that unseen hand of
God is what brought Donnie Lance to justice.” (T.
1940-1941). When read in context, the prosecutor
actually was referring’ to God’s intervention in the
discovery of incriminating evidence against
Petitioner. (T. 1778, 1940). These statements did not
suggest that the jury should rely on divine law in
sentencing Petitioner to death.
In determining that Petitioner failed to establish
cause and prejudice or a miscarriage of justice to
overcome his procedural default of this claim, the
Court also notes that defense counsel argued at
length during his closing argument that the jury
should give Petitioner a lesser sentence based on the
teachings of Jesus and the Christian principles of
forgiveness and mercy. (T. 1945-1949). Given the
fervent religious arguments against the death
penalty made by Petitioner’s counsel at trial, there is
no error resulting from the prosecutor’s two
references to God’s involvement in bringing
Petitioner to justice. See Crowe, 265 Ga. at 593
(finding that the State’s references to religion and the
Bible were not error because the defendant’s own
mitigation evidence focused on an appeal to religion).
In a portion of Petitioner’s Post-Hearing
Brief (as it relates to Claim V) Petitioner alleges
that the State violated his constitutional rights by
not disclosing an alleged deal with Morgan

App-79
Thompson (a/k/a Frank Morton). Petitioner failed to
raise this allegation on direct appeal. The Court finds
that the claim was available to appellate counsel just
as it was available to habeas counsel, particularly in
light of the fact that habeas counsel rests this claim
on the testimony of Frankie Shields, with whom
appellate counsel spoke.
Further, the Court finds that Petitioner has
failed to establish cause and prejudice or a
miscarriage of justice with regard to this claim as
Petitioner has failed to submit any admissible
evidence in support of his allegation as Petitioner
only introduced the hearsay testimony of Frankie
Shields about statements Mr. Thompson allegedly
made to Mr. Shields. (HT 426-430). The Court finds
that these statements based on speculation and
hearsay have no indicia of reliability and are not
admissible evidence. (HT 426-430).
Moreover, the Court notes that the admissible
evidence before it demonstrates that there was no
deal with Mr. Thompson. Mr. Madison testified that
there was no deal of any kind in exchange for Mr.
Thompson’s testimony against Petitioner. (HT 520521). Mr. Thompson himself testified at trial that
there was no deal, no promises, and no consideration
offered in exchange for his testimony. (TT 1232).
For the above and foregoing reasons, the Court
finds that Petitioner failed to overcome his
procedural default of this claim.
In Claim IX Petitioner alleges that gruesome
photographs and a video of the crime scene and the
victims were improperly admitted into evidence.
However, the admission of evidence is a matter

App-80
within the sound discretion of the trial court. Baker
v. State, 246 Ga. 317 (1980). This discretion extends
to issues of whether the probative value of evidence
is outweighed by its tendency to unduly arouse the
jury. Smith v. State, 255 Ga. 685 (1986). The Georgia
Supreme Court has explained, “any evidence is
relevant which tends to prove or disprove a material
fact which is at issue in the case, and every act or
circumstance serving to elucidate or throw light upon
a material issue or issues is relevant.” Owens v.
State, 248 Ga. 629, 630 (1981). In Owens, the Georgia
Supreme Court stated that “the trial court has wide
discretion in determining relevancy and materiality,”
and that “where the relevancy or competency is
doubtful, it should be admitted, and its weight left to
the determination of the jury.” Id. at 630.
Moreover, the Georgia Supreme Court has long
held that photographs which are relevant to an issue
in the case are generally admissible even though they
may be horrific and have an effect upon the jury.
Ramey v. State, 250 Ga. 455, 456 (1983); Simon v.
State, 253 Ga. 681 (1985); Lee v. State, 247 Ga. 411
(1981). Photographs which are material and relevant
to any issue are admissible even though they are
duplicative. Moses v. State, 245 Ga. 180, 187 (1980).
Unless there are some very exceptional
circumstances, photographs of the deceased are
generally admissible to show ‘‘the nature and extent
of the wounds, the location of the body, the crime
scene, the identity of victim and other material
issues. Moses v. State, 244 Ga. 180, 187 (1980).
“Although photographs of the victim are prejudicial
to the accused, so is most of the state’s pertinent

App-81
testimony. The pictures may be gory, but murder is
usually a gory undertaking.” Id.
As the exhibits about which Petitioner complains
were admissible to show the nature and extent of the
wounds of the victims, the locations of their bodies,
the crime and the crime scene, the trial court did not
abuse its discretion in admitting these photographs.
Thus, Petitioner has failed to establish cause and
prejudice or a miscarriage of justice to overcome his
procedural default of this claim.
In Claims XXII and XXIII Petitioner alleges
that the trial court’s instruction to the jury on
reasonable doubt was unconstitutional in that it
misstated the law and equated reasonable doubt with
moral certainty which allegedly reduced the State’s
constitutionally mandated burden of proof. However,
neither the United States Supreme Court nor the
Georgia Supreme Court has found that the inclusion
of the words “moral” and “reasonable” in a burden of
proof charge violates due process by diminishing the
legal standard required to convict the defendant. See
Vance v. State, 262 Ga. 236, 237(1992); Rivers v.
State, 224 Ga. App. 558 (1997); Head v. Ferrell, 274
Ga. 399, 403(IV)(A); Victor v. Nebraska, 511 U.S. I
(1994).
In Vance, the Georgia Supreme Court did note
that a better charge would not include the phrase
‘‘moral and reasonable certainty.” However, the
Court recognized that the language “moral and
reasonable certainty” is all that can be expected in a
legal investigation,” and held that the charge granted
no reversible error when “considered in the context of
the charge as a whole.” Id. at 238 (citing Francis v.

App-82
Franklin, 471 U.S. 307, 315 (1985)). Specifically, the
Court found that “The trial court’s charge as a whole
repeatedly and accurately conveyed to the jury the
concept of reasonable doubt.” Id. at 237. See also
Marion v. State, 263 Ga. 358, 359(2) (1993); Brown v.
State, 264 Ga. 48, (1995) (finding charge properly
defined reasonable doubt, in reference to “moral and
reasonable certainty” and did not lessen the burden
of proof).
Further, in neither of the two different state
court charges dealing with the concept of reasonable
doubt examined by the United States Supreme Court
in Victor v. Nebraska and the companion case of
Sandoval v. California, 511 U.S. 1 (1994), did the
United States Supreme Court find a constitutional
violation despite the use of the phrase “moral
certainty” in the Nebraska charge and the use of the
phrase “to a moral certainty” in the California
charge. Instead, the Supreme Court held that in each
instance, when the entire charge was taken as a
whole, the phrases were adequately explained so that
reasonable doubt was properly understood. As that
Court
explained,
“The
problem
in
Cage
[ v. Louisiana, 498 U.S. 39 (1990)] was that the rest
of the instruction provided insufficient context to
lend meaning to the phrase.’’ Victor v. Nebraska, 511
U.S. at 16.
In the instant case, the trial court’s reference to
a “moral and reasonable certainty’’ appeared in the
context of a charge which as a whole repeatedly and
accurately conveyed to the jury the concept of
reasonable doubt. Thus, the reference to “moral and
reasonable certainty” did not lessen the burden of

App-83
proof necessary to obtain a conviction, and therefore
did not violate the due process clause. Accordingly,
Petitioner has failed to establish cause and prejudice
or a miscarriage of justice and his claim remains
defaulted.
VI. NON-COGNIZABLE CLAIMS
This Court finds that the following claims raised
by Petitioner fail to allege grounds which allege a
constitutional violation in the proceedings which
resulted in Petitioner’s conviction and sentence and
therefore are non-cognizable under O.C.G.A. § 9-1442(a).
Claim XIV: Petitioner’s claim that O.C.G.A.
§ 17-10-38, was declared unconstitutional in
Dawson v. State, 274 Ga. 327, 554 S.E.2d
137 (2001), and his death sentence is
therefore null and void and may not be
carried out is non-cognizable in these habeas
proceedings. Alternatively, even if this claim
was cognizable, this Court would find it is
without merit. See Dawson supra; United
States v. Chandler, 996 F2d 1073, 1095 (11th
Cir. 1993); Malloy v. South Carolina, 237
U.S. 180 (1915); Simms v. Florida, 754 So.2d
657 (2000);
Claim XV: Petitioner’s claim that death by
lethal injection would subject Petitioner to
punishment under a law which is ex post
facto, fails to allege a substantial violation of
constitutional rights in the proceedings
which resulted in Petitioner’s convictions
and sentences and is non-cognizable.
Alternatively, even if this claim was

App-84
cognizable, this Court would find it is
without merit. United States v. Chandler,
996 F.2d 1073, 1095 (11th Cir. 1993);
Claim XVIII: Petitioner’s claim that
execution by lethal injection is cruel and
unusual punishment fails to allege a
substantial violation of constitutional rights
in the proceedings which resulted in
Petitioner’s convictions and sentences and is
non-cognizable in these habeas proceedings.
Alternatively, even if this claim was
cognizable, this Court would find it is
without merit. See Baze v. Rees, 128 S.Ct.
1520 (2008) and the recent holding in
Alderman v. Donald, Civil Action No. 1:07CV-1474 (ND. Ga May 2, 2008) (finding
Georgia’s
method
of
execution
constitutional);
Claim
XXIX:
Petitioner’s
claim
of
cumulative error. This Court finds that this
claim is non-cognizable as it fails to allege a
substantial violation of constitutional rights
in the proceedings which resulted in
Petitioner’s convictions and sentences.
Alternatively, even if this claim was
cognizable, this Court would find it is
without merit as there is no cumulative
error rule in Georgia. Head v. Taylor, 273
Ga. 69, 70 (2000);
Claim VI: Actual Innocence:
Petitioner’s stand alone claim of actual innocence
is non-cognizable in this habeas corpus proceeding,
as the Georgia Supreme Court has held that “it is not

App-85
the function of the writ of habeas corpus to determine
the guilt or innocence of one accused of a crime.”
Devton v. Wanzer, 240 Ga. 509, 510 (1978).
Petitioner’s proper avenue to assert his bare
allegation of actual innocence is in the trial court by
properly filing an extraordinary motion for new trial.
Cf. Felker v. Turpin, 83 F.3d 1303 (11th Cir. 1996)
(noting that Georgia law, unlike a number of other
states, permits motions for new trial on newly
discovered evidence grounds and provides that the
time for filing such motions can be extended). See
also Mize v. Head, Civil Action No. 99-V-847 (death
penalty habeas corpus case in Butts County in which
the habeas corpus court found Petitioner’s claim of
actual innocence non-cognizable and Petitioner filed
an extraordinary motion for new trial regarding that
claim); Waldrip v. Head, Civil Action No. 98-V-139
(death penalty habeas corpus case in Butts County in
which the habeas court found Petitioner’s claim of
actual innocence non-cognizable; application to
appeal this issue was denied by Georgia Supreme
Court). Thus, this claim is not reviewable by this
Court as it is not a cognizable constitutional claim.
In order for Petitioner’s allegation of actual
innocence to be cognizable in this proceeding, it must
be coupled with an allegation of constitutional error.
See Schlup v. Delo, 513 U.S. 298, 321 (1995); Murray
v. Carrier, 477 U.S. 478, 496 (1986); Herrera v.
Collins, 506 U.S. 390. 400-401 (1993). This bedrock
principle of law has not been eroded. See, e.g., Walker
v. Penn, 271 Ga. 609, 612 (1999); Brownlee v. Haley,
306 F.3d 1043, 1065 (11th Cir. 2002); High v. Head,
209 F.3d 1257, 1273 (11th Cir. 2000); Lee v. Kemna,
534 U.S. 362, 405-406 (2001).

App-86
Petitioner’s
Post-hearing
brief
II(B):
Petitioner also raises the issue of the State’s response
to the open records requests made by habeas counsel.
However, this issue is not cognizable before this
Court because it does not allege a substantial
violation of Petitioner’s rights “in the proceedings
which resulted in [the petitioner’s] conviction,”
O.C.G.A. § 9-14-42(a), and therefore cannot form a
basis for habeas corpus relief:
VII. CLAIMS PROPERLY BEFORE THE COURT
FOR HABEAS REVIEW
A. INEFFECTIVE ASSISTANCE OF COUNSEL
CLAIMS
In Claim I and in numerous subparts to other
claims, Petitioner alleges that he was denied his
right to the effective assistance of counsel at all
phases of his trial and appellate proceedings. 5
Because J. Richardson Brannon represented
Petitioner at trial and on direct appeal, the instant
proceeding is Petitioner’s first opportunity to raise
these claims and they are accordingly properly before
the Court.
The standards for reviewing allegations of
ineffective assistance of counsel are contained in the
United States Supreme Court’s seminal case of
Strickland v. Washington, 466 U.S. 668 (1984) and
its progeny. In order to establish his ineffectiveness
claims:

5 To the extent Petitioner failed to brief or to present evidence
in support of his ineffective assistance of counsel claims, these
claims are denied.

App-87
First, the defendant must show that
counsel’s performance was deficient. This
requires showing that counsel made errors
so serious that counsel was not functioning
as the “counsel” guaranteed the defendant
by the Sixth Amendment.
Second, the defendant must show that the
deficient
performance
prejudiced
the
defense. This requires showing that
counsel’s errors were so serious as to deprive
the defendant of a fair trial, a trial whose
result is reliable.
Unless a defendant makes both showings, it
cannot be said that the conviction or death
sentence resulted from a breakdown in the
adversary process that renders the result
unreliable.
Strickland, 466 U.S. at 687. See also Wiggins v.
Smith, 539 U.S. 510 (2003) (reaffirming the
Strickland standard as governing ineffective
assistance of counsel claims); Smith v. Francis, 253
Ga. 782, 783 (1985) (adopting the Strickland
standard). “Unless a defendant makes both showings,
it cannot be ·said that the conviction or death
sentence resulted from a breakdown in the adversary
process that renders the result unreliable.” Id.
In Strickland, the Court established a
deferential standard of review for judging ineffective
assistance claims by directing that “judicial scrutiny
of counsel’s performance must be highly deferential.
It is all too tempting for a defendant to second-guess
counsel’s assistance after conviction or adverse
sentence, and it is all too easy for a court, examining

App-88
counsel’s defense after it has proved unsuccessful, to
conclude that a particular act or omission of counsel
was unreasonable.” Strickland v. Washington, 466
U.S. 668, 688 (1984).
In Burger v. Kemp, 483 U.S. 776, 780 (1987), the
Court again discussed the parameters for examining
Strickland’s performance prong and directed that,
“we address not what is prudent or appropriate, but
only what is constitutionally compelled.” See Head v.
Carr, 273 Ga. 613, 625 (2001) (quoting Zant v. Moon,
264 Ga. 93, 97-98(1994), relying on Burger v. Kemp,
483 U.S. 776, 780 (1987)).
Further, not only did the Strickland court
establish a strong presumption in favor of effective
assistance of counsel, but the Court in Strickland
also instructed reviewing courts that the proper focus
of a court reviewing a claim of ineffective assistance
of counsel is to “eliminate the distorting effects of
hindsight, to reconstruct the circumstances of
counsel’s challenged conduct, and to evaluate the
conduct from counsel’s perspective at the time.”
Strickland v. Washington, 466 U.S. at 688. See also
Adams v. State, 274 Ga. 854, 856 (2002) (“strong
presumption” exists in favor of finding defendant was
provided with effective representation).
With reference to the prejudice prong, the
Georgia Supreme Court has adopted the Strickland
test which requires that to establish actual prejudice,
a petitioner “must demonstrate that ‘there is a
reasonable probability (i.e., a probability sufficient to
undermine confidence in the outcome) that, but for
counsel’s unprofessional errors, the result of the
proceeding would have been different.’ Smith, supra.

App-89
See also Strickland, supra at 694.’’ Head v. Carr, 273
Ga 613, 616 (2001).
The Court notes that the presumption in favor of
effective assistance is even greater when trial counsel
is experienced and the implementation of this
stronger presumption is justified in light of the
experience of Petitioner’s trial counsel. See Chandler
v. United States, 218 F.3d 1305, 1316 (11th Cir. 2000)
(en banc). Thus, the Court concludes that the
experience of Petitioner’s trial counsel warrants the
greater presumption in favor of this Court finding
effective assistance of counsel.
In the instant case, Brannon had been a member
of the State Bar of Georgia for 21 years at the time of
Petitioner’s trial. (HT 8304). The record establishes
that Brannon was an experienced criminal lawyer as
Brannon had tried approximately two hundred cases
to verdict and approximately eighty percent of those
cases were criminal cases. (HT 35-36). The record
also establishes that Brannon had extensive
experience in the representation of capital
defendants. Brannon had been involved in
approximately thirteen or fourteen cases that
involved a capital offense. (HT 36). Prior to
Petitioner’s case, Brannon had worked on four death
penalty cases. (HT 36; Res. Ex. 2, HT 8308).
The Court also notes that, during his
representation of Petitioner, Brannon utilized the
services of three paralegals, including one paralegal,
Pat Dozier, who had assisted Brannon with another
death penalty case, and understood what was
required in preparing both phases of a death penalty
trial. (HT 39, 74, 78-80, 8333).

App-90
Trial counsel also obtained and utilized the
assistance of investigator Andy Pennington.
Investigator
Pennington
had
extensive
law
enforcement
experience
and
death
penalty
investigation experience. (T. 1616-1625; HT 78).
In addition to his own extensive criminal
litigation experience, trial counsel also consulted
with Michael Mears during the course of Petitioner’s
case. (HT 83-84, HT 8347-8348, 8480-8497).
1) Denial of Request for Additional Counsel
Petitioner alleges that trial counsel was rendered
ineffective by the trial court’s denial of Brannon’s
request for a second attorney. to assist. in
Petitioner’s case. Specifically, Petitioner argues that
at the time of Petitioner’s case the American Bar
Association’s
Guidelines
(hereinafter
“ABA
Guidelines”) and the Unified Appeal Procedure
(hereinafter “UAP”) “required” that two qualified
attorneys be assigned to represent capital
defendants. This Court finds that the ABA
Guidelines are not “requirements” and these
“guidelines” are not binding on this Court and were
not binding on the trial court. Newland v. Hall, 527
F.3d 1162, 1207 (11th Cir. 2008). Additionally, the
Unified Appeal Procedure (UAP) did not become
effective until January 27, 2000, one year after
Petitioner’s trial. Based on its express effective date,
at the time of Petitioner’s trial the UAP did not
mandate the appointment of additional counsel to
represent Petitioner.
The Court further finds that Georgia case law
does not support Petitioner’s contention that
additional counsel was required to be appointed as

App-91
numerous death sentences have been upheld even
where a defendant was represented by only one
attorney. See e.g., Hammond v. State, 264 Ga. 879,
888 (1995); Gary v. State, 260 Ga. 38 (1990); Osborne
v. Terry, 466 F.3d 1298, 1308 (11th Cir. 2006); Housel
v. Head, 238 F.3d 1289, 1294 (11th Cir. 2001). The
Court concludes that Petitioner cannot establish
ineffective assistance of counsel based merely on the
fact that he was represented by one attorney. The
Court finds that the Strickland standard applies to
all of Petitioner’s ineffective assistance of counsel
claims and Petitioner bore the burden of establishing
that trial counsel was deficient and Petitioner was
prejudiced by trial counsel’s representation with
regard to all of his ineffective assistance of counsel
claims.
2) Investigation of Prior Bad Acts
Petitioner alleges that based on the fact that
trial counsel did not have co-counsel, Brannon was
unable to perform a reasonable investigation of
Petitioner’s prior bad acts and that Petitioner was
thereby prejudiced. The Court finds that Petitioner
has failed to establish that trial counsel’s
representation was deficient due to trial counsel not
obtaining additional counsel and has also failed to
establish the requisite prejudice under Strickland
with regard to this allegation.
The record establishes that trial counsel filed a
Motion for Notice of Intent to Use Evidence of Other
Crimes on March 31, 1998. (R. 142-144). On June 24,
1998, one year prior to trial, the State filed its notice
of intent to introduce evidence of prior difficulties. (R.
211-215). On June 29, 1998, the State also filed its

App-92
Notice of Intent to Introduce Evidence of Similar
Transactions, which also set forth the specific factual
instances the State was seeking to introduce and the
witnesses that would testify with regard to these
similar transactions. (R. 220-223). Following the
filing of the State’s notice, the trial court held an
extensive hearing on the similar transactions
evidence. (8/25/98 Similar Transaction Hearing;
9/28/98 Similar Transaction Hearing Continued).
During that hearing, the State presented the
testimony of 17 witnesses all of whom were cross
examined by trial counsel. Id.
The trial court also conducted extensive hearings
on the evidence of prior difficulties. (See 9/28/98
Pretrial Hearing; 9/29/98 Pretrial Hearing; I 0/2/98
Pretrial Hearing and 11/9/98 Pretrial Hearing).
During the hearings, the State presented the
testimony of 30 witnesses. Id. The hearing
transcripts reveal that trial counsel conducted a cross
examination of 28 of the 30 witnesses. Id.
Following the prior difficulties hearings, the
State submitted a letter to the trial court wherein it
provided detailed information regarding each prior
difficulty, including the factual allegations of the
prior difficulties and the witnesses that the State
would be presenting to testify about the prior
difficulty. (R. 336-341). On November 9, 1998, the
trial court entered an order regarding both the prior
difficulties and similar transactions. (R. 360-373).
Trial counsel testified that, after learning that
the State was going to present this evidence at trial,
he spoke with Petitioner’s family with whom he had
excellent and continuous rapport regarding the

App-93
circumstances surrounding the prior incidents. (HT
75, 96, 8333). Trial counsel also spoke with Jim
Whitmer, who had previously represented Petitioner
regarding Petitioner’s prior criminal cases which the
State was noticing its intent to introduce, and
obtained Mr. Whitmer’s files regarding his
representation of Petitioner with regard to those
cases. (HT 95-96, 8328-8329, 8540-9000, 10783).
Trial counsel also obtained medical records that
document the injuries sustained by Joy Lance with
regard to one of the prior similar transactions in
which Joy Lance was “pistol whipped” by Petitioner,
(HT 9450-9480), and counsel maintained a file on the
prior difficulties that the State noticed they were
seeking to introduce that included research and an
index of the prior difficulties. (HT 9481-9505, 95069539).
On December 1, 1998, trial counsel filed a
Motion to Appoint Additional Counsel, thirteen
months after Brannon assumed representation of
Petitioner and six months prior to Petitioner’s capital
trial. (R. 391-394; HT 42, 5233-5236). Billing records
establish that trial counsel had conducted extensive
investigation and preparation in Petitioner’s case
prior to requesting the appointment of additional
counsel. (HT 10772-10790). Specifically, trial counsel
had conducted numerous interviews with Petitioner
and his family and other witnesses, drafted
pleadings, performed legal research, reviewed crime
lab and autopsy reports, visited the crime scene,
listened to various tapes, visited Petitioner’s shop
and took photographs, and reviewed and made copies
of the District Attorney’s file. Id.

App-94
In denying trial counsel’s motion for the
appointment of additional counsel, the trial court
held that ‘‘there is no right, even in a death penalty
case, to the appointment of two counsel to represent
the defendant.” (R. 412-414). The trial court further
noted:
While the court is cognizant of the
complexity of any death penalty trial, the
court notes that counsel for the defendant
has opted into the reciprocal discovery
provisions of the Georgia criminal procedure
code and the state began compliance with
those provisions on or about April 2, 1998,
and continues to serve defense counsel as
required with discovery materials as they
are made known to the state. In addition,
the state has an ‘open file policy’ in this case
which affords the defense access to the
entire contents of the state’s file. The
defendant has had the services of his counsel
since before indictment; counsel has had an
opportunity for more than one year to
discover the facts of this case. Counsel for
the defendant has tried death penalty cases
in the past and is familiar with the current
state of the law on the subject, as evidenced
by the motions filed in this case and his able
and eloquent arguments thereon. The
relative
complexity
of
the
similar
transactions and prior occurrences have all
been simplified by the court’s conducting
hearings thereon giving counsel an
opportunity not only to discover the facts of
those alleged occurrences but also to place

App-95
the witnesses on cross-examination prior to
trial and to ‘lock in’ their remembrance of
these events. The conduct months before
trial of motions to suppress and to determine
the voluntariness of defendant’s statements
under Jackson v. Denno gives defense
counsel ample time prior to trial to prepare
to meet this evidence.
(R. 413-414).
In
denying
Petitioner’s
motion
for
reconsideration, the trial court held that “there’s
been no specific showing of need.” (6/3/99 Pretrial
Hearing, p. 16). This Court finds that the bulk of
investigation and preparation for trial had already
been conducted prior to the filing of the motion for
the appointment of additional counsel.
In the proceedings before this Court, Brannon
testified that he was a dedicated and motivated
advocate for Petitioner. Brannon described himself as
a mad dog fighting meaning, “When I’m on
something and I get started, I don’t want to stop. And
so I’ll keep going for hours and hours when other
people won’t. And if I know there’s a witness out
there we may can find, I’ve stayed up all night to get
the witness and get them under subpoena.” (HT 114).
Brannon further clarified that, “I just mean that
that’s my approach to it is this is serious business.
Somebody’s life’s at stake.” (HT 114). Therefore,
Brannon’s persistence and acknowledgment of the
serious nature of representing a capital defendant is
clearly significant in this Court’s review of his
performance and belies any assertion that the quality

App-96
of Brannon’s representation was impacted by the
denial of his motion for additional counsel.
This Court finds that Petitioner has failed to
establish the deficient performance of trial counsel
based on Petitioner’s contention that counsel was
allegedly unable to investigate Petitioner’s numerous
bad acts prior to trial. This claim is therefore
DENIED.
3) Representation at Guilt Phase and Strategy
Strickland instructs that with regard to trial
counsel’s obligation concerning making investigatory
efforts, that an attorney “has a duty to make
reasonable investigations or to make a reasonable
decision that makes particular investigations
unnecessary.” Strickland, 466 U.S. 668. The “correct
approach toward investigation reflects the reality
that lawyers do not enjoy the benefit of endless time,
energy or financial resources.” Rogers v. Zant, 13
F.3d 384, 387 (11th Cir. 1994). The Court finds that a
review of the totality of the circumstances in the
record before this Court shows that trial counsel’s
investigation of the guilt phase of Petitioner’s case
was reasonable and did not constitute deficient
performance.
Brannon testified that he worked “nonstop day
and night on the guilt/innocence phase” of
Petitioner’s case. (HT 45). In investigating the guilt
phase, trial counsel engaged in numerous
conversations with Petitioner regarding the specific
facts of the case and Petitioner’s alibi. (HT 83268327, 10772-10790). Trial counsel also spoke with
Petitioner’s family members and other witnesses.
(HT 10772-10790). In addition to interviewing

App-97
witnesses, counsel visited the crime scene wherein he
took photographs and measurements, and he
examined the various places that were struck by the
fired projectiles. (HT 67-68, 108, 8344-8345, 10785).
Counsel also traveled to Petitioner’s shop on three
separate occasions and took photographs, (HT 1078210783), reviewed the Georgia Bureau of Investigation
file and was permitted access to the State’s file. (HT
108, 110, 10774, 10787).
Trial counsel also employed the services of
Investigator Pennington to assist in the investigation
of Petitioner’s case. Investigator Pennington’s billing
records reflect that he spent a considerable amount of
time locating and interviewing witnesses and trial
counsel’s testimony confirms that Investigator
Pennington was responsible for interviewing
witnesses. (R. 554-555; HT 52-53). Trial counsel
further testified that Investigator Pennington
continued to investigate and follow up on leads
during the trial. (HT 77, 115-116).
In support of his theory that Petitioner was
innocent, trial counsel presented the testimony of
nine witnesses during the guilt phase of Petitioner’s
trial. Time of death was an issue for the defense as
Petitioner was with several individuals for a large
portion of November 8-9, 1997, the time period when
the crime occurred. The State presented evidence
that the time of death occurred, approximately,
between midnight on November 8, 1997 and 5:00
a.m. on November 9, 1997. (T. 1472). Accordingly,
trial counsel attempted to establish an alibi defense
with a number of witnesses based on the time of
death and Petitioner’s whereabouts.

App-98
In support of Petitioner’s alibi defense, trial
counsel presented the testimony of Petitioner’s uncle,
Raymond Lance. Petitioner’s uncle testified that he
was with Petitioner from 7:00 p.m. to 11:30 p.m. on
November 8, 1997 at the home of Gary Whitlock.
(T. 1512-1514). Around 11:30 p.m., Petitioner
initially went home, but then went to his uncle’s
residence where they talked and drank alcohol until
5:00 a.m. Id. At 5:00 a.m., Petitioner left his uncle’s
residence and returned home. (T. 1517). Petitioner’s
uncle then saw Petitioner the following day around
2:30 or 3:00 p.m., when Petitioner and Joe Moore,
visited Gary Whitlock’s residence. (T. 1518). The two
men stayed for only a few minutes. (T. 1518). As far
as Petitioner’s demeanor on the day of the murder,
the uncle testified that Petitioner acted normal.
(T. 1519).
In an attempt to elicit further information about
Petitioner’s whereabouts on the day of the crime,
trial counsel presented the testimony of Gary
Whitlock. Mr. Whitlock, who was Raymond Lance’s
son-in-law, testified that Petitioner was at his
residence on Saturday from 7:00 p.m. until
11:30 p.m. (T. 1586-1587). During that period of time,
Petitioner, Marty Lance and Tony Whitlock went to
the package store to purchase beer. (T. 1587-1588).
Mr. Whitlock stated that the package store’s location
was away from the residence of Butch Wood, and
that they were gone about thirty-five to forty
minutes. (T. 1588).
Mr. Whitlock stated that, the following day
(November 9, 1997), he saw Petitioner and Joe Moore
at his residence around 1:00 p.m., and that they only

App-99
stayed for about ten or fifteen minutes. (T. 15891590). Regarding Petitioner’s demeanor, Mr.
Whitlock testified that he acted normal. (T. 1590).
Trial counsel then presented the testimony of
Walter Tonge who owned the Country Comer
package store. (T. 1596). Mr. Tonge testified that he
saw Petitioner and others on Saturday between
8:00 p.m. and 10:00 p.m. (T. 1596-1597). Mr. Tonge
stated that Petitioner was only inside the store for a
few minutes. (T. 1597).
Trial counsel also presented the testimony of
Marty Lance who testified that he saw Petitioner at
Petitioner’s shop on November 8, 1997 around
6:00 p.m., and that he stayed with Petitioner for
about forty-five minutes to an hour. (T. 1599-1600).
During that time period, Marty Lance did not notice
anything unusual about Petitioner’s behavior.
(T. 1600).
Marty Lance also saw Petitioner later that night
at Gary Whitlock’s house, and he again did not notice
anything unusual about Petitioner’s behavior.
(T. 1601, 1603). Specifically, he stated that he arrived
at Mr. Whitlock’s house around 7:15 or 7:20 p.m., and
he stayed until 11 :00 p.m. Id. Marty Lance testified
that, during the time at Mr. Whitlock’s house,
Petitioner and Tony Whitlock left and purchased beer
at Walter Tonge’s package store. (T. 1602). He
estimated that they left around 8:00 p.m., and they
were only gone about fifteen or twenty minutes. Id.
He did not see Petitioner again until the Monday
after the crime. Id.
Trial counsel presented the testimony of
Matthew and Will Skinner, two children who lived

App-100
next door to Butch Wood, who offered testimony that
they heard gunshots and a scream on Sunday,
November 9, 1997, sometime after lunch. (T. 14991500, 1508). Matthew Skinner testified that after the
gunshots, he observed a man leaving the residence
with what appeared to be a pistol in his hand and
drive away in a red Camaro. (T. 1501-1502).
Trial counsel also presented the testimony of
Petitioner’s father Jimmy Lance to attempt to rebut
the prior difficulties between Petitioner and Joy
Lance. Regarding the incident wherein Petitioner
attempted to electrocute Joy, Petitioner’s father
testified that they were fighting because Joy was
having an affair. (T. 1547). When he arrived at
Petitioner’s shop, Petitioner and Joy had stopped
fighting. (T. 1547-1548). Petitioner’s father testified
that Petitioner did not bit Joy during that fight;
however, he did observe blood on Joy’s nose.
(T. 1548). He further denied that Petitioner had
attempted to electrocute Joy during that incident.
(T. 1546, 1548). Regarding another incident of
violence between Petitioner and Joy, Petitioner’s
father testified that Petitioner never attempted to set
Joy’s hair on fire by spraying WD-40 on her. (T. 15481549).
Regarding the crime, Petitioner’s father testified
that he did not recall going to Petitioner’s shop on the
day of the crime; however, he saw Petitioner “come
up and down the road and go in bis driveway.”
(T. 1553). On the day after the crime, he saw
Petitioner around lunchtime. (T. 1553-1554). In an
attempt to rebut the State’s evidence that
Petitioner’s father assisted Petitioner in obtaining

App-101
alibi statements the day after the crime, trial counsel
had Petitioner’s father deny the allegations that he
assisted Petitioner in obtaining alibi statements from
various individuals in that he did not know about the
murders until it was reported on the news. (T. 1554).
Regarding Petitioner’s firearms, Petitioner’s
father testified that he removed all of Petitioner’s
firearms from his residence after Petitioner was sent
to boot camp as Petitioner was not allowed to have
any firearms. (T. 1556). Petitioner also had a sawed
off shotgun that was given to Gary Watson, which
was subsequently recovered by the police. (T. 15571558). With regard to the red Camaro the Skinner
boys testified they saw, Petitioner’s father stated that
Petitioner owned a white Monte Carlo, a white Chevy
S-10 and a blue Chevrolet Caprice. (T. 1559-1560).
Gary Watson, who had known Petitioner for
about thirty years, testified that Petitioner normally
wore black, low-cut work shoes. (T. 1577). He also
observed Petitioner wearing suede-like brown shoes.
Id. Mr. Watson also testified that he had possession
of Petitioner’s sawed-off shotgun, until it was
recovered from the police. (T. 1577-1579). Mr. Watson
also testified that the .22 rifle recovered by the police
at Petitioner’s shop was likely his rifle as he had
taken it up to Petitioner’s shop to shoot squirrels that
were tearing the insulation out of the ceiling.
(T. 1579-1581).
The final witness presented during the guilt
phase was the defense investigator Andy Pennington.
Mr. Pennington testified·at trial as an expert crime
scene technician. (T. 1637-1638). Trial counsel
elicited testimony from Investigator Pennington as to

App-102
the alleged flaws in the investigation performed by
the State. Regarding the handling of the crime scene
area, he testified that the investigators failed to
maintain a log of who entered and exited the crime
scene. (T. 1650). He also testified that the State
investigators should have obtained measurements
from the projectile hole through the blind in the
window as it would have provided them with the
caliber of the weapon, and they could have then
verified ‘‘to see if it was one of the shotgun pellets or
it was from another weapon.” (T. 1650-1652). Based
upon the number of projectile holes, Investigator
Pennington opined that there could have been more
than one weapon used in the crime. (T. 1651).
Additionally, Investigator Pennington testified
that the photographs depicting projectile holes
through the trailer were indicative of the possibility
that more than one type of firearm had been
discharged inside the trailer. (T. 1652-1654).
Investigator Pennington further testified that the
fact that Butch Wood had gunpowder residue on his
right palm was also indicative of the possibility that
more than one weapon was used during the crime.
(T. 1654).
As to the semi-moist dirt area surrounding the
trailer, Investigator Pennington testified that it
would be very difficult for a person to walk into the
house without leaving a footprint. (T. 1654-1655). He
stated that a person would likely “leave tracks all the
way up to the steps and on to the deck itself.”
(T. 1656-1657). Regarding Petitioner’s Diehard shoe,
Investigator Pennington testified that it had a “very
distinctive” sole that would have left a clear mark in

App-103
the semi-moist dirt area. (T. 1657). Investigator
Pennington further testified that the shoe print
found on the door should have been visible with the
naked eye in that there should have been “some kind
of marking on the door or some kind of scuff or kick
mark or dent or something on the door.” (T. 16571658).
Trial counsel then questioned Investigator
Pennington as to the significance in not finding any
latent prints on the shotgun shell hulls located on the
floor inside the trailer. Investigator Pennington
testified that he would expect to find a latent print on
the shotgun shell hulls as that is a good surface for
obtaining latent prints, and he stated that the person
loading the weapon would have to handle the
ammunition unless they were wearing gloves.
(T. 1658). Based upon his experience, he believed
that the fact that no latent prints were located was
indicative of a good burglar who would have wiped
down anything that was touched. (T. 1659).
Investigator Pennington then provided testimony
regarding the time of death of the victims.
Specifically, be testified that heat would “accelerate”
rigor mortis whereas cold would “retard it.” (T. 1662).
As there are a number of variables involved in
establishing time of death, Investigator Pennington
stated that “no expert has ever been able to pin down
the time of death.” (T. 1662-1663).
During bis guilt phase closing arguments to the
jury, trial counsel stressed to the jury that Petitioner
enjoyed the presumption of innocence until he was
proven beyond a reasonable doubt by the State that
Petitioner committed the crime. (T. 1724-1726).

App-104
Counsel asked the jury to approach Petitioner’s case
as if it was a friend that was on trial in that they
should look at “every single piece of evidence” to
determine whether or not it proved what it should
have proven. (T. 1726).
In reviewing the evidence that was presented
during the guilt phase, trial counsel admitted to the
jury that there were occasions wherein Petitioner
would become angry and upset; however, that was
explained by the fact that Petitioner was “a man
submerged in a relationship with a crank addict who
was having an affair.” (T. 1729). However, trial
counsel argued that, on the day of the crime,
Petitioner was not agitated and “showed no signs of
somebody who was going out to do some dastardly
double murder’’ when he spoke with Jack Love
around midnight. (T. 1728-1730).
Regarding the Diehard shoe print on the door,
trial counsel stated that he was unable to determine
whether or not there was actually a shoe print on the
door. (T. 1730-1731). Counsel further stated that the
investigators were unable to “see and couldn’t take a
gel impression” of the shoe print. (T. 1732). In
addition, trial counsel stated that he was able to
elicit during cross-examination evidence that the
various crime scene investigators were in
disagreement about certain issues. (T. 1731). In
addition, counsel noted that the State did not have
any fiber, hair or blood evidence. (T. 1732-1733).
In further attacking the State’s case based upon
the lack of evidence, trial counsel argued that the
State did not have the murder weapon. (T. 17341735). Counsel also attacked the State investigators

App-105
for not locating the shotgun shells in the oil pit, and
he argued that Joe Moore, not Petitioner, was the one
who threw the shotgun shells away in a blue rag.
(T. 1735-1736, 1739).
Trial counsel then argued to the jury that the
State “targeted” Petitioner as they had knowledge of
the “past disputes between Donnie Lance and Joy
Lance.” (T. 1737, 1741). He asserted that the State
“didn’t ever turn their head and look anywhere else.”
(T. 1737). In arguing to the jury the possibility that
Joe Moore was responsible for the crime, counsel
stated that the prosecution failed to present “one
single soul” who could “cover the time period that Joe
Moore would need covered on an alibi.’’ (T. 17371738). In addition, counsel argued to the jury that
the prosecution misled them in presenting testimony
that Mr. Moore wore a size nine shoe based upon the
fact that they had not measured his foot. (T. 1738).
Additionally, trial counsel reminded the jury of
the testimony of Will and Matt Skinner. Specifically,
trial counsel stated that both Will and Matt provided
testimony that they heard shots fired around noon,
and they then observed a car leaving the scene at a
high rate of speed. (T. 1740). Will Skinner also
testified that he saw someone get into the car with
what appeared to be a pistol. Id. In questioning why
the State did not pursue Will and Matt Skinner, trial
counsel asserted that it did not “fit their time of
death.” (T. 1741). In an attempt to persuade the jury
into believing the testimony of Will and Matt, counsel
argued that “c]hildren never tell a lie. If a child says
it happened this way, surely it did.” Id.

App-106
In requesting that the jury not allow the
testimony of prior difficulties to prejudice them, trial
counsel reminded the jury that Petitioner was on
trial for murder not domestic violence. Id. Trial
counsel also asked the jury to review their notes on
the prior difficulties to determine “how many you
actually had a single person testify to that actually
saw anything, and it’s going to get down to one or
two.” (T. 1745). Counsel further stated, “[y]ou look at
the others and make your decision. But do you
remember each time I asked who was there, who saw
it? Usually nobody. Who said it? Joy.” (T. 1747).
Regarding Petitioner’s confession to Frankie
Shields and Frank Morton, trial counsel stated that
Petitioner was a quiet person who would not talk
about fighting with his wife. (T. 1750). He also stated
that the police failed to tape-record the interviews
with the jailhouse snitches, and he suggested to the
jury that the snitches must have received a deal from
the State in exchange for their testimony. (T. 17501751).
In concluding his argument to the jury, trial
counsel summarized the evidence that was presented
by the defense as to Petitioner’s whereabouts around
the time of the crime. (T. 1752-1754). He also
reminded the jury that the time of death was
important, and that there were a number of factors
that would have affected a determination as to the
time of death. (T. 1754-1756).
Petitioner bore the heavy burden of establishing
deficiency and prejudice. “This requires showing that
counsel made errors so serious that counsel was not
functioning as the ‘counsel’ guaranteed the defendant

App-107
by the Sixth Amendment.” Strickland, 466 U.S. at
687. Based on counsel’s investigation of Petitioner’s
guilt and the presentation of evidence at trial, the
Court finds that Petitioner bas failed to establish
deficient performance as required by Strickland as to
his contentions of ineffective assistance as to guilt
phase investigation and presentation of evidence in
the guilt phase.
Further, the Court finds that Petitioner has
failed to establish prejudice as trial counsel
presented a cohesive defense strategy, supported by a
number of witnesses. Also of significance with regard
to this Court’s review of the prejudice prong, are the
facts that established that there had been ongoing
domestic disputes between Petitioner and the victim,
Petitioner had made previous death threats to the
two victims, Petitioner had committed a similar
crime by kicking in the door of Mr. Wood’s trailer,
Petitioner knew his children were not at the trailer
on the night of the murders, the shotgun shells at the
scene matched shells owned by Petitioner, Petitioner
had been seen wearing shoes of the same type and
size as the shoeprint on the door of the trailer,
Petitioner still had the shoebox in his possession, the
State had a receipt for these shoes where Petitioner
had purchased them, Petitioner had been seen with a
sawed-off shotgun prior to the murders, the evidence
from
the
crime
scene
established
that
robbery/burglary was not a motive, Petitioner’s
shoes, gun and clothes were missing and trash
smoldering at his house when arrested, Petitioner
made statements about the victims’ deaths before the
bodies were discovered, and Petitioner confessed to
other individuals. Based on the totality of the

App-108
circumstances and the record before the Court,
Petitioner has failed .to establish the prejudice prong
of Strickland and this claim of ineffective assistance
of counsel is DENIED.
4) Requesting Non-Mental Health Experts
Under applicable Georgia case law, motions for
the appointment of defense experts made on behalf of
indigent defendants should disclose to the trial court
with reasonable precision “why certain evidence is
critical, what type of scientific testimony is needed,
what that expert proposes to do regarding the
evidence, and the anticipated costs for services.”
Thomason v. State, 268 Ga. 298, 310 (1997).
Georgia law places the decision concerning
whether to appoint defense experts within the
discretion of the trial court, by holding that the
“Authority to grant or deny a criminal defendant’s
motion for the appointment of an expert witness rests
with the sound discretion of the trial court, and,
absent abuse of that discretion, the trial court’s
ruling will be upheld.” Crawford v. State, 267 Ga.
881(2) (1997). Georgia case law also provides that
this discretion also extends to the trial court’s grant
or denial for a motion for assistance of other
investigative services. Crawford v. State, 257 Ga. 681
(1987).
During a pretrial hearing Petitioner requested
that in addition to funds he had already received,
that the trial court grant additional funds to hire:
(1) an expert to assist in jury selection; (2) a forensic
psychology expert; (3) a DNA expert; (4) a firearms
expert; and (5) a criminologist. (12/3/1998 Pretrial
Hearing, p. 6-11). The trial court denied Petitioner’s

App-109
request for the appointment of experts. (HT 5426). In
denying Petitioner’s trial counsel’s request for
various forensic experts, the trial court found the
following:
While the cause of the deaths, the time of
the deaths, the blood types found at the
scene, and the shoe prints found at the scene
may be important in this case, the defense
has presented the court with only bare
allegations of need; there is no evidence of
need for the forensic experts. There is no
mention that the state’s experts have
incorrectly
or
erroneously
reached
conclusions about their findings or made
misrepresentations of any reports or
evidence.
There
is
not
even
an
unsubstantiated allegation, much less
documentation, in any of the requests for
experts that any of the state’s experts are
biased or inept, that they reached erroneous
conclusions, or that the opinions of any of
the proffered experts would differ from the
opinions of the state’s experts. The motions,
the argument heard at the ex parte hearing,
and the curriculum vitae of the experts all
fail to show the court either that material
assistance would be provided to the defense
by the experts or that without the assistance
of these experts the defendant would receive
a fundamentally unfair trial.
(HT 5426-5428).
On direct appeal, the Georgia Supreme Court
found no abuse of discretion as to the trial court’s

App-110
denial of trial counsel’s requests for funds for experts
based on the trial court’s finding that, “the requested
funds were not necessary to a fair trial.” Lance v.
State, 275 Ga. 11, 14 (2002).
Brannon testified at the state habeas corpus
hearing that he tried to be as specific as possible in
his attempt to obtain the requested experts. Brannon
testified, “I tried to point out what the fees were, why
their testimony would be critical in the case, based on
what I knew about the case at the time.” (HT 125).
As the United States Supreme Court recognized
in Ake v. Oklahoma, 470 U.S. 68 (1985), there is no
requirement that indigent defendants be provided all
of the assistance available to non-indigent
defendants. Similarly, “Equal protection doctrine
does not require that an indigent defendant be
provided with funds for expert assistance simply
because the state is assisted by experts.” Isaacs v.
State, 259 Ga. 717, 725 (1989).
Additionally, the Eleventh Circuit has noted
that, ‘‘the Supreme Court has not yet extended Ake to
non-psychiatric experts.” Conklin v. Schofield, 366
F.3d 1191, 1206 (11th Cir. Ga. 2004). Therefore, the
trial court had no obligation under Ake to appoint
non-psychiatric experts for the defense, regardless of
the showing trial counsel made to the trial court in
support of his request for expert assistance.
The Court finds that Petitioner has not
established that trial counsel’s performance was
deficient in seeking the assistance of these experts or
prejudice from trial counsel’s representation in
requesting these experts. Accordingly, this claim is
DENIED.

App-111
5) Not Utilizing a Crime Scene Expert
Petitioner claims that trial counsel was
ineffective because he should have hired and
presented testimony of a crime scene expert to
attempt to rebut the evidence of the lack of any other
Diehard shoeprints at the crime scene, to criticize
how the crime scene was processed, and to testify
that the perpetrator would have blood spatter on
him. (HT 127).
It is critical, under Strickland, to place this
ineffectiveness claim in the context of trial counsel’s
position at the time of trial. Strickland, 466 U.S. at
688. Brannon did view the crime scene, which was a
trailer, but he was the only person for the defense
who was able to do so, as the crime scene was not
maintained since the trailer was sold. (HT 62; 67). In
this regard, Brannon testified as to the limited
assistance that any crime scene expert would be,
stating, “And even if he [the trial judge] had given
me experts, we couldn’t have gotten to the crime
scene because it was sold, which I felt like it certainly
should have been maintained.” (HT 62).
Additionally, as Brannon testified before this
Court, there was very little physical evidence
obtained. from the crime scene, as there were no
fingerprints of Petitioner found at the crime scene
(HT 61); there was no DNA of Petitioner’s found at
the scene (HT 60); there was no hair or blood of
Petitioner found at the scene (HT 60); and there were
no shotgun shells of Petitioner’s that were linked to
the scene. (HT 60). Brannon stated that there was
only one shoeprint found at the scene, and that was
an “invisible” footprint on the door, (HT 61), and that

App-112
there were no footprints coming up the steps.
(HT 59).
Additionally, trial counsel argued in his closing:
Why is there not one smidgen of red clay on
the steps—on the wooden steps? Why is
there not one smidgen of red clay on the
platform before you walk through the white
door? Why? Why didn’t they get down and
blue light everything? They could have
gotten him coming all the way up the steps if
they can take it off the door. Don’t be fooled
by this. This is really significant. How did
the people get into the house, whoever did it?
(T. 1732). Trial counsel minimized the importance of
the Diehard shoebox found at the Petitioner’s shop by
asserting,
The shoebox that Donnie had, they didn’t
find until later on. Why didn’t he just throw
it away? They’re out there; they’re casting
Diehard prints; they’re asking Donnie
questions. Why didn’t he go down to his
house in a hurry and get the Diehard
shoebox and burn it in that trash can where
they say he must have burned some bloody
clothes? Why not? It’s a piece of evidence for
a mastermind who knows how to kill two
people, slip out of the house, and not leave a
footprint and not leave a palm print and not
leave a fingerprint, not leave a thing. Why
wouldn’t he get rid of the box? It’s
reasonable doubt.
(T. 1738-1739).

App-113
Most significantly, trial counsel did not need to
hire a crime scene expert when such testimony would
have been cumulative of the testimony given by
State’s witnesses and the testimony of Investigator
Pennington, who testified as the defense expert at
trial.
Defense
Investigator
Pennington
was
authorized by the trial court to testify as a crime
scene expert at trial. (T. 1636). Investigator
Pennington
testified
concerning
the
proper
processing of a crime scene (T. 1637-1644), and was
qualified to testify and investigate the crime scene
(T. 1621-1622, 1631). Additionally, Investigator
Pennington was well-informed on the facts of
Petitioner’s case as he had assisted in the
investigation of all aspects of the case and was able
to counter the State’s evidence on various crime
scene issues. Therefore, there was no need for trial
counsel to hire and expend funds for an additional
forensic investigations consultant.
In contrast to the State’s evidence, Investigator
Pennington testified on behalf of the defense about:
the need to keep the crime scene pristine; processing
a crime scene; collecting evidence; testing evidence;
wearing latex gloves; criticizing procedures that were
not taken by Agent Cooper when the scene was being
processed; the possibility of more than one weapon
being fired; the probability of shoe prints in the mud
or of mud being tracked onto the deck; multiple
variables that need to be considered to determine
time of death; and the concept of rigor mortis.
(T. 1638-1666).
Also, Brannon cross-examined the State’s
experts on various issues relating to crime scene

App-114
issues and in fact, the concessions that he obtained
on cross-examination could easily have been
perceived as more important by the jury than
presenting his own experts. For example, trial
counsel elicited from State’s witness Agent Cooper on
cross-examination that there was mud surrounding
the crime scene, no mud on the door at the crime
scene, only one Diebard shoeprint on the door at the
crime scene, compared with the mud surrounding the
Petitioner’s shop and the number of Diehard
shoeprints found at the shop location. (T. 931-939).
The Court finds that the expert opinions
Petitioner presented in these habeas proceedings
with regard to the crime scene and processing thereof
are, in large part, cumulative of the testimony given
at trial. Therefore, the fact that trial counsel did not
hire another forensic investigations consultant to
present testimony and/or evidence as to these issues
does not meet Petitioner’s burden of establishing
deficient performance by trial counsel or prejudice.
See De Young v. State, 268 Ga. 780, 786 (5) (1997);
Osborne v. Terry, 466 F.3d 1310-1311 (11th Cir.
2006) (“The fact that present counsel might have
chosen to try to undermine the State’s experts with
defense experts does not render trial counsel
ineffective or unreasonable in attempting to support
his chosen defenses of self-defense or voluntary
manslaughter as trial defenses, based on Osborne’s
own statements.”)).
As to Petitioner’s claim that the suggestion of a
second perpetrator should have been investigated
(HT 139-142), even though, the ballistic tests
confirmed that the two cartridges found at the crime

App-115
scene were fired by the same weapon, (HT 157), the
possibility of a second perpetrator was raised by the
defense at trial. Trial counsel was not deficient as he
questioned how the “people” got into the house
during his closing (T. 1732), thoroughly crossexamined Joe Moore on his possible involvement in
this crime and questioned Mr. Moore’s alibi during
his closing argument. (T. 1080-1131; 1737-1738). The
Court also finds that Petitioner has failed to show
that there was a reasonable probability that the
outcome of the trial would have been different if
testimony such as that provided by Petitioner, s
habeas crime scene expert had been given. His claim
is DENIED.
6) Not Utilizing a Forensic Pathologist
At the hearing before this Court, Petitioner
offered the affidavit of Dr. Jonathan L. Arden in
support of his claim that trial counsel was deficient
and Petitioner prejudiced by the trial court denying
trial counsel’s motion to have a forensic pathologist
appointed for Petitioner’s case. (See 12/3/98 Ex Parte
Hearing, p. 9; Pet. Ex. 1). Petitioner asserts that an
expert like Dr. Arden could have provided testimony
concerning time of death, the likelihood of blood on
the perpetrator or the weapon, an explanation as to
why no weapon was found, and an explanation of
mistakes allegedly made by the State crime scene
investigators. The Court finds that Dr. Arden’s
affidavit does not dispute the conclusions reached by
the State’s medical examiner, Dr. Frederick Hellman,
given during his trial testimony concerning the time
of the victim’s death. Instead, a comparison of Dr.
Hellman’s trial testimony with the conclusions

App-116
reached by Dr. Arden in his affidavit shows that they
both agreed that the time of death could have
possibly occurred after 5 am. (See T. 1471). Dr. Arden
simply gives his opinion that the window of time
when the death could have occurred was longer than
the window of time testified to by Dr. Hellman.
However, Dr. Hellman admitted on crossexamination that he could not exclude the possibility
of the deaths occurring later than 5:00 a.m. (T. 1472).
Brannon thoroughly cross-examined Dr. Hellman
about his conclusions on the time of death. (T. 14731494).
In his closing argument, Brannon argued all of
the variables that go into determining time of death
and stressed that the time of death could be
sometime after 7:00 a.m. until as late, as sometime
after lunch on Sunday, which time was consistent
with the alibi defense. (T. 1754-1756).
Additionally, trial counsel offered testimony
about the inability of experts to pinpoint time of
death, from his own witness, Investigator
Pennington. Investigator Pennington testified, “My
understanding is that no expert has ever been able to
pin down the time of death, that it’s - - they call it,
like, still in the dark ages as trying to figure out the
time of death. It’s like the pathologist testified, that
everything I’ve read is exactly as he says. Everything
I’ve been taught is exactly what he was saying. You
can’t pin it down.” (T. 1663).
The record shows that trial counsel crossexamined the medical examiner about the important
testimony given concerning time of death and used

App-117
his own expert witness to testify about the difficulty
in pinpointing the time of death.
As to alleged errors made the State crime scene
investigators, as set forth above, trial counsel elicited
testimony from Investigator Pennington as to the
alleged flaws in the investigation performed by the
State. (T. 1650-1654).
Petitioner alleges that trial counsel was
ineffective in failing to use an expert to establish the
defense theory that the perpetrator would have
inevitably had blood transferred to him in light of the
large amount of blood generated due to the cause of
death of Joy Lance.
The blood stain pattern analysis expert, Jerry
Findley, testified at trial that there was blood spatter
almost all the way around the victim, Joy Lance, and
it radiated out virtually 360 degrees from the victim’s
head. (T. 1702). Mr. Findley further elaborated about
cast-off stains going in different directions, casting off
stains from the instrument itself, the direction of the
instrument, and the location of the perpetrator.
(T. 1702-1703). A layperson could easily conclude
from this testimony that the perpetrator would have
some blood spatter on him based on Mr. Findley’s
trial testimony and the crime scene photos. Most
significantly, however, Brannon used the absence of
blood on Petitioner, his clothing and in his car,·to
argue that the State had not proven that he was the
perpetrator. (T. 759).
The Court finds that Petitioner has failed to
establish deficient performance under Strickland due
to Petitioner’s trial counsel’s inability to obtain the
services of a forensic pathologist or blood spatter

App-118
expert. Further, the Court finds that if trial counsel
had presented the testimony of an expert, such as
that given by Dr. Arden in the habeas proceedings,
including the blood spatter and weapon evidence,
there is no reasonable probability that the results of
Petitioner’s trial would have been different.
Accordingly, these claims are DENIED.
7) Not Utilizing a Polygraph Expert
Petitioner asserts that trial counsel was
ineffective for failing to hire a polygraph expert,
whom he claims could have undermined the
testimony of Joe Moore, to whom a polygraph
examination was administered to allegedly attempt
to flesh out the theory that Mr. Moore was one of the
two perpetrators who committed the murders.
During trial counsel’s cross-examination of Joe
Moore, Mr. Moore sua sponte brought up the fact that
he had been given a polygraph examination. (T. 10831084). Brannon objected to this reference to
polygraph and asked for a mistrial. The trial court
denied the motion for mistrial, and with the
agreement of both parties, gave the jury a curative
instruction directing that they disregard any mention
of a polygraph. (T. 1086, 1109). There was no reason
for trial counsel to rebut this evidence with a
polygraph expert because the jury was instructed not
to consider any evidence about the polygraph, so
expert testimony would not have been permitted
about inadmissible evidence.
Further, in denying Petitioner’s claim that the
trial court erred in denying a mistrial with regard to
the mention of the polygraph, the Georgia Supreme
Court held on direct appeal, “The trial court’s strong

App-119
curative instruction and its questioning of the jury
regarding their ability to follow that instruction were
sufficient to remedy any damage to the fairness of
the proceedings.” Lance, 275 Ga. at 22-23.
Further, Petitioner failed to show that trial
counsel’s performance was deficient in this respect or
that Petitioner was prejudiced, as the record shows
that trial counsel thoroughly cross-examined Mr.
Moore’s credibility, his motive for testifying, his
hostility towards Butch Wood, Jr., the possibility that
Mr. Moore shot Mr. Wood, Mr. Moore’s changing
story, and his whereabouts when the crime occurred.
(T. 1119, 1122-1123). The record establishes that the
jury heard about the inconsistencies of Mr. Moore’s
statements.
Further, the Court finds Petitioner’s habeas
expert’s testimony that Mr. Moore’s polygraph chart
showed an immeasurable response unpersuasive.
Petitioner’s habeas witness, Cyrus Harden, conceded
that he had testified less than ten times critiquing a
polygraph test that someone else administered, that
it is easier to testify about a polygraph test when you
are the person who administered the test, and that
he had administered polygraph tests to people who
were under the influence, and “no response” does not
mean that the person is lying. (HT 187-188). In
contrast, Respondent presented the testimony of Paul
Loggins, a polygraph expert who was assigned to the
GBI’s polygraph unit for fourteen years, has
administered 7,030 polygraphs in the last eighteen
years and administered the polygraph to Joe Moore
on November 13, 1997. Mr. Loggins testified that he
did not observe any indicator or physical

App-120
characteristics that Mr. Moore was under the
influence in any way when Mr. Loggins gave Mr.
Moore the polygraph examination; and he saw
nothing to preclude Mr. Moore from being adequately
tested. (HT 473-486). Mr. Loggins testified that,
based on his training and experience, he saw nothing
to indicate that Mr. Moore was lying during the
polygraph test and his chart was not flat. (HT
492,495). Mr. Loggins concluded that Mr. Moore did
not respond in a deceptive manner and Mr. Loggins
would classify Mr. Moore’s chart as someone who was
telling the truth about the deaths of Butch Wood, Jr.
and Joy Lance. (HT 496).
The Court finds that Petitioner failed to carry his
burden of establishing deficiency of performance and
resulting prejudice and this claim is DENIED.
8) Not Utilizing a Fingerprint Expert
Petitioner asserts that trial counsel should have
expended funds to hire a fingerprint expert to testify
that no fingerprints belonging to Petitioner were
found at the crime scene. Charles Moss, the GBI’s
forensic latent print examiner, testified at trial that
the partial latent prints from the crime scene were of
no value. (T. 1012). Defense expert Andrew
Pennington testified at trial that shotgun shell hulls
are a good surface to lift a latent print from and
someone handling the ammunition would leave a
print unless he was wearing gloves. (T. 1658). In his
closing argument to the jury and in his testimony
before this Court, Brannon also stated that there was
no fingerprint evidence linking Petitioner to the
crime. (HT 61; T. 1736). Thus, based on the evidence
presented during the trial, the Petitioner was not

App-121
linked to the crime through fingerprint evidence and
trial counsel did not need to further explore this
issue. Petitioner has failed to establish deficiency or
prejudice and this claim is DENIED.
9) Failure to Investigate Petitioner’s Mental
Health and to Retain Mental Health Experts
Effective assistance of defense counsel, as
guaranteed by the Sixth Amendment, requires the
thorough investigation of a client’s case, including
any mitigating evidence that could be provided. The
investigation of all matters relevant to a defendant’s
case is a necessary component of the Sixth
Amendment right to effective assistance of counsel.
Goodwin v. Balkcom, 684 F.2d 794, 805 (11th Cir.
1982).
According to the ABA guidelines in effect at the
time of Petitioner’s trial, counsel in a death penalty
case should meet with his client immediately and,
among other things, explore the existence of potential
sources of information relating to the offense, the
client’s mental state, and the presence or absence of
any aggravating or mitigating factors. ABA Guideline
11.4.1(D)(2)(a). With an eye towards the sentencing
phase, counsel also should explore sources of
information about the defendant’s history, including
his “medical history, (mental and physical illness or
injury of alcohol and drug use, birth trauma and
development delays).” Id. 11.4.1(D)(2)(c). Counsel
also should promptly meet with witnesses “familiar
with aspects of the client’s life history that might
affect the likelihood that the client committed the
charged offense(s), possible mitigating reasons for the
offense(s), and/or other mitigating evidence to show

App-122
why the client should not be sentenced to death.” Id.
11.4.1(D)(3)(b). The ABA Guidelines articulate
reasonable professional standards for capital defense
work and have long been referred to as guides to
determining what is reasonable under the Sixth
Amendment. Wiggins v. Smith, 539 U.S. 510, 524
(2003); Hall v. McPherson, 284 Ga. 219, 221 (2008).
The evidence is undisputed in this case that trial
counsel did not investigate Petitioner’s mental
health, did not retain mental health experts, and did
not present to the jury, during either the
guilt/innocence phase or the sentencing phase of the
trial, evidence of Petitioner’s significant mental
impairments. Petitioner asserts that there was
extensive
evidence
concerning
Petitioner’s
diminished mental capacity that was available to
trial counsel which warranted further investigation.
Petitioner also asserts that, had trial counsel hired a
mental health expert to evaluate Petitioner, trial
counsel could have presented evidence that
Petitioner was a ‘‘borderline retarded” person who
had trouble controlling his impulses and who had
significant cognitive impairments and dementia due
to his abuse of alcohol and head injuries from a
gunshot wound, physical altercations, and car
wrecks.
Upon consideration and review of all of the
evidence presented in this case, the Court finds that
there is nothing in the record to establish that
Petitioner was legally insane at the time of the
commission of the crimes. Additionally, there has
been no showing that Petitioner was incompetent to
stand trial. Finally, Petitioner is not mentally

App-123
retarded. At the habeas proceeding Petitioner and
Respondent each presented testimony from mental
health experts, and those experts had varying
opinions as to what effect Petitioner’s mental
impairments would have had on him at the time of
the commission of the crimes. If such evidence had
been presented at the guilt/innocence phase of the
Petitioner’s trial, a verdict of guilty but mentally ill
would have not barred a sentence of death at the
penalty phase. Hall v. Brannan, 284 Ga. 716, 722723 (2008); Lewis v. State, 279 Ga. 756, 764 (12)
(2005). Even if the Court were to conclude that trial
counsel’s performance was deficient in failing to
present evidence of Petitioner’s mental health during
the guilt/innocence phase of the trial, the Court finds
that the Petitioner has failed to establish the
prejudice prong of Strickland. Accordingly, this
portion of the claim is DENIED.
Of particular concern to the Court, however, is
the fact that trial counsel failed to investigate
Petitioner’s mental health and, thus, failed to present
easily obtainable psychiatric mitigating evidence
during the sentencing phase of the trial. A
reasonable investigation into Petitioner’s life history
would show that further investigation into
Petitioner’s mental health was warranted in this
case. The duty to investigate all available sources of
mitigating evidence is heightened for counsel in
capital cases, particularly in preparing for the
sentencing phase, where trial counsel has the
opportunity to present “anything that might
persuade a jury to impose a sentence less than
death.” Head v. Thomason, 276 Ga. 434, 436-37
(2003) (emphasis in original).

App-124
“The primary purpose of the penalty phase is to
insure that the sentence is individualized by focusing
[on] the particularized characteristics of the
defendant.” Cunningham v. Zant, 928 F.2d 1006,
1019 (11th Cir. 1991). The U.S. Supreme Court has
explained that:
If the sentencer is to make an individualized
assessment of the appropriateness of the
death
penalty,
evidence
about
the
defendant’s background and character is
relevant because of the belief, long held by
this society, that defendants who commit
criminal acts that are attributable to a
disadvantaged background, or to emotional
or mental problems, may be less culpable
than defendants who have no such excuse.
Penry v. Lynaugh, 492 U.S. 302, 319 (1989) (internal
quotation marks and citation omitted); see also
Williams v. Taylor, 529 U.S. 362 (2002); Wiggins v.
Smith, 539 U.S. 510 (2003); Rompilla v. Beard, 545
U.S. 374 (2005).
The harm stemming from the failure to present
psychiatric mitigating evidence in capital cases is
clear. It has long been recognized in Georgia that
“evidence of a diminished capacity to fully appreciate
the ‘cruelty and gravity of his acts’ is critical at the
penalty phase of a capital case ‘because in our system
of criminal justice acts committed by a morally
mature person with full appreciation of all their
ramifications and eventualities are considered more
culpable than those committed by a person without
that appreciation.’” Bright v. State, 265 Ga. 265, 275,
455 S.E.2d 37, 50 (1995) (citations omitted).

App-125
Psychiatric mitigating evidence “has the potential to
totally change the evidentiary picture by altering the
causal relationship that can exist between mental
illness and homicidal behavior. ‘Thus, psychiatric
mitigating evidence not only can act in mitigation, it
also could significantly weaken the aggravating
factors.’” Middleton v. Dugger, 849 F.2d 491, 495
(11th Cir. 1988) (citations omitted). See also, Turpin
v. Christenson, 269 Ga. 226, 241 (1998) (endorsing
and quoting Middleton on this point); Stephens v.
Kemp, 846 F.2d 642, 653 (11th Cir. 1993) (“prejudice
is clear” where attorney failed to investigate
adequately client’s mental health and present
evidence of client’s mental problems in sentencing
phase).
Experts are critical in helping to tie the various
aspects of a defendant’s life history, which may
include instances affecting mental health, into a
coherent picture of the defendant’s state of mind
throughout his life path leading up to the crime. The
Georgia Supreme Court has repeatedly held that the
average capital juror is hindered in bis sentencing
deliberations when available psychiatric opinion
testimony or other psychiatric mitigating evidence is
not presented in court. In Bright v. State, the Court
found that a psychiatrist would have been of
invaluable assistance to the jury in deciding the
defendant’s fate: “a psychiatrist could have
evaluated, in terms beyond the ability of the average
juror, Bright’s ability to control and fully appreciate
his actions in the context of the events that arose on
the night of the murders, given his severe
intoxication, his history of substance abuse, his
troubled youth, and his emotional instability.” 265

App-126
Ga. 265, at 276 (1995). Similarly, in Turpin v.
Lipham, the Court found counsel ineffective for
failing to present the testimony of a mental health
expert to help the jury understand the mitigating
significance of the defendant’s troubled upbringing
and mental disorders: “[T]he average juror is not
able, without expert assistance, to understand the
effect [the defendant]’s troubled youth, emotional
instability and mental problems might have had on
his culpability for the murder.” 270 Ga. 208, 219
(1998) (emphasis supplied). In this case, the jury was
inexcusably deprived of expert testimony regarding
Petitioner’s psychiatric disorders, history of alcohol
abuse, and head trauma which was critical to
informed deliberation as to sentence.
Although trial counsel is afforded tremendous
deference over matters of trial strategy, the decision
to select a trial strategy must be reasonably
supported and within the wide range of
professionally competent assistance. Devier v. Zant, 3
F.3d 1445, 1453 (11th Cir. 1993); Strickland supra at
690. Before selecting a strategy, counsel must
conduct a reasonable investigation into the
defendant’s background for mitigation evidence to
use at sentencing. Jefferson v. Zant, 263 Ga 316, 31920 (1993); Baxter v. Thomas, 45 F.3d 1501, 1513
(11th Cir. 1995); Bush v. Singletary, 988 F.2d 1082,
1091 (11th Cir. 1993) (“After an adequate
investigation, counsel may reasonably decide not to
present
mitigating
character
evidence
at
sentencing”). An attorney is not ineffective because
he fails to follow every evidentiary lead, but an
attorney’s strategic decision is not reasonable “ ‘when
the attorney has failed to investigate his options and

App-127
make a reasonable choice between them.’ ” Baxter,
supra, quoting Horton v. Zant, 941 F.2d 1449, 1462
(11th Cir. 1991). The failure to conduct a reasonable
investigation may render counsel’s assistance
ineffective. Baxter, supra at 1514; Curry v. Zant, 258
Ga. 527, 530, (1988) (counsel ineffective for failing to
further investigate client’s mental health despite
indications that client was mentally ill).
At the evidentiary hearing before this Court,
Brannon acknowledged that he knew the potential
importance of mental health testimony, as he had
tried other death penalty cases where mental health
was an issue. (HT 93; See Waldrip v. State, 264 Ga.
402 (1994)). In those prior cases Brannon had
requested funds for mental health experts and
presented mental health defenses and mitigation at
trial. Id.
Brannon testified that, during his investigation
and preparation for trial, he met and spoke with
Petitioner frequently. (HT 1397). Brannon testified
further that he and his paralegal assistant, Pat
Dozier, had established an excellent rapport with
Petitioner’s family members and talked to them
numerous times. (HT 1401-1405, 1410). After
speaking with Petitioner and Petitioner’s family
members, Brannon felt that neither gave him any
indication that Petitioner had any type of mental
health problems. However, the record indicates that
evidence regarding Petitioner’s traumatic brain
injuries and alcohol abuse was readily available to
trial counsel. It was well known among Petitioner’s
family and friends that Petitioner was often involved
in wrecks while racing cars, and that he rarely, if

App-128
ever, sought medical care following these wrecks.
(Pet. Ex. 10 ¶ 6; Pet. Ex. 26 ¶ 4). It was also common
knowledge that Petitioner had a longstanding
drinking problem. (Pet. Ex. 28 ¶ 16; Pet. Ex. 40 ¶ 5;
Pet. Ex. 36 ¶ 4; Pet. Ex. 41 ¶ 10). Additionally, in
1993 Petitioner was shot in the head by unknown
assailants while sleeping on his couch and, in direct
conflict with his physician’s orders, Petitioner
refused to stay in the hospital. (Pet. Ex. 21 ¶ 11).
After he was shot, Petitioner began having terrible
headaches. (Pet. Ex. 31 ¶ 26; Pet. Ex. 5 ¶ 9; Pet. Ex
43 ¶ 11). Petitioner also experienced dizziness and
had difficulty working on cars in bis shop. He became
even more quiet than he had before. (Pet. Ex. 21 ¶ 9).
Finally, Petitioner was hospitalized at Georgia
Regional Hospital for mental health treatment (Pet.
Ex. 21 ¶ 13).
Even though Brannon has noted the importance
of mental health evidence in capital cases, he
testified that he did not investigate Petitioner’s
mental health in this case. He did not review medical
records regarding Petitioner’s numerous head
traumas; did not review medical records regarding
Petitioner’s hospitalization for mental health
treatment; did not inquire with Petitioner’s family,
friends, or any other members of the small-town
community as to whether Petitioner had any history
of mental health issues or whether he could have
suffered some debilitating head traumas. Although
Brannon testified at the evidentiary hearing that
having Petitioner evaluated by a mental health
expert was on his list of things to investigate in the
case, he testified further that it was not a top
priority. (HT 68-69). Consequently, Brannon did not

App-129
request the assistance of mental health experts that
could have revealed the significant mental
impairments from which Petitioner suffers. Based on
the wealth of information that was readily available
to trial counsel, and the lack of other evidence to offer
in mitigation, the Court finds that trial counsel’s
failure to investigate Petitioner’s mental health was
unreasonable.
The Court notes that “the reasonableness of an
investigation, or a decision by counsel that forecloses
the need for an investigation, must be considered in
light of the scarcity of counsel’s time and resources in
preparing for a sentencing hearing and the reality
that counsel must concentrate his efforts on the
strongest arguments in favor of mitigation.” Byram v.
Ozmint, 339 F.3d 203, 210 (4th Cir. 2003). In this
case, however, very little was offered in the way of
mitigating evidence. Therefore, the Court finds that
there was no strategic reason justifying trial
counsel’s decision to forego the investigation of the
Petitioner’s mental health and to concentrate his
time and efforts on other potential areas of defense
and mitigation. He simply failed to conduct the
investigation that reasonable professional norms
require. Where, as here, the “failure to investigate
thoroughly result(s] from inattention, not reasoned
strategic judgment,” counsel’s performance is
unreasonable and ineffective. Wiggins, 539 U.S. at
525; see also Hardwick, 320 F.3d at 1185 (‘“counsel’s
failure to present or investigate mitigation evidence’
cannot result from ‘neglect’”) (citations omitted).
In light of the readily available evidence
regarding Petitioner’s diminished mental capacity

App-130
due to traumatic brain injuries and alcohol abuse,
trial counsel’s failure to specifically investigate
Petitioner’s mental health or to seek a mental
evaluation
of
the
Petitioner
under
these
circumstances
is
constitutionally
deficient
performance. Cunningham, 928 F.2d at 1018 (“In
light of the ready availability of this evidence
[relating to petitioner’s mild mental retardation] and
in the absence of a tactical justification for its
exclusion, the failure by trial counsel to present and
argue during the penalty phase [evidence of
petitioner’s mental retardation] ... [falls] outside the
range of professionally competent assistance”);
Christenson, 269 Ga at 234-42.
Furthermore, had trial counsel investigated
Petitioner’s
mental
health,
such
an
investigation/evaluation
would
have
provided
significant mitigating evidence for the jury to
consider. At the habeas evidentiary hearing
Petitioner presented the testimony of three mental
health experts (Dr. Hyde, Dr. Weinstein, and Dr.
Pickar) and Respondent presented the testimony of
two mental health experts (Dr. Martell and Dr.
Griesemer). While the mental health experts had
varying opinions as to the degree and effect of
Petitioner’s mental impairments, all of the mental
health experts, including those employed by the
Respondent, testified that Petitioner suffered from
mental impairments
that
render
Petitioner
borderline mentally retarded, and all provided
testimony that would have been extremely important
for the jury to consider in determining the
appropriate sentence.

App-131
a) Petitioner’s Mental Health Experts
Thomas Hyde M.D., Ph.D., an expert in
Behavioral Neurology, testified that he performed an
extensive neurological evaluation of Petitioner (over
100 tests) and concluded that Petitioner had “brain
damage [frontal lobe damage] as a result of
traumatic brain injury or the addictive effects of
alcohol abuse.” (HT 347-349, 369-371). Dr. Hyde
further concluded that Petitioner was limited in his
ability to conform his actions to the law, (HT 360),
and he would be surprised if Petitioner was able to
commit the crimes in this case. (HT 358).
Similarly, Ricardo Weinstein, Ph.D., an expert in
Neuropsychology, found that Petitioner has frontal
lobe damage. Dr. Weinstein also concluded that
Petitioner has significant brain dysfunction and
cognitive impairments. (HT 1037). He further noted
that Petitioner was an alcoholic, (HT I 040), had been
treated for depression and anxiety, (HT 1041), and
that Petitioner appears to meet DSM-IV-TR criteria
for a diagnosis of Dementia Due to Multiple
Etiologies (head injuries plus chronic alcohol abuse).
(HT 312). Dr. Weinstein further found Petitioner to
have an IQ of 78, which places him in the borderline
range of intellectual abilities. Dr. Weinstein,
however, did not conclude that Petitioner could not
have planned and/or committed the crimes. Dr
Weinstein testified that, in considering Petitioner’s
culpability for the crimes charged, it would be
important for the fact finder to have information
about Petitioner’s impaired mental abilities.
(HT 260).

App-132
David Pickar, M.D., an expert in Psychiatry and
Clinical Neuroscience, testified that Petitioner
suffers from neuropsychiatric impairments (dementia
due to serious head trauma, frontal lobe dysfunction,
alcohol abuse, and depression). Dr. Pickar testified
that, in his opinion, the Petitioner had trouble
planning and organizing based on frontal lobe issues.
Dr. Pickar testified further that the neuropsychiatric
impairments existed at the time of the murders and
that the impairments would have significant
implications for Petitioner’s behavior at the time of
the murders. (HT 968-970).
b) Respondent’s Mental Health Experts
Daniel A. Martell, Ph.D., an expert in
Neuropsychology, evaluated Petitioner and concluded
that Petitioner suffered from brain dysfunction, but
that it did not appear to affect Petitioner’s ability to
plan or control impulses. (HT 592-593). Dr. Martell
agreed with Petitioner’s expert (Dr. Weinstein) in
finding that Petitioner appears to meet DSMN-TR
criteria for a diagnosis of Dementia due to head
injuries and chronic alcohol abuse. (HT 597).
However, Dr. Martell concluded that Petitioner’s
history of head injuries did not affect Petitioner’s
cognitive functioning. (HT 585-586). Dr. Martel
testified further that Petitioner’s IQ score of 79
placed Petitioner in the borderline range, higher than
mild mental retardation and just one point away
from being in the low average range. (HT 585).
Although Dr. Martel testified that there was nothing
to show that the Petitioner was incapable of
committing the murders in this case, (HT 602), Dr.
Martell also concluded that if Petitioner actually did

App-133
commit the crime for which he was charged, his
culpability for that offense would be affected by his
brain dysfunction. Dr. Martell acknowledged that
evidence regarding a defendant’s mental illness, just
like the information available, but never presented in
Petitioner’s trial, is routinely provided in capital
cases. (HT 623-624.)
Dr. David Griesemer, an expert in Neurology,
evaluated Petitioner and concluded that Petitioner
suffered from mild cognitive dysfunction, as well as
“anxiety and depression,” but that it did not appear
to affect Petitioner’s ability to control impulses. Dr.
Griesemer also concluded that the 1993 gunshot
wound did not have an impact on the Petitioner’s
cognitive performance. Further, Dr. Griesemer found
that the Petitioner appeared to be of low-average
intelligence, but the Petitioner “fully retains his
ability to understand lawful behavior and to conform
his behavior to the requirements of the law.” (Res.
Ex. 54, HT 12315).
Introducing this mental health evidence would
have been crucial in the sentencing phase of
Petitioner’s trial, as it directly related to the key
issue before the jury: their individualized
assessments of Petitioner’s character, culpability,
and worth. Trial counsel had no strategic reason for
failing to inform the jury about Petitioner’s mental
deficiencies during sentencing. In fact, Brannon
testified that evidence concerning Petitioner’s organic
brain damage and mental deficits was “precisely the
type of evidence” he wanted to present at trial. (Pet
Ex 3 ¶ 23.) Under these circumstances, the failure to
provide the jury with evidence relating to Petitioner’s

App-134
mental impairments was objectively unreasonable.
Crosby, 320 F.3d at 1164 (Eleventh Circuit has held
that “[w]hen mental health mitigating evidence was
available, and absolutely none was presented [by
counsel] to the sentencing body, and . . . no strategic
reason [w]as . . . put forward for this failure,’” the
omission was objectively unreasonable); Brownlee,
306 F.3d at 1070 (holding that “counsel’s failure to
investigate, obtain, or present any mitigating
evidence to the jury, let alone the powerful
mitigating evidence of Brownlee’s borderline mental
retardation, psychiatric disorders, and history of
drug and alcohol abuse, undermines our confidence
in Brownlee’s death sentence”).
Respondent contends that the evidence of alcohol
abuse and head injuries (car wrecks, fights, gunshot
wound) presented by Petitioner in the habeas corpus
proceedings is as potentially aggravating as it is
mitigating. This contention fails to take into account
that Petitioner’s primary focus of bis claim is trial
counsel’s failure to investigate and present evidence
regarding Petitioner’s mental health; particularly,
his significant mental impairments. The fact that
Petitioner’s brain damage and diminished mental
capacity may be attributed to one or more causes,
including alcohol abuse and various forms of head
trauma, is not the primary focus of Petitioner’s claim.
Upon consideration and review of all of the
evidence presented in this case, the Court finds that
trial counsel was ineffective for failing to investigate
Petitioner’s mental health as a possible source of
mitigating evidence in this case. The Court finds that
trial counsel’s decision to forego the investigation of

App-135
the Petitioner’s mental health and to present very
little in the nature of mitigating evidence was not a
reasonable tactical decision under the circumstances.
Further, the Court finds that trial counsel’s failure to
retain mental health experts and failure to present
the evidence of the Petitioner’s significant cognitive
impairments to the jury during the sentencing phase
of the trial constitutes legally deficient performance.
In light of the strength of the mental health evidence
offered at the habeas hearing, the Court further finds
that there is a reasonable probability that, but for
these deficiencies in trial counsel’s performance, the
outcome of the proceedings would have been
different. See Hall v. McPherson, 284 GA 219 (2008)
(affirming habeas court grant of sentencing relief
based on trial counsel’s failure to investigate or
present mitigating background and mental health
evidence at sentencing).
Accordingly, the Court finds that Petitioner is
entitled to habeas relief on the portion of his
ineffective assistance of counsel claim that is based
on trial counsel’s failure to investigate Petitioner’s
mental health, retain mental health experts, and
present evidence of Petitioner’s mental health in
mitigation during the sentencing phase of the trial.
The petition for writ of habeas corpus is GRANTED
as to the death sentences imposed.
10) Investigation And Presentation of Other
Mitigation Evidence
a) Residual Doubt theory
During the trial of this case Petitioner’s counsel
utilized the defense theory that Petitioner did not
commit the crimes and was not present at the scene

App-136
of the crimes at the time they were committed. The
defense
called
nine
witnesses
during
the
guilt/innocence phase to support the Petitioner’s alibi
defense. The evidence presented by the defense in the
guilt/innocence phase carried over into in the
sentencing phase, and the theory that the Petitioner
did not commit the crimes became a theory of
residual doubt during the sentencing phase.
It has been noted that “residual doubt is perhaps
the most effective strategy to employ at sentencing.”
See Tarver v. Hopper, 169 F.3d 710, 715-716 (11th
Cir. 1999) (citing law review study concluding that
“the best thing a capital defendant can do to improve
his chances of receiving a life sentence ... is to raise
doubt about bis guilt”). The Georgia Supreme Court
has expressly held that it is a reasonable and
professional decision for a lawyer to choose a
mitigation theory of residual doubt and to present
testimony consistent with that theory. Head v.
Ferrell, 274 Ga. 399, 405 (2001). See also Alderman v.
Terry, 468 F.3d 775, 789-790 (11th Cir. 2006)
(upholding the habeas court’s finding that defense
counsel’s residual doubt strategy was a reasonable,
professional decision given the information that was
available to counsel at the time of trial and the fact
that the defendant maintained his innocence); Parker
v. Sec’y for the Dep’t of Corr., 331 F.3d 764, 787-788
(11th Cir. 2003). Such was the strategy employed by
Petitioner’s trial counsel in this case.
Trial counsel’s reliance on particular lines of
defense to the exclusion of others is a matter of
strategy and is not ineffective unless Petitioner can
prove the chosen course, in itself, was unreasonable.

App-137
See Chandler v. United States, 218 F.3d 1305 (11th
Cir. 2000). In light of the circumstantial evidence
presented by the State in the guilt/innocence phase,
trial counsel’s residual doubt strategy at first
appears reasonable. However, based on the readily
obtainable evidence of Petitioner’s significant mental
impairments, the Court finds that trial counsel’s
decision to forego the investigation of the Petitioner’s
mental health as a possible source of mitigating
evidence and to rely solely on residual doubt as
mitigating evidence was not a reasonable tactical
decision under the circumstances. Compare Williams
v. Head, 185 F.3d 1223, 1244 (11th Cir. 1999) (where
counsel on motion for new trial conducted a
reasonable investigation into possibility that
defendant suffered from mental health problems
when determining whether trial counsel’s failure to
present mental health evidence as mitigation
evidence met the ineffective assistance of counsel
standard); see also Turpin v. Lipham, 270 Ga. 208,
218 (1998) (the test for determining whether trial
counsel’s performance in the sentencing phase was
deficient is whether a reasonable lawyer at the trial
could have acted, in the same circumstances, as
defense counsel acted at trial).
Trial counsel’s performance was deficient and
Petitioner was prejudiced as a result. Accordingly, for
the reasons set forth in Section VII.A.9 above, the
petition for writ of habeas corpus is GRANTED as to
the sentences of death.
b) Decision Not To Use Family Members
Tue Petitioner asserts that other types of
evidence should have been presented in mitigation

App-138
(good character, good father, not starting fights). This
evidence was presented to the Court through the
affidavits of family and friends. During the habeas
evidentiary hearing, trial counsel stated his strategic
reason for not calling this type of witness during the
sentencing phase of Petitioner’s trial. Specifically, he
testified:
Yes. All we’re going to do, if we did that, was
retry every bad word that had been said
about Donnie during the entire trial. I knew
that Mr. Madison would be allowed to crossexamine each person I called that had any
knowledge of prior bad acts and that we
were going right back over that evidence and
reinforce it and repeat it in front of the jury.
(HT 103-104). In making bis decision as to whether to
present Petitioner’s family during the sentencing
phase of trial, counsel stated:
And I did talk with them about that. And I
thought about putting them up. But I told
them here’s what you’re going to be faced
with. And really nobody — I mean, they love
Donnie and wanted to help Donnie, but
nobody was dying to sit on the witness stand
and be beat to death for another two or three
hours with testimony that we’d already
heard in the courtroom.
(HT 105).
The record establishes that trial counsel made a
strategic decision to not present any of Petitioner’s
family members during the sentencing phase. The
record indicates that trial counsel had numerous
conversations with Petitioner’s family members and

App-139
interviewed various witnesses regarding Petitioner’s
case. (HT 10772-10790; and Pet Ex. 4; Pet. Ex. 5; Pet.
Ex. 15; Pet. Ex. 16; Pet. Ex. 18; Pet. Ex. 21; Pet. Ex.
22; Pet. Ex. 27; Pet. Ex. 28; Pet. Ex. 36; Pet. Ex. 38).
Prior to the sentencing phase closing arguments,
trial counsel informed the trial court that he would
not be presenting any of Petitioner’s family members
during the sentencing phase. Specifically, trial
counsel stated:
No, sir. We’re not going to call in the family
members for the reason that if we put them
on the stand and they tell about Donnie, he’s
a good guy, and the things that they know
about him and then subject to crossexamination the specific bad acts that would
be allowed, we’d be all afternoon hearing the
same negative similar transaction and prior
difficulty hearing that we’ve heard for three
days. So I’m not going to call family
members to the stand.
(T. 1917-1918).
Trial counsel was concerned that the State would
again question character type witnesses and again
review evidence of Petitioner’s prior violence against
Joy Lance and Butch Wood including: approximately
six months prior to the murders Petitioner offered
Mary Lance one thousand dollars to kill Joy Lance
and Butch Wood Jr. (9/28/98 Pretrial Hearing, pp. 4850); Petitioner telling various people he would kill
Joy Lance and Butch Wood (9/28/98 Pretrial Hearing,
pp. 50-51, 81, 109, 147, 157; 9/29/98 Pretrial Hearing,
pp. 207, 259); Petitioner attempting to electrocute
Joy in a tub of water (9/28/98 Pretrial Hearing,

App-140
pp. 53, 58-59; 9/29/98 Pretrial Hearing, p. 220-221);
Petitioner holding a pistol to Joy’s head and
threatening to kill her (9/28/98 Pretrial Hearing,
pp. 74, 114); telling his and Joy’s son that Joy, was a
“slut whore mama,” that she did not love him and to
give his mother a “big hug bye because it will be the
last time you see her” while holding a loaded gun to
her head in front of the child (9/28/98 Pretrial
Hearing, pp. 74, 114; 9/29/98 Pretrial Hearing,
p. 238); Petitioner beating Joy with a gun (9/28/98
Pretrial Hearing, pp. 75, 115, 128); attacking Joy
with a loaded gun and a chainsaw (9/28/98 Pretrial
Hearing, pp. 81-83; 9/29/98 Pretrial Hearing, pp. 207,
259); pouring a flammable liquid in Joy’s hair and
then threatening to set her on fire (9/28/98 Pretrial
Hearing, pp. 81, 109; 9/29/98 Pretrial Hearing,
pp. 206-207, 258-259); and kicking in the back door of
Butch Woods’ residence brandishing a loaded
shotgun (9/28/98 Pretrial Hearing, pp. 145, 151-153,
164; 9/29/98 Pretrial Hearing, pp. 216-218).
The Court finds that trial counsel’s strategic
decision not to present character witnesses in
mitigation was reasonable. Thus, this Court finds
that trial counsel was not deficient and Petitioner
was not prejudiced by trial counsel not submitting
the testimony of Petitioner’s family members, which
trial counsel reasonably determined may have been
more aggravating than mitigating to Petitioner’s
case. This claim is therefore DENIED.
c) Evidence Concerning Petitioner’s Relationship
with his Children
In the proceedings before this Court, Petitioner
submitted affidavits from family and friends,

App-141
including Petitioner’s daughter, Stephanie Lance, to
support his assertion that trial counsel was
ineffective in not presenting evidence that Petitioner
had a loving relationship with his children as
mitigating evidence.
During the evidentiary hearing before this
Court, trial counsel testified that he spoke with
Petitioner’s children. (HT 8335). Trial counsel
testified that he reviewed the affidavit of Stephanie
Lance, and that the affidavit was consistent with
what he learned from talking to Stephanie.
(HT 8335-8336). However, trial counsel testified that
he did not present the testimony of Petitioner’s
children due to the emotional trauma it would cause
them and because they lacked any “superior piece of
testimony.” (HT 8336).
With regard to the testimony of Petitioner’s other
family members and friends, trial counsel stated that
he chose not to present their testimony because he
did not want them to be subjected to a crossexamination by the State regarding the prior
difficulties between Petitioner and Joy Lance, which
trial counsel felt would have been harmful to the
Petitioner.
The Court notes that trial counsel stated to the
jury during his closing arguments that Petitioner had
children who loved him. (T. 1943). He argued that if
they sentenced Petitioner to death, then Petitioner’s
two children would not have a mother or father.
(T. 1946-1947). Trial counsel asked the jury to ‘‘think
about this long and hard before you decide to
eliminate somebody. Think about Jessie and
Stephanie.” (T. 1948). Counsel argued that it was a

App-142
“powerful thing, to take somebody’s life. It will affect
you forever.” (T. 1944).
The Court concludes that trial counsel was not
deficient in not presenting the Petitioner’s children
and family members to testify as to Petitioner’s
relationship and love for his children. Further, the
Court finds that Petitioner has failed to show that he
was prejudiced by trial counsel’s decision in this
regard. Therefore, this claim is DENIED.
d) Evidence of Petitioner’s Nature to Help Others
Trial counsel was not unreasonable in not calling
character witnesses to testify during the sentencing
phase of trial. “The fact that [Appellant] and his
present counsel now disagree with the difficult
decisions regarding trial tactics and strategy made by
trial counsel does not require a finding that
[Appellant] received representation amounting to
ineffective assistance of counsel.” Stewart v. State,
263 Ga. 843, 847 (1994) (citing Van Alstine v. State,
263 Ga. 1, 4-5 (1993)). See also Rogers v. Zant, 13
F.3d 384; Strickland, 466 U.S. at 700 (Strickland
claimed that trial counsel was ineffective for not
offering evidence that numerous persons thought
Strickland was generally a good person. Court found
the character evidence would not have changed the
sentence imposed).
Further, trial counsel was not unreasonable in
not calling these lay witnesses to testify on
Petitioner’s behalf as counsel clearly stated his
concern about putting up witnesses that would be
cross-examined by the State regarding prior
difficulties between Petitioner and Joy Lance.
(HT 103-104). Informed strategy decisions by

App-143
experienced counsel, such as this decision by
Brannon, are the type of actions which Strickland
prohibits being “second guessed” by reviewing courts.
See also Jones v. Smith, 772 F.2d 668 (11th Cir.
1985); Gates v. Zant, 863 F.2d 1492 (11th Cir.) cert.
denied, 110 S.Ct. 353 (1989).
Even if many reasonable lawyers would not have
done as defense counsel did at trial, no relief can be
granted on ineffectiveness grounds unless it is shown
that no reasonable lawyer, in the circumstances,
would have done so. This burden which is Petitioner’s
to bear, is and is supposed to be a heavy one. And,
“[w]e are not interested in grading lawyers
performances; we are interested in whether the
adversarial process at trial . . . worked adequately.”
See White v. Singletary, 972 F.2d 1218, 1221, 11th
Cir. 1992.” Rogers v. Zant, 13 F.3d at 386.
As such, the Court finds that trial counsel cannot
be deemed deficient in making the strategic decision
under the facts of this case not to present these
character witnesses during the sentencing phase of
trial and that Petitioner was not prejudiced by trial
counsel’s tactical decision. This claim is DENIED.
B. OTHER CLAIMS
1) Mental Retardation (Claim III)
Petitioner alleges that the imposition of the
death penalty is unconstitutional in this case because
his mental impairments render him the “functional,
moral, legal, and constitutional equivalent” of an
offender who is mentally retarded. The Court has
previously found this claim to be procedurally
defaulted. Regardless of whether the Court considers
the claim for a miscarriage of justice excusing the

App-144
default or on the merits, the claim fails. Petitioner
has not established that his mental impairments
rendered him mentally retarded, and Petitioner’s
mental impairments do not automatically exempt
him from capital punishment.
Neither federal law nor Georgia law precludes
capital punishment for someone with “mental
impairments.” In Georgia, the death penalty is only
barred for offenders who were under the age of 18 at
the time of the crime and for offenders who have been
found to be mentally retarded under O.C.G.A. § I 7-7131(j)).
Petitioner attempts to equate his alleged “mental
impairments” with mental illness, which he, in turn,
argues equates with mental retardation. Yet, Georgia
law does not preclude a death sentence for someone
who simply has been diagnosed with a mental illness.
See O.C.G.A. § 17-7-131; Lewis v. State, 279 Ga. 756,
764 (2005) (finding that “unlike a verdict of guilty but
mentally retarded, the statute that provides for a
verdict of guilty but mentally ill does not preclude a
death sentence as a result of such verdict”).
Significantly, the Georgia Supreme Court has
expressly held that Atkins does not apply to persons
who are not mentally retarded. In Lewis v. State, the
Georgia Supreme Court heard the issue of whether
the “ban [in Atkins] on executing the mentally
retarded should be extended to apply to the mentally
ill because [of] ... diminished culpability.” 279 Ga. at
764. The Georgia Supreme Court rejected this claim,
specifically “declin[ing] to extend the holdings of
cases like Atkins” to a petitioner who claims to be
mentally ill. Id.

App-145
The record before this Court shows that
Petitioner’s experts did not find that Petitioner was
mentally retarded, but instead found that he
functioned in the range of borderline intellectual
functioning. (HT 790-816, 968-978, I 031-1063).
Because Petitioner is not mentally retarded, there is
no legal impediment to the imposition of his death
sentence for the purposes of retribution or
deterrence. Petitioner’s alleged mental impairments
are legally insufficient to excuse his culpability or
preclude him from being executed, and therefore, this
claim is DENIED.
2) Sentencing Phase Jury Instructions (Claims
XXV and XXVI)
As errors in the sentencing phase charge to the
jury are “never barred by procedural default,” these
claims are properly before this Court for review on
the merits. Head v. Ferrell, 274 Ga 399, 403, 554 S.E.
2d 155 (2001).
A review of the sentencing phase jury
instructions, in their entirety, establishes that
Petitioner failed to show that the trial court erred in
defining mitigating circumstances or erred in not
instructing the jury that unanimity was not required
to impose a life sentence. The jury instructions in
this case regarding mitigating circumstances and
unanimity have all been held to be constitutional by
the Georgia Supreme Court. See, e.g., King v. State,
273 Ga. 258, 276 (2000); Nance v. State, 280 Ga. 125,
126 (2005); Walker v. State, 281 Ga. 157, 165 (2006).
See also McClain v. State, 267 Ga. 378, 386 (1996)
(holding that a jury need not be instructed as to
specific standards for considering mitigating

App-146
circumstances so long as the jury is allowed and
instructed to consider the evidence in mitigation and
is instructed that it has a discretion, notwithstanding
proof of aggravating circumstances, to impose a life
sentence); Ford v. State, 257 Ga. 461 (1987) (the
Georgia statutory capital sentencing scheme does not
require a weighing or balancing of mitigating and
aggravating circumstances); Jenkins v. State, 269 Ga.
282, 296 (1998)(holding that there is no error in
refusing to charge the jury that its failure to reach a
unanimous verdict as to sentence would result in
imposition of a life sentence).
Accordingly, the trial court properly instructed
the jury and this claim is DENIED.
VIII. CONCLUSION
Upon consideration of Petitioner’s claims in the
habeas corpus petition, Respondent’s argument in
opposition, the evidence presented in these
proceedings, the applicable law, and all matters
appropriate, the Court concludes that Petitioner is
entitled to certain habeas relief as set forth below.
Based on the foregoing finding of fact and
conclusions of law, the Court hereby Orders that the
writ of habeas corpus is DENIED as to Petitioner’s
convictions and is GRANTED with respect to the
death sentences imposed by the jury in Criminal
Case No. 98-CR-0036 in the Superior Court of
Jackson County, Georgia, and Petitioner’s death
sentences are hereby VACATED. Nothing in the
Order shall prohibit the trial court from conducting
further proceedings regarding sentencing, and
nothing in this Order shall preclude or prohibit the

App-147
State from again seeking the death penalty in such
proceedings.
The Clerk of the Superior Court of Butts County
is directed to serve copies of this Order upon
Petitioner’s counsel of record, Respondent’s counsel of
record, and the habeas law clerk of the Council of
Superior Court Judges.
IT IS SO ORDERED, this 22nd day of April,
2009.
s/
MICHAEL C. CLARK
Judge Superior Court
Sitting by Designation in Butts
County Superior Court

App-148
Appendix F
SUPREME COURT OF GEORGIA
________________
Nos. S09A1536, S09X1538
________________
HALL,
v.
LANCE;
and vice versa.
________________
April 22, 2009
________________
ORDER
HUNSTEIN, Chief Justice.
A jury convicted Donnie Cleveland Lance of two
counts of murder and of related crimes in connection
with the deaths of his ex-wife, Sabrina “Joy” Lance,
and her boyfriend, Dwight “Butch” Wood, Jr. The
jury sentenced Lance to death for each of the
murders, and this Court affirmed his convictions and
sentences unanimously. Lance v. State, 275 Ga. 11
(560 SE2d 663) (2002). Lance filed a petition for a
writ of habeas corpus on May 29, 2003, and he
amended the petition on August 25, 2005. After
conducting an evidentiary hearing, the habeas court
granted the petition with respect to Lance’s death
sentences and denied the petition with respect to his
convictions. The Warden has appealed in Case
Number S09A1536, and Lance has cross-appealed in

App-149
Case Number S09X1538. In the Warden’s appeal, we
reverse and reinstate Lance’s death sentences. In
Lance’s cross-appeal, we affirm.
I. Factual Background
The evidence at trial showed that Lance had a
long history of abusing Joy Lance both before and
after they divorced, including kidnapping her,
beating her with his fist, a belt, and a handgun,
strangling her, electrocuting her with a car battery,
and threatening her with a flammable liquid,
handguns, and a chainsaw. He had repeatedly
threatened to kill her himself, and he had once
inquired of a relative about what it might cost to hire
someone to kill her and Butch Wood. Lance kicked in
the door of Butch Wood’s home in 1993 armed with a
shotgun, loaded a shell into the chamber of the
shotgun, and then fled only after a child in the home
identified and spoke to Joe Moore, Lance’s friend who
was accompanying Lance that night.
Shortly before midnight on November 8, 1997,
Lance called Joy Lance’s father, asked to speak to
her, and learned that she was not at home. Shortly
afterward, a passing police officer noticed Lance’s
automobile leaving his driveway. Lance arrived at
Butch Wood’s home, kicked in the front door, shot
Butch Wood on the front and the back of his body
with a shotgun, and then beat Joy Lance to death by
repeatedly striking her in the face with the butt of
the shotgun, which broke into pieces during the
attack. Joy Lance’s face was rendered utterly
unrecognizable. Later that morning, Lance told his
friend, Joe Moore, that Joy Lance (whom Lance
referred to in a derogatory manner) would not be

App-150
coming to clean Lance’s house that day; that Butch
Wood’s father could not “buy him out of Hell”; and
that both Joy Lance and Butch Wood were dead.
Lance later told a fellow inmate that he “felt stupid”
that he had called Joy Lance’s father before the
murders, and Lance bragged to the inmate that “he
hit Joy so hard that one of her eyeballs stuck to the
wall.”
II. Alleged Ineffective Assistance of Counsel
Lance argued in the habeas court that his trial
counsel rendered ineffective assistance in various
ways during both the guilt/innocence phase and the
sentencing phase. An ineffective assistance of counsel
claim
must
show
that
counsel
rendered
constitutionally-deficient performance and that
actual prejudice of constitutional proportions
resulted. Strickland v. Washington, 466 U. S. 668,
687 (III) (104 SC 2052, 80 LE2d 674) (1984); Smith v.
Francis, 253 Ga. 782 (1) (325 SE2d 362) (1985). The
constitutional standard for attorney performance is
determined with reference to “prevailing professional
norms.” Strickland, supra at 688 (III) (A). See also
Hall v. McPherson, 284 Ga. 219 (2) (663 SE2d 659)
(2008) (noting relevance of published professional
guidelines in assessing what might have been
reasonable in a particular case). A review of an
attorney’s performance “includes a context-dependent
consideration” of counsel’s decisions that sets aside
the “‘distorting effects of hindsight.’” Wiggins v.
Smith, 539 U. S. 510, 523 (II) (A) (123 SC 2527, 156
LE2d 471) (2003). To show sufficient prejudice to
succeed on an ineffective assistance of counsel claim,
a petitioner must demonstrate that

App-151
there is a reasonable probability (i.e., a
probability
sufficient
to
undermine
confidence in the outcome) that, but for
counsel’s unprofessional errors, the result of
the proceeding would have been different
[Cit.].
Smith v. Francis, supra at 783 (1). We accept the
habeas court’s findings of fact unless they are clearly
erroneous, but we apply the facts to the law de novo.
Lajara v. State, 263 Ga. 438 (3) (435 SE2d 600)
(1993). Because an ineffective assistance of counsel
claim must show both deficient attorney performance
and prejudice, the claim can be denied solely on the
absence of sufficient prejudice. Id. For the reasons set
forth below, we conclude as a matter of law that the
absence of the deficiencies in Lance’s trial counsel’s
performance would not in reasonable probability
have resulted in a different outcome in either phase
of Lance’s trial. See Schofield v. Holsey, 281 Ga. 809,
812, n.l (642 SE2d 56) (2007) (holding that the
combined effect of trial counsel’s deficiencies should
be considered in weighing prejudice). Accordingly, we
reverse the habeas court’s judgment insofar as it
granted a new sentencing trial based on trial
counsel’s ineffectiveness, and we affirm the habeas
court’s judgment insofar as it denied relief regarding
the guilt/innocence phase based on trial counsel’s
ineffectiveness.
A. Mental Health Evidence
The habeas court concluded that trial counsel
performed deficiently in failing to prepare for Lance’s
trial by investigating Lance’s background. We agree.
The record is clear that, while trial counsel met

App-152
repeatedly with Lance and with various members of
his family, trial counsel failed to question them on
issues related to potential mitigating evidence other
than those issues related to residual doubt as to
Lance’s guilt. Trial counsel testified in the habeas
court that Lance claimed that he was innocent, that
his family members believed that he was innocent,
and that trial counsel did not want to alienate them
by asking questions related to what could be
presented at trial in the event that Lance were
convicted. Trial counsel explained that he had hoped
to obtain the assistance of co-counsel so that cocounsel could discuss the sentencing phase with
them. However, we hold that trial counsel performed
well below basic professional standards by choosing
not to discuss issues other than guilt and innocence
with Lance and his family even after the request for
co-counsel was denied. The Warden argues that trial
counsel did not perform deficiently because counsel’s
strategy of relying on jurors’ residual doubt in the
sentencing phase was reasonable. See Head v.
Ferrell, 274 Ga. 399,405 (V) (A) (554 SE2d 155)
(2001) (reliance on residual doubt can be a
reasonable strategy in the sentencing phase).
However, trial counsel’s performance in selecting a
strategy must be regarded as deficient because that
strategic choice was made without trial counsel’s first
conducting a reasonable investigation. See Wiggins,
supra, 539 U. S. at 521-523 (II) (A); Strickland,
supra, 466 U. S. at 690-691 (III) (A). See also Porter
v. McCollum, U.S. (II) (130 SC 447, 452-453, LE2d )
(2009). The question then before us is whether trial
counsel’s deficient performance in failing to
adequately investigate issues beyond guilt and

App-153
innocence, when considered together with any other
deficiencies in trial counsel’s performance at trial, in
reasonable probability changed the outcome of
Lance’s trial. We hold as a matter of law that it did
not.
The habeas court concluded that there would
have been a reasonable probability of a different
outcome in the sentencing phase of Lance’s trial if
trial counsel had prepared properly for the
sentencing phase, because that preparation would
have led counsel to discover and use mental health
evidence. We disagree with this conclusion for two
independent and individually-sufficient reasons,
which are discussed below. We also disagree with
Lance’s contention in his cross-appeal that an
adequate investigation of mental health evidence
would have led to a reasonable probability of a
different outcome in the guilt/innocence phase.
1. Mental Health Evidence Likely Available
First, we conclude that there is no reasonable
probability that the information available to trial
counsel through a reasonable initial investigation
into Lance’s mental health background would have
led the trial court to grant funds for the type of indepth and extensive mental health evaluation upon
which Lance now largely relies. If trial counsel had
properly interviewed lay witnesses, he would have
discovered the following allegations about Lance’s
past: Lance had been in a number of automobile
crashes, including some that might have resulted in
brief unconsciousness and one that was caused by his
fleeing from the police while drunk; Lance had once
been exposed to toxic fumes while cleaning the inside

App-154
of an oil tank; Lance had once ingested some gasoline
as a child and had temporarily stopped breathing;
Lance had a long history of abusing alcohol; and
Lance had once suffered a shot to the head, which did
not penetrate his skull, which led to his being
hospitalized followed by his leaving the hospital
against medical advice, and which resulted in
recurring headaches. Trial counsel also could have
obtained records from Georgia Regional Hospital, but
those records would have informed trial counsel
merely that Lance was having difficulty adjusting to
his divorce, that he was depressed, that his
depression was associated with his facing kidnapping
and aggravated assault charges for an alleged attack
on his ex-wife, and that he abused alcohol.
We find it doubtful that this information would
have led reasonable counsel to seek a psychological
evaluation of Lance, particularly given the
reasonableness of trial counsel’s stated desire to
prioritize his requests for funds for various experts.
Nor would the trial court have abused its discretion,
if it had been asked by trial counsel for funds for a
psychological evaluation of Lance, by determining
that this information failed to show that the
assistance of a psychologist was critical to Lance’s
defense. See Roseboro v. State, 258 Ga. 39 (3) (d) (365
SE2d 115) (1988). This is particularly true because
Lance had already been examined in a psychological
hospital and yet no obvious symptoms of impairment
were noted other than Lance’s alcohol abuse and his
failure to adjust to his divorce. Finally, even if the
trial court had exercised its discretion to order a
psychological examination, we find that it would
have been extremely appropriate and thus highly

App-155
likely that the trial court would have first ordered a
general psychological screening rather than the
extensive neuropsychological examination that Lance
has undergone during his habeas proceedings. The
probable result of such a general psychological
examination is suggested by the absence of any
reference to neuropsychological difficulties in the
records from Lance’s psychological evaluation at
Georgia Regional Hospital (as discussed above) and
by the habeas testimony from the Warden’s
neuropsychologist, asserting that a typical courtordered psychological examination might not have
shown
any
cause
for
a
more-detailed
neuropsychological examination “because of the
relatively mild nature” of Lance’s mental
neurological deficits. Accordingly, we conclude that it
is unlikely that the trial court would have been
informed
through
a
general
psychological
examination of any possibly significant neurological
deficits and, more importantly, that it is unlikely
that the trial court would have exercised its
discretion, in the face of such mild symptoms, to
order a full neuropsychological examination. Given
the multiple levels of unlikelihood at issue here —
that reasonable counsel would seek an evaluation,
that the trial court would grant the request, that the
initial evaluation would give any suggestion of a need
for a full neuropsychological examination, and that
the trial court would have ordered a full
neuropsychological examination — we conclude that
there is no reasonable probability that a reasonable
investigation of Lance’s background by counsel would
have led to his having access to the type of

App-156
specialized neuropsychological testimony that Lance
has presented in the habeas court.
We do note the significant likelihood that a
general psychological examination would have
included an assessment of Lance’s intelligence.
However, none of the experts has diagnosed Lance as
falling within the generally-accepted definition of
mental retardation. Upon our review of all of the
evidence presented at trial and shown in the habeas
court to have been available to trial counsel, we
conclude that evidence of Lance’s moderate slowness
would not have had a significant effect on the jury’s
sentencing phase deliberations, particularly in light
of the evidence showing that Lance functioned
normally in society apart from his criminal behavior.
We also conclude that this evidence of moderate
slowness would have had essentially no effect on the
jury’s guilt/innocence phase deliberations. Compare
OCGA § 17-7-131(a)(3) and (j) (allowing for guilty but
mentally retarded verdicts in the guilt/innocence
phase that exempt defendants from the death
penalty).
2. Additional Mental
Conceivably Available

Health

Evidence

Above, we have analyzed the prejudice portion of
Lance’s ineffective assistance of counsel claim in light
of our conclusion that there is no reasonable
probability that trial counsel, if he had adequately
investigated Lance’s background, ultimately would
have obtained an extensive neuropsychological
examination like the one Lance has relied upon in
the habeas court. We now turn to our alternative
analysis of prejudice, which begins with the

App-157
assumption that trial counsel would have obtained
such a specialized examination.
Lance presented testimony in the habeas court
from three experts in neuropsychology. Thomas
Hyde, M.D., Ph.D., testified that he administered
over 100 neurological tests to Lance. Yet, as his
testimony establishes, only one of those tests
indicated brain dysfunction. Dr. Hyde concluded that
Lance had “significant damage to the frontal and
temporal lobes” resulting from multiple blows to the
head and from alcohol abuse. He testified that
persons with frontal lobe dysfunction “often
decompensate under periods of extreme emotional
distress.” He also testified that such persons are
unlikely to be able to plan and commit murder
without leaving evidence but, instead, are more often
“involved in crimes of impulse.” Dr. Hyde concluded
that Lance’s mental state might have had an
“impact” on Lance’s “ability to appreciate the
criminality of his conduct or to conform his conduct to
the requirements of law,” but he also acknowledged
that other “reasonable” neurologists might disagree
with his conclusions in Lance’s case. The second of
Lance’s three experts in neuropsychology, Ricardo
Weinstein, Ph.D., commented generally on Lance’s
“psychosocial history” as follows:
[I]t’s a relatively unusual case in terms of
his upbringing, fairly normal upbringing
from an intact family, no major history of
dysfunction, no history of child abuse,
neglect, things of that nature, no history of
significant mental illness in the family.

App-158
However, Dr. Weinstein concluded that Lance, as a
result of multiple head injuries, the exposure to toxic
fumes, the ingestion of gasoline, and a history of
“heavy alcohol use starting at the age of 19,” suffered
from “generalized and diffuse brain dysfunction” and
“clear compromises in the frontal lobe functions.” Dr.
Weinstein concluded that Lance was not insane or
mentally retarded, that he understood “that certain
behaviors are unacceptable,” but that his “brain
dysfunction ... negatively impact[ed] his ability to
conform his conduct to the requirements of the law.”
In particular, Dr. Weinstein concluded that Lance
would have difficulty in planning and in impulse
control and that the combined effects of Lance’s brain
dysfunction and his alcohol intoxication on the night
of the murders would have rendered “his capacity to
think in a logical, well-directed manner ... equivalent
or similar to an individual that suffers from mental
retardation.” Finally, Lance presented testimony
from a third expert, David Pickar, M.D., who
concluded that Lance, as a result of multiple head
traumas and alcohol abuse, suffered from “impaired
intellectual and frontal lobe function” that resulted in
impairments of his ability to plan and to control his
impulses.
The Warden presented expert testimony from
one 1 neuropsychologist, Daniel A. Martell, Ph.D. Dr.
The Warden also placed in the record a report by David
Griesemer, M.D. However, as Lance correctly noted in a written
objection, this unsworn statement was inadmissible hearsay
that should not have been considered by the habeas court. See
Waldrip v. Head, 279 Ga. 826, 828 (II) (A) (620 SE2d 829)
(2005). But see OCGA § 9-14-48(a) (providing that a habeas
court “may receive proof by ... sworn affidavits”).
1

App-159
Martell’s findings regarding Lance’s IQ were
consistent with those of Lance’s experts, and he
concluded that Lance functioned within “a range
that’s higher than mild mental retardation but lower
than average.” Dr. Martell added, however, that he
had administered an additional test to determine
what Lance’s IQ had been before any possible brain
injuries and that the test showed Lance’s earlier IQ
to fall within the “exact same ranges” as found by the
various experts who testified in the habeas court. Dr.
Martell testified that some of Lance’s test results
indicated frontal lobe dysfunction, but Dr. Martell
further testified as follows:
His weaknesses with regard to frontal lobe
have to do with a tendency to perseverate or
repeat himself and mild to moderate
impairment in problem-solving abilities in
certain contexts like adapting to changing
problems but not others like planning an
effective strategy for solving a problem.
However, his ability to inhibit unwanted or
impulsive behaviors appears to be relatively
intact. And I think that’s important in my
analysis with regard to the issue of the crime
itself because these data do not suggest to
me that he is, in fact, impulsive or unable to
control his impulses.
Dr. Martell concluded that Lance’s frontal lobe
dysfunction would not have prevented him from
planning the murders and would not have made him
so impulsive that he could not prevent himself from
committing the murders. As we noted above, Dr.
Martell also stated that Lance’s symptoms were so

App-160
subtle that a typical court-ordered evaluation might
not have given any indication of problems. Dr.
Martell summarized his opinion by stating, “In my
opinion, [Lance’s diagnosis is] not significant to the
crime.”
The habeas court considered the mental health
evidence summarized above and concluded that
presentation of that evidence at trial in reasonable
probability would have changed the outcome of the
sentencing phase. We conclude as a matter of law
that the habeas court erred by reaching this
conclusion regarding prejudice. We agree with
Lance’s argument that trial counsel could have
presented
mental
health
evidence
without
abandoning his sentencing phase strategy of showing
residual doubt because the mental health evidence
was not directly inconsistent with that theory and
might have enhanced it slightly, e.g., by indicating
that, due to Lance’s mental condition, it might have
been more difficult for him to have carried out the
murders without leaving more evidence than was
actually discovered during the investigation of the
crimes. However, assuming trial counsel would have
chosen to present the mental health evidence, even
the most-favorable aspects of that evidence showed
merely that Lance functioned, when sober, in the
lower range of normal intelligence; that he had some
memory problems; that he suffered some depression
related to his inability to accept his divorce; that he
had some difficulty in planning and problem solving;
that he might have been somewhat impulsive; and
that his functional intelligence, unsurprisingly,
became more impaired when he was drunk. Against
this somewhat mitigating evidence, the jury would

App-161
have weighed Lance’s long history of horrific abuse
against Joy Lance, including multiple threats to kill
her and at least one previous attempt to murder
Butch Wood in a manner that was very similar to the
manner in which he eventually succeeded in
murdering him and Joy Lance. The jury also would
have weighed the new evidence against the evidence
about the night of the murders, which showed that
Lance armed himself with a shotgun, traveled to the
home where the victims were staying, kicked in the
door, and systematically murdered them. Finally, the
jury would have weighed the new evidence against
the evidence about Lance’s demeanor and conduct
after the murder, including the derogatory manner in
which he referred to Joy Lance, his statement that
Butch Wood was in “Hell,” his lament to an inmate
that he had acted foolishly by calling Joy Lance’s
father shortly before committing the murders, and
his boast to an inmate that “he hit Joy so hard that
one of her eyeballs stuck to the wall.” Given Lance’s
long history of contemplating the murder of Joy
Lance and Butch Wood, the manner in which he
finally carried out their murders, and his utter
disregard for their suffering and deaths afterward,
we conclude that the new evidence of Lance’s subtle
neurological impairments, even when considered
together with the other mitigating evidence that was
or should have been presented at trial, would not in
reasonable probability have changed the outcome of
the sentencing phase if it had been presented at
Lance’s trial. Compare Porter v. McCollum, supra,
U.S. (III) (130 SC at 453-456).
We also conclude, contrary to Lance’s arguments
in his cross-appeal, that the new evidence of subtle

App-162
neurological
impairments
would
not
have
significantly affected the jury’s deliberations during
the guilt/innocence phase. Given the weakness of the
new mental health evidence and the overwhelming
evidence of the intentional and deliberate nature of
Lance’s crimes, we conclude that it is essentially
beyond possibility that the jury would have failed to
convict Lance of the murders. We further conclude
that it would have been highly unlikely that the new
mental health evidence would have led the jury to
render a verdict of guilty but mentally ill, which
would not foreclose a death sentence in any event.
See OCGA § 17-7-131(a)(2) (defining “[m]entally ill”).
See also Lewis v. State, 279 Ga. 756, 764 (12) (620
SE2d 778) (2005) (holding that “the statute that
provides for a verdict of guilty but mentally ill does
not preclude a death sentence as the result of such a
verdict”).
B. Evidence from Forensic Experts
Lance argues that his trial counsel rendered
ineffective assistance in the manner in which he
sought funds for forensic experts and, alternatively,
that the trial court’s denial of those funds rendered
trial counsel ineffective at trial. We conclude that
both of these claims lack merit.
1. Trial
Counsel’s
Alleged
Assistance in Seeking Funds

Ineffective

We first address Lance’s contention that his trial
counsel rendered ineffective assistance in the manner
in which he sought funds for forensic experts. We
conclude that trial counsel did not perform
deficiently, and we further conclude that Lance did
not suffer significant prejudice to his defense even if

App-163
trial counsel could be perceived as having performed
deficiently.
On direct appeal, this Court rejected a claim that
the trial court had abused its discretion in denying
Lance’s request for additional funds for expert
assistance, concluding that “Lance’s request for the
contested funds [had been] too unspecific, uncertain,
and conclusory” to require the granting of additional
funds. Lance, supra, 275 Ga. at 13-14 (2). Although
this Court’s comments, on the surface, might suggest
that trial counsel necessarily performed deficiently in
making his request, upon closer examination we
conclude that he did not. Instead, we conclude that
trial counsel’s request for funds appeared weak
simply because there was no compelling reason for
those funds to be granted. See Roseboro, supra, 258
Ga. at 40-41 (3) (c and d) (holding that a request for
funds for expert testimony must show, inter alia, that
the testimony is crucial and is subject to varying
expert opinions).
Lance complains that trial counsel failed to
obtain expert assistance in order to show the time of
the victims’ deaths. Our review of the record reveals
that there is, even now, no substantial dispute among
the experts regarding the time of death but, instead,
that there is merely a dispute over the manner in
which the time of death was established. Lance
argues that his trial counsel should have obtained an
expert to testify that the repeated blows to Joy
Lance’s face with the butt of the shotgun likely would
have resulted in the perpetrator’s being spattered
with blood and brain matter, which would then have
likely left stains in any automobile used immediately

App-164
afterward. However, not only would this fact have
been obvious to the jury, it furthermore would have
been consistent with Lance having disposed of any
bloody clothes at the same time he obviously disposed
of his distinctive shoes and would have been
consistent with the testimony from a State witness
indicating that Lance said he had initially walked
away from the crime scene rather than driving away
in his automobile. Lance argues that his trial counsel
should have obtained an expert to testify that there
were no shoe prints at the crime scene other than the
one on the front door and that scientific testing could
not establish the time when the shoe print on the
door was made. However, the absence of shoe prints
was not a matter that was subject to varying
scientific opinions, and the time at which the print
was left on the door was a matter of common sense
given the fact that the door had obviously been
kicked in during the murders and the fact that the
shoe print matched shoes that Lance wore. Similarly,
it was a matter of common sense and not subject to
varying scientific opinions that it was possible that
the murders could have been committed by more
than one person and that the identity of the
perpetrator could not be determined by fingerprint
evidence because no identifiable fingerprints had
been discovered. Finally, Lance complains that his
trial counsel failed to obtain an expert in polygraph
science to testify that the results of the polygraph
examination taken by Joe Moore 2 were “inconclusive”
2 Joe Moore was the friend who accompanied Lance during
the 1993 attempt to murder Joy Lance and Butch Wood and to
whom Lance made incriminating statements after the murders.

App-165
in response to the testimony volunteered by Joe
Moore indicating that he had passed his polygraph
test. However, Moore’s volunteered testimony was
ruled inadmissible, and the jury was instructed to
disregard it. See Waldrip, supra, 279 Ga. at 830-831
(II) (C) (addressing admissibility of polygraph results
in death penalty trials).
Because, as we have briefly outlined above, none
of the expert testimony that Lance contends his trial
counsel should have obtained was crucial to his
defense, we hold as a matter of law both that trial
counsel did not perform deficiently in the manner in
which he sought funds for that testimony and that
Lance did not suffer prejudice by trial counsel’s
failure to obtain funds for that testimony.
2. Trial Court’s Alleged Error
Lance makes the alternative argument that the
trial court rendered his trial counsel ineffective by
denying his motion for funds for the expert testimony
discussed above. We reject this claim for two
independent reasons. First, as we have discussed
above, denial of those funds was not improper and
did not result in significant prejudice to Lance’s
defense. Second, we hold that this claim is barred
because it was raised and rejected on direct appeal.
See Head v. Hill, 277 Ga. 255 (III) (587 SE2d 613)
(2003). Although the focus of Lance’s argument on
direct appeal regarding experts was on Ake v.
Oklahoma, 470 U. S. 68 (105 SC 1087, 84 LE2d 53)
(1985), which was decided solely on the basis of due
process, Lance’s argument on direct appeal also
invoked the Sixth Amendment. Raising this
additional ground on direct appeal, rather than

App-166
saving it for when new counsel began representing
Lance, was appropriate, because this form of Sixth
Amendment claim does not involve the potential
conflict of interest inherent where a lawyer accuses
himself or herself of having made unprofessional
choices. See id. at 87 n.13 (noting, but declining to
address, the possibility that a trial court’s denial of
expert funds might raise Sixth Amendment concerns,
in addition to due process concerns, that could be
considered on direct appeal); Strickland, supra, 466
U. S. at 686 (noting that there are Sixth Amendment
claims regarding governmental interference with the
right to counsel that are distinct from claims
regarding trial counsel’s own deficient performance).
Compare Glover v. State, 266 Ga. 183, 183-185 (2)
(465 SE2d 659) (1996) (holding that a claim alleging
that trial counsel himself or herself acted outside of
the bounds of professional competence must be raised
at the earliest practicable moment). Having been
timely raised, the claim was rejected by this Court.
Lance, supra, 275 Ga. 13-14 (2). Thus, it is now
barred.
C. Combined
Deficiencies

Effect

of

Trial

Counsel’s

Above, we have commented on the prejudicial
effect arising from each of trial counsel’s deficiencies
that we either have found to exist or have assumed to
exist, and we have found each separately not to have
been significantly prejudicial. Considering now the
combined effect of those deficiencies, we conclude
that the absence of those deficiencies would not in
reasonable probability have affected the verdict at
either phase of Lance’s trial. Compare Porter v.

App-167
McCollum, supra, U.S. (III) (130 SC at 453-456). See
also Holsey, 23 supra, 281 Ga. at 812, n.1 (holding
that the combined effect of trial counsel’s deficiencies
should be considered in weighing prejudice).
III. Claims that are Barred as Previously Litigated
Lance argues that the habeas court erred by
finding certain claims to be barred by this Court’s
denial of those same claims on direct appeal. A
habeas court should not reconsider issues previously
addressed by this Court where there has been no
change in the law or the facts since this Court’s
decision. See Hill, supra, 277 Ga. at 263 (III) (habeas
court “properly found claims previously rejected by
this Court in Hill’s direct appeal to be barred by res
judicata”); Bruce v. State, 274 Ga. 432, 434 (2) (553
SE2d 808) (2001) (“Without a change in the facts or
the law, a habeas court will not review an issue
decided on direct appeal.”). But see Hill, supra at 257
(II) (A) (1) (noting that a claim based on new law may
only serve as the basis for habeas corpus relief if the
new law is of the type that is given retroactive effect).
We conclude that Lance has failed to show any new
law or new facts that justify the reconsideration of
the claims he raised on direct appeal.
A. Lance claims that the State knowingly
presented false testimony from a witness at trial,
Frankie Shields. See United States v. Agurs, 427
U. S. 97, 103 (II) (96 SC 2392, 49 LE2d 342) (1976) (a
conviction “obtained by the knowing use of perjured
testimony is fundamentally unfair, and must be set
aside if there is any reasonable likelihood that the
false testimony could have affected the judgment of
the jury”). At trial, Shields denied that his testimony

App-168
was part of a deal with the State. While Lance’s
original direct appeal was pending, this Court was
informed that Shields had written a letter to a
newspaper claiming that there had in fact been a
deal. This Court struck the original direct appeal
from its docket and remanded the case for an
evidentiary hearing in the trial court on the matter.
At that hearing, Shields testified that there had been
no deal, and this Court held on appeal from that
hearing that the “evidence authorized the trial court
to find that no deal had been offered to or made with
Shields by the State.” Lance, supra, 275 Ga. at 25
(35). In the habeas court, Lance once again claimed
that the State had made a deal for Shields’s trial
testimony. At the evidentiary hearing in the habeas
court, Shields again admitted that he had spoken
with Lance in the jail and that Lance had drawn a
map of the area where the murders occurred, but
Shields claimed that he had testified falsely in the
trial court about Lance’s confession to him and about
there being no deal with the State for his testimony.
The habeas court found Lance’s claim to be barred;
however, in an apparent abundance of caution, the
habeas court also made the reasonable finding of fact
that Lance, in light of all of the evidence presented,
had failed to prove that Shields’s trial testimony was
actually false. Similarly, we pretermit whether the
evidence Lance presented in the habeas court
constitutes the type of new alleged facts that could
ever warrant setting aside the procedural bar to his
claim, and we hold that his claim is meritless
because Shields’s trial testimony was not actually
false.

App-169
Similarly, to the extent that Lance can be
deemed to have sufficiently raised related claims
regarding his intent to commit the murders and the
proportionality of his death sentence, we deem those
claims also to be meritless, even if they are not
barred.
B. Lance claims that the trial court erred by
admitting evidence of his prior conduct toward the
victims and other persons. Lance has failed to show
any new facts or new law that would justify this
Court’s revisiting its previous holding that this
evidence was proper. See Lance, supra, 275 Ga. at 19
(15, 16, and 18). Thus, this claim remains barred.
C. Lance argues in summary terms that the
habeas court erred by refusing to grant relief based
on other claims that were considered and rejected by
this Court on direct appeal. We conclude that Lance’s
arguments regarding these claims are “so lacking in
specific argument” that they should be deemed
abandoned. See Supreme Court Rule 22; Hill, supra,
277 Ga. at 269 (VI) (A).
IV. Claims that are Procedurally Defaulted
Lance also argues in summary terms that the
habeas court erred by denying various claims
because they were barred by procedural default. See
Turpin v. Todd, 268 Ga. 820 (2) (493 SE2d 900)
(1997) (addressing procedural default); OCGA § 9-1448 (d). We conclude that Lance’s arguments
regarding these claims are “so lacking in specific
argument” that they should be deemed abandoned.
See Supreme Court Rule 22; Hill, supra, 277 Ga. at
269 (VI) (A).

App-170
V. Remaining Claims that are Abandoned
Lance’s remaining claims, which are presented
as a mere list and which are supported only by an
improper attempt to incorporate arguments made in
the habeas court rather than in this Court, are
likewise deemed abandoned. Id.
Judgment reversed in Case No. S09A1536.
Judgment affirmed in Case No. S09X1538. Carley,
P.J., Benham, Thompson, Hines and Melton, JJ., and
Judge Gregory A. Adams concur. Nahmias, l,
disqualified.

App-171
Appendix G
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________
No. 16-15008
________________
DONNIE CLEVELAND LANCE,
Petitioner-Appellant,
v.
WARDEN, GEORGIA DIAGNOSTIC PRISON,
Respondent-Appellee.
________________
Appeal from the United States District Court
for the Northern District of Georgia
D.C. Docket No 2:10-cv-00143-WBH
________________
August 31, 2017
[DO NOT PUBLISH]
________________
OPINION
Before
WILLIAM
PRYOR,
ROSENBAUM, Circuit Judges.

MARTIN,

and

PER CURIAM:
Donnie Cleveland Lance, a Georgia prisoner
convicted and sentenced to death for the murders of
his ex-wife and her boyfriend, appeals the denial of
his petition for a writ of habeas corpus, 28 U.S.C.
§ 2254. Lance contends that we should vacate his
sentence on the grounds that his trial counsel

App-172
provided ineffective assistance when he failed to
introduce mitigating mental health testimony and
character evidence during the penalty phase of
Lance’s trial and when counsel failed to obtain funds
to hire expert witnesses. We disagree. The Supreme
Court of Georgia reasonably concluded that Lance
did not suffer prejudice when counsel failed to
introduce mental health testimony. Counsel also
made a strategic decision not to introduce character
evidence during the penalty phase that we decline to
second guess. And the Supreme Court of Georgia
reasonably concluded that counsel’s failure to obtain
funds to hire expert witnesses did not prejudice
Lance. We affirm.
I. BACKGROUND
We divide this background in three parts. We
first recount the facts of the crime. We then
summarize the preparation for, and disposition of,
Lance’s trial, sentencing, and direct appeal. We
conclude with a summary of the state and federal
habeas proceedings.
A. The Crime
Donnie Cleveland Lance murdered his ex-wife,
Sabrina “Joy” Lance, and her boyfriend, Dwight
“Butch” Wood, Jr., in the early morning of November
9, 1997, at Butch Wood’s home. Lance v. State
(“Lance I”), 560 S.E.2d 663, 669–70 (Ga. 2002). The
Supreme Court of Georgia described the events
surrounding the murders as follows:
Shortly before midnight on November 8,
1997, Lance called Joy Lance’s father, asked
to speak to her, and learned that she was not
at home. Shortly afterward, a passing police

App-173
officer noticed Lance’s automobile leaving
his driveway. Lance arrived at Butch Wood’s
home, kicked in the front door, shot Butch
Wood on the front and the back of his body
with a shotgun, and then beat Joy Lance to
death by repeatedly striking her in the face
with the butt of the shotgun, which broke
into pieces during the attack. Joy Lance’s
face was rendered utterly unrecognizable.
Later that morning, Lance told his friend,
Joe Moore, that Joy Lance (whom Lance
referred to in a derogatory manner) would
not be coming to clean Lance’s house that
day; that Butch Wood’s father could not “buy
him out of Hell”; and that both Joy Lance
and Butch Wood were dead. Lance later told
a fellow inmate that he “felt stupid” that he
had called Joy Lance’s father before the
murders, and Lance bragged to the inmate
that “he hit Joy so hard that one of her
eyeballs stuck to the wall.”
Hall v. Lance (“Lance II”), 687 S.E.2d 809, 811 (Ga.
2010).
Lance had long abused Joy. Id. In the past, he
had kidnapped her, and he had beaten “her with his
fist, a belt, and a handgun.” Id. He had strangled her,
electrocuted “her with a car battery,” and threatened
“her with a flammable liquid, handguns, and a
chainsaw.” Id. “He had repeatedly threatened to kill
her himself, and he had once inquired of a relative
about what it might cost to hire someone to kill her
and Butch Wood.” Id. In 1993, Lance, accompanied
by Joe Moore, “kicked in the door of Butch Wood’s

App-174
home . . . armed with a shotgun, loaded a shell into
the chamber of the shotgun, and then fled only after
a child in the home identified and spoke to Joe
Moore.” Id.
B. Trial, Conviction, Sentence, and Direct Appeal
Lance hired J. Richardson Brannon to represent
him at trial. An experienced criminal attorney,
Brannon had tried around 160 criminal cases to
verdict before Lance hired him. Three paralegals and
a crime-scene investigator named Andy Pennington
assisted Brannon in his preparation for trial. Lance
and his family initially paid Brannon $50,000 to
represent him, but after the exhaustion of that initial
sum, the court declared Lance indigent and retained
Brannon as court-appointed counsel.
Brannon then filed a motion for funds to hire
expert witnesses, which he amended three times. The
original motion and the first two amendments, filed
in late 1998, requested funds to hire experts and a
private investigator but did not specify the kinds of
experts needed, their names, the fees they charged,
or any other information. At a pre-trial hearing,
Brannon requested funds to hire an expert on jury
selection, a private investigator, a DNA serologist, a
forensic pathologist, a ballistics expert, a
criminologist, and an expert on shoe print analysis.
He requested the jury expert by name and gave the
court information about the hourly expenses of the
requested private investigator, DNA serologist, and
the forensic pathologist. Brannon stated that, of all
the experts he requested, a forensic pathologist was
“imperative” to establish “time of death” and
“manner of death.” A month after the hearing,

App-175
Brannon filed a third amendment to the motion for
funds to hire expert witnesses. This amendment
proffered the names, credentials, and fees of the
experts requested.
The trial court initially denied the request for
funds to hire experts, but reversed course a month
before trial and granted $4,000 to hire an
investigator. Brannon used these funds to pay
Pennington, a private investigator, and did not hire
any other experts or present any other expert
testimony during the guilt or penalty phases of the
trial.
By contrast, the state introduced testimony from
six expert witnesses at trial: Terry Cooper, an agent
with the Georgia Bureau of Investigation, who
testified about the crime scene and the shoe print he
removed from the door at Butch Wood’s home; David
Cochran, the chief crime scene investigator for the
Jackson County, Georgia, Sheriff’s Department, who
testified about investigating the crime; Charles Moss,
a fingerprint expert who testified that he was unable
to retrieve prints from the shotgun shell casings
involved in the crime; Bernadette Davy, a firearms
expert, who testified about the shotgun shell casings
found at the scene and the kinds of wood used to
manufacture the butts of shotguns; Larry Peterson, a
microanalyst who testified about the shoeprint found
on Butch Wood’s door and other evidence found at
the crime scene; and Frederick Hellman, an associate
medical examiner for the Georgia Bureau of
Investigation who testified about the causes of death
of Joy Lance and Butch Wood. Brannon extensively

App-176
cross-examined each of these expert witnesses,
except the fingerprint expert.
The defense theory of the case was innocence.
Brannon attempted to establish an alibi defense
based on the time of death and Lance’s whereabouts
on November 8–9. Lance’s uncle testified that he was
with Lance into the late evening of November 8 and
then after midnight on November 9 until 5:00 a.m.
Other witnesses corroborated this timeline and
testified that Lance behaved normally immediately
before and after the time when the murder occurred.
Two children who were neighbors of Butch Wood also
testified that they heard gunshots and a scream
sometime after lunch on November 9, more than
twelve hours later than when the crime allegedly
occurred.
Pennington, the private investigator hired by
Brannon, also testified as an expert crime scene
technician. Pennington testified that the ballistics
report from the crime scene suggested the possibility
that the shooter used weapons in addition to the
shotgun. He also testified that the absence of
footprints on the stairs leading to the house was
suspicious and that the lack of latent fingerprints on
the shotgun shells suggested “[a] good burglar”
committed the crime.
The jury found Lance guilty of the murders of
Joy Lance and Butch Wood, of burglary, and of
possession of a firearm during the commission of a
crime. Lance I, 560 S.E.2d at 669. During the penalty
phase of the trial, the state presented testimony from
Joy Lance’s and Butch Wood’s relatives and from
David Cochran, a crime scene investigator for the

App-177
Georgia Bureau of Investigation. Brannon presented
no mitigating evidence during the penalty phase. The
jury sentenced Lance to death for the murders. Id. at
670.
The Supreme Court of Georgia affirmed Lance’s
conviction and sentence on direct appeal. Id. at 670,
677–79. Lance argued that the trial court erred when
it denied Lance’s motion for funds to hire expert
witnesses. Id. at 671. But the Supreme Court of
Georgia ruled that “Lance’s request for the contested
funds was too unspecific, uncertain, and conclusory”
to overturn his conviction. Id. Lance’s conviction
became final when the Supreme Court of the United
States denied his petition for a writ of certiorari.
Lance v. Georgia, 537 U.S. 1050 (2002).
C. State and Federal Habeas Proceedings
In May 2003, Lance filed a petition for a writ of
habeas corpus in the Butts County Superior Court.
The superior court held an evidentiary hearing, at
which Lance presented evidence that he received
ineffective assistance of counsel because Brannon
failed to investigate or present evidence of Lance’s
mental impairments during the penalty phase of
Lance’s trial. The Supreme Court of Georgia
described the evidence on that issue as follows:
Lance presented testimony in the habeas
court from three experts in neuropsychology.
Thomas Hyde, M.D., Ph.D., testified that he
administered over 100 neurological tests to
Lance. Yet, as his testimony establishes,
only one of those tests indicated brain
dysfunction. Dr. Hyde concluded that Lance
had “significant damage to the frontal and

App-178
temporal lobes” resulting from multiple
blows to the head and from alcohol abuse.
He testified that persons with frontal lobe
dysfunction “often decompensate under
periods of extreme emotional distress.” He
also testified that such persons are unlikely
to be able to plan and commit murder
without leaving evidence but, instead, are
more often “involved in crimes of impulse.”
Dr. Hyde concluded that Lance’s mental
state might have had an “impact” on Lance’s
“ability to appreciate the criminality of his
conduct or to conform his conduct to the
requirements of law,” but he also
acknowledged that other “reasonable”
neurologists might disagree with his
conclusions in Lance’s case. The second of
Lance’s three experts in neuropsychology,
Ricardo Weinstein, Ph.D., commented
generally on Lance’s “psychosocial history”
as follows:
[I]t’s a relatively unusual case in
terms of his upbringing, fairly
normal upbringing from an intact
family,
no
major
history
of
dysfunction, no history of child
abuse, neglect, things of that nature,
no history of significant mental
illness in the family.
However, Dr. Weinstein concluded that
Lance, as a result of multiple head injuries,
the exposure to toxic fumes, the ingestion of
gasoline, and a history of “heavy alcohol use

App-179
starting at the age of 19,” suffered from
“generalized and diffuse brain dysfunction”
and “clear compromises in the frontal lobe
functions.” Dr. Weinstein concluded that
Lance was not insane or mentally retarded,
that he understood “that certain behaviors
are unacceptable,” but that his “brain
dysfunction . . . negatively impact[ed] his
ability to conform his conduct to the
requirements of the law.” In particular, Dr.
Weinstein concluded that Lance would have
difficulty in planning and in impulse control
and that the combined effects of Lance’s
brain
dysfunction
and
his
alcohol
intoxication on the night of the murders
would have rendered “his capacity to think
in a logical, well-directed manner . . .
equivalent or similar to an individual that
suffers from mental retardation.” Finally,
Lance presented testimony from a third
expert, David Pickar, M.D., who concluded
that Lance, as a result of multiple head
traumas and alcohol abuse, suffered from
“impaired intellectual and frontal lobe
function” that resulted in impairments of his
ability to plan and to control his impulses.
Lance II, 687 S.E.2d at 814–15 (alterations in
original).
The state presented the testimony of Dr. Daniel
A. Martell, a neuropsychologist, who testified that
Lance had an IQ of 79 and suffered from dementia:
[Martell] concluded that Lance functioned
within “a range that’s higher than mild

App-180
mental retardation but lower than average.”
Dr. Martell added, however, that he had
administered an additional test to determine
what Lance’s IQ had been before any
possible brain injuries and that the test
showed Lance’s earlier IQ to fall within the
“exact same ranges” as found by the various
experts who testified in the habeas court. Dr.
Martell testified that some of Lance’s test
results indicated frontal lobe dysfunction,
but Dr. Martell further testified as follows:
His weaknesses with regard to
frontal lobe have to do with a
tendency to perseverate or repeat
himself and mild to moderate
impairment
in
problem-solving
abilities in certain contexts like
adapting to changing problems but
not others like planning an effective
strategy for solving a problem.
However, his ability to inhibit
unwanted or impulsive behaviors
appears to be relatively intact. And I
think that’s important in my
analysis with regard to the issue of
the crime itself because these data
do not suggest to me that he is, in
fact, impulsive or unable to control
his impulses.
Dr. Martell concluded that Lance’s frontal
lobe dysfunction would not have prevented
him from planning the murders and would
not have made him so impulsive that he

App-181
could not prevent himself from committing
the murders. As we noted above, Dr. Martell
also stated that Lance’s symptoms were so
subtle
that
a
typical
court-ordered
evaluation might not have given any
indication of problems. Dr. Martell
summarized his opinion by stating, “In my
opinion, [Lance’s diagnosis is] not significant
to the crime.”
Lance II, 687 S.E.2d at 815 (second alteration in
original).
In addition, Lance presented evidence that
Brannon rendered ineffective assistance when
Brannon failed to introduce mitigating character
evidence during the penalty phase of the trial.
Friends and family testified that Lance was a loving
father, that his children loved him, and that he had a
good character. But Brannon testified that he chose
not to introduce this evidence because to do so would
have allowed the state to cross-examine the character
witnesses about aggravating character evidence.
Lance also presented evidence that Brannon
rendered ineffective assistance during the guilt phase
of the trial because Brannon’s request for funds to
hire expert witnesses was deficient and the failure to
present this expert testimony prejudiced Lance.
Brannon explained that experts “were needed in this
case, particularly since it’s a death penalty case.” But
he also testified that his motions for funds to hire
expert witnesses were sufficiently detailed for the
trial court to grant them. Although Lance’s habeas
counsel acknowledged that Brannon “made a request
repeatedly for expert assistance in the case and

App-182
pointed out the specific categories that [Brannon]
thought experts were critical to,” he argued that
these motions were “vague and entirely unspecific.”
The superior court granted Lance’s petition in
part and vacated his death sentence on the ground
that Lance had received ineffective assistance of
counsel during the penalty phase of his trial. The
superior court found that Brannon’s failure to
investigate and introduce evidence of Lance’s mental
health history was unreasonable. The superior court
also found that, had Brannon introduced evidence of
Lance’s mental health history, “such an investigation
. . . would have provided significant mitigating
evidence for the jury to consider.”
The Supreme Court of Georgia reversed and
reinstated Lance’s death sentence. Lance II, 687
S.E.2d at 811–12. Although the Supreme Court of
Georgia agreed with the superior court that
Brannon’s failure to investigate Lance’s mental
health history was deficient performance, it
disagreed that Lance suffered prejudice. Id. at 812.
The Supreme Court of Georgia explained that even if
Brannon had investigated Lance’s mental health
background, Brannon would not have sought “a
psychological evaluation of Lance,” because such an
investigation would have revealed only mild mental
impairment. Id. at 813. In addition, the court
reasoned that “the trial court [would not] have
abused its discretion[] if it had been asked by trial
counsel for funds for a psychological evaluation of
Lance, [but] determin[ed] that this information failed
to show that the assistance of a psychologist was
critical to Lance’s defense.” Id. (citation omitted).

App-183
In the alternative, the Supreme Court of Georgia
held that even if Lance had presented the expert
testimony that he presented during his habeas
proceedings, there was not a reasonable probability
that the testimony would have changed the outcome
of the trial. The court explained that the evidence
established only mild mental impairments, and
“[a]gainst this somewhat mitigating evidence, the
jury would have weighed Lance’s long history of
horrific abuse against Joy Lance,” the horrific nature
of the crime, and evidence about Lance’s statements
and demeanor after the crime, such as his
declaration that Butch Wood was in “Hell” and “his
boast to an inmate that ‘he hit Joy so hard that one of
her eyeballs stuck to the wall.’” Id. at 815–16.
The Supreme Court of Georgia also denied
Lance’s claim that his trial counsel rendered
ineffective assistance in his application for funds for
forensic experts. Id. at 816. The court explained that
his trial counsel was not deficient even though the
court had described the motions on direct appeal as
conclusory. Id. In the alternative, the court ruled
that Brannon’s failure to request funds for several
expert witnesses did not prejudice Lance. Id. at 817.
Lance argued that his trial counsel should have
obtained three additional experts: (1) “an expert to
testify that the repeated blows to Joy Lance’s face
with the butt of the shotgun likely would have
resulted in the perpetrator being spattered with
blood and brain matter”; (2) “an expert to testify that
there were no shoe prints at the crime scene other
than the one on the front door”; and (3) “an expert in
polygraph science to testify that the results of the
polygraph examination taken by Joe Moore were

App-184
‘inconclusive.’” Id. (footnote omitted). But according
to the Supreme Court of Georgia, the absence of this
testimony did not prejudice Lance. Testimony
regarding “spattered . . . blood and brain matter” was
unnecessary because it would “have been obvious to
the jury” and consistent with the evidence that
showed Lance “had initially walked away from the
crime scene rather than driving away in his
automobile.” Id. The absence of expert testimony
about shoe prints “was not a matter that was subject
to varying scientific opinions.” Id. And, the absence of
expert testimony regarding Joe Moore’s polygraph
did not prejudice Lance because “Moore’s volunteered
[polygraph] testimony was ruled inadmissible, and
the jury was instructed to disregard it.” Id. (citation
omitted).
Lance then filed a federal petition for a writ of
habeas corpus, which the district court denied. The
district court granted Lance a certificate of
appealability about whether his trial counsel was
ineffective in “preparing for and presenting [Lance’s]
case in mitigation during the penalty phase of his
trial.” Lance appealed and filed a motion to expand
his certificate. We granted it on one issue: whether
Brannon “rendered ineffective assistance when he
failed to properly request funds for an investigator
and expert witnesses.”
II. STANDARD OF REVIEW
“We review de novo the denial of a petition for a
writ of habeas corpus.” Williamson v. Fla. Dep’t of
Corr., 805 F.3d 1009, 1016 (11th Cir. 2015). The
Antiterrorism and Effective Death Penalty Act of
1996 imposes a “highly deferential standard for

App-185
evaluating state-court rulings” that “demands that
state-court decisions be given the benefit of the
doubt.” Rutherford v. Crosby, 385 F.3d 1300, 1306–07
(11th Cir. 2004) (citations omitted). We will not
disturb the decision of the state court unless it “was
contrary to, or involved an unreasonable application
of, clearly established Federal law, as determined by
the Supreme Court of the United States” or “was
based on an unreasonable determination of the facts
in light of the evidence presented in the State court
proceeding.” 28 U.S.C. § 2254(d); accord McClain v.
Hall, 552 F.3d 1245, 1250 (11th Cir. 2008).
III. DISCUSSION
Lance argues that he is entitled to relief because
Brannon rendered ineffective assistance of counsel
and the decision of the Supreme Court of Georgia
that Brannon did not do so was unreasonable, but we
disagree. “It is by now hornbook law that to succeed
on a Sixth Amendment ineffective-assistance claim, a
petitioner
must
show
that:
(1)
‘counsel’s
representation fell below an objective standard of
reasonableness,’ and (2) ‘there is a reasonable
probability that, but for counsel’s unprofessional
errors, the result of the proceeding would have been
different.’” Jones v. Sec’y, Fla. Dep’t of Corr., 834 F.3d
1299, 1312 (11th Cir. 2016) (quoting Strickland v.
Washington, 466 U.S. 668, 688, 694 (1984)). “To
establish deficient performance, the petitioner must
show that his attorney ‘made errors so serious that
he was not functioning as the “counsel” guaranteed
the defendant by the Sixth Amendment.’” Id.
(alteration adopted) (citation omitted). “On the issue
of prejudice, . . . a reasonable probability of a

App-186
different result means ‘a probability sufficient to
undermine confidence in the outcome.’” Id. (citation
omitted). “When a petitioner challenges his
conviction, ‘the question is whether there is a
reasonable probability that, absent the errors, the
factfinder would have had a reasonable doubt
respecting guilt.’” Id. (citation omitted). “When a
capital petitioner challenges his death sentence, ‘the
question is whether there is a reasonable probability
that, absent the errors, the sentencer . . . would have
concluded that the balance of aggravating and
mitigating circumstances did not warrant death.’” Id.
(citation omitted). “The standards created by
Strickland and [section] 2254(d) are both highly
deferential, and when the two apply in tandem,
review is doubly so.” Harrington v. Richter, 562 U.S.
86, 105 (2011) (citations and internal quotation
marks omitted).
We divide our discussion in three parts. First, we
explain that the Supreme Court of Georgia
reasonably determined that Lance did not suffer
prejudice when Brannon failed to present mental
health testimony in the penalty phase. Second, we
explain that Brannon made a strategic decision not
to introduce mitigating character evidence. Third, we
explain that Brannon’s failure to obtain funds to hire
expert witnesses was not prejudicial.
A. Inadequate Mental Health
Investigation and Testimony
Although the parties dispute whether the
Supreme Court of Georgia reasonably determined
that Brannon’s failure to investigate and present
expert mental health testimony during the penalty

App-187
phase of the trial was deficient performance, we need
not decide this question. We need only decide that
the determination of the Supreme Court of Georgia
that this deficiency did not affect the outcome of the
case was reasonable.
Lance argues that, had Brannon performed a
reasonable investigation, Brannon would have
discovered “red flags” in Lance’s background that
would have led him to introduce mitigating evidence
during the penalty phase of the trial. According to
Lance, “a basic investigation would have revealed”
that Lance was shot in the head, that Lance “had
been hospitalized for mental health treatment” for
depression, and that Lance abused alcohol. Lance
argues that discovery of this evidence “necessarily
would have led [Brannon] to [request] a
comprehensive mental health investigation.” Such an
investigation would have led in turn to the
introduction of the expert testimony of doctors, such
as Weinstein, Pickar, and Hyde, that Lance suffered
from “borderline retardation,” dementia, and frontal
lobe dysfunction, which impaired Lance’s ability to
control his behavior. Lance contends that, in the light
of this evidence, it was unreasonable for the Supreme
Court of Georgia to conclude that Lance did not
suffer prejudice.
The Supreme Court of Georgia made two
alternative holdings on prejudice, and we conclude
that its second holding was not unreasonable. The
Supreme Court of Georgia held that even if Brannon
had introduced the mental health testimony
presented at the state habeas hearing, that evidence
would not have changed the outcome of the case.

App-188
Lance II, 687 S.E.2d at 815. The court explained that
the evidence presented on habeas review “showed
merely that Lance functioned, when sober, in the
lower range of normal intelligence”; had memory
issues; suffered from mild depression; was
“somewhat impulsive”; and had some trouble
problem solving. Id.
This conclusion was not unreasonable because
much of the evidence that Lance introduced in the
superior court of his mental impairments was not
necessarily mitigating. We have often acknowledged
that juries may infer that a defendant’s alcohol abuse
or impulsive behavior that is triggered by organic
brain damage is aggravating. See Evans v. Sec’y,
Dep’t of Corr., 703 F.3d 1316, 1329 (11th Cir. 2013)
(en banc) (“We have held too that evidence of
substance abuse ‘can do as much or more harm than
good in the eyes of the jury.’” (citation omitted));
Rhode v. Hall, 582 F.3d 1273, 1285–86 (11th Cir.
2009) (“Counsel reasonably believed that the jury
would see Rhode’s impulsive behavior, which more
than one expert believed was triggered by his organic
brain damage, as aggravating.”). And although Lance
insists that the Supreme Court of Georgia erred
because it “never even mentioned the word ‘dementia’
in its decision,” the Georgia Supreme Court did
acknowledge “new evidence of subtle neurological
impairments.” Lance II, 687 S.E.2d at 816. This
characterization of the evidence was not objectively
unreasonable.
Indeed, “[o]ur analysis of the prejudice prong . . .
must also take into account the aggravating
circumstance’s associated with [Lance]’s case . . . .”

App-189
Dobbs v. Turpin, 142 F.3d 1383, 1390 (11th Cir.
1998). “At the end of the day, we are required to
‘reweigh the evidence in aggravation against the
totality of available mitigating evidence.’” Boyd v.
Allen, 592 F.3d 1274, 1301 (11th Cir. 2010) (quoting
Wiggins v. Smith, 539 U.S. 510, 534 (2003)). In Boyd,
for example, we explained that although trial
counsel’s
investigation
overlooked
mitigating
evidence of childhood abuse that “undeniably would
have been relevant to Boyd’s mitigation case,” we
determined “that the evidence of abuse would not
ultimately have affected weighing the aggravators
and the mitigators.” Id. at 1299. The petitioner in
Boyd had participated in a gruesome double murder
that culminated in Boyd and his accomplice beating
and shooting the victims. Id. at 1279–81. Boyd later
“bragged about the killings and about how cold
blooded he was.” Id. at 1284. In the light of these
circumstances, “we conclude[d] that the totality of
mitigating evidence . . . pales when compared to the
brutal nature and extent of the aggravating
evidence.” Id. at 1302. As in Boyd, the aggravating
factors of Lance’s crime are substantial. He had a
long history of abusing Joy Lance, he beat her during
the crime until her face was “utterly unrecognizable,”
he made derogatory statements about her and Butch
Wood, and Lance showed little remorse after the
crime. Lance II, 687 S.E.2d at 811. And Lance’s new
mitigating evidence fails to convince us that the
Georgia Supreme Court unreasonably determined
that Lance was not prejudiced by his defense
counsel’s performance.
Lance urges us to follow a trio of decisions—
Rompilla v. Beard, 545 U.S. 374 (2005), Williams v.

App-190
Taylor, 529 U.S. 362 (2000), and Porter v. McCollum,
558 U.S. 30 (2009)—but each decision involved
undiscovered evidence that is substantially more
mitigating than the evidence Lance introduced on
state habeas review. Had trial counsel in Rompilla
performed an adequate investigation, he would have
discovered that the defendant was raised in a “slum
environment,” suffered from schizophrenia, and had
a third-grade level of cognition. Rompilla, 545 U.S. at
390–91. Moreover, the Supreme Court was not bound
by the same deferential standard of review that we
are. Id. at 390 (conducting a de novo review). Nor is
the mitigating evidence here like the evidence
uncovered in Williams. Unlike the evidence that
Lance argues Brannon would have uncovered, had
Williams’ trial counsel performed an adequate
investigation, he “would have uncovered extensive
records graphically describing Williams’ nightmarish
childhood.” Williams, 529 U.S. at 395. And in Porter,
an adequate investigation would have revealed the
defendant’s heroic military service, “his struggles to
regain normality upon his return from war,” a
childhood of abuse, and a brain abnormality. Porter,
558 U.S. at 41.
Lance erroneously contends that the Supreme
Court of Georgia applied an incorrect prejudice
standard, because, according to Lance, it asked
“whether the sentencing jury ‘might’ have considered
the mitigating evidence and nonetheless imposed the
death penalty,” when the correct inquiry is “whether
the mitigating evidence might have caused the jury
to impose a life sentence in lieu of the death penalty.”
But this latter standard was the standard that the
Supreme Court of Georgia applied; it asked whether,

App-191
“in reasonable probability [the mitigating evidence
would] have changed the outcome of the sentencing
phase if it had been presented at Lance’s trial.” Lance
II, 687 S.E.2d at 816.
Lance also argues that the Supreme Court of
Georgia improperly “brushed aside” the factual
findings of the superior court, but we disagree. The
Supreme Court of Georgia accepted the factual
findings of the superior court, but determined the
legal question of prejudice de novo, id. at 812, 815,
which Georgia law requires. Humphrey v. Morrow,
717 S.E.2d 168, 172 (Ga. 2011). The Supreme Court
of Georgia reasonably concluded that Lance did not
suffer prejudice when Brannon failed to introduce
mental health testimony.
B. Mitigating Character Evidence
Lance next argues that Brannon rendered
ineffective assistance when Brannon failed to
introduce mitigating character evidence during the
penalty phase of the trial. Although this claim
appears to be procedurally defaulted because the
Supreme Court of Georgia held that it was
abandoned, Lance II, 687 S.E.2d at 819, neither party
addresses this preliminary question, so we deny
Lance’s claim on its merits. Valle v. Sec’y for Dep’t of
Corr., 459 F.3d 1206, 1213 (11th Cir. 2006) (“Here, it
is unnecessary to address the issue of the procedural
bar, because even assuming the claim is preserved,
Valle is not entitled to habeas relief . . . .”). Lance
argues that, had Brannon investigated Lance’s
background, Brannon would have introduced
character evidence that painted Lance as a “quiet,
peaceful man,” who was “normally a kind,

App-192
dependable, and compassionate person.” Brannon
“also could have identified witnesses to testify that
[Lance] loved his son and daughter dearly, and they
loved him in return.” Lance argues that Brannon’s
failure to do so constituted ineffective assistance. We
disagree.
The decision not to introduce mitigating
character evidence was a reasonable strategic
decision. Brannon testified that he chose not to
introduce mitigating character evidence because it
would have opened the door to the introduction of
aggravating character evidence. We have repeatedly
held that this kind of decision—to call or not call
certain witnesses—is the “epitome of a strategic
decision . . . that we will seldom, if ever, second
guess,” Waters v. Thomas, 46 F.3d 1506, 1512 (11th
Cir. 1995); accord Ledford v. Warden, Ga. Diagnostic
& Classification Prison, 818 F.3d 600, 647 (11th Cir.
2016); Conklin v. Schofield, 366 F.3d 1191, 1204
(11th Cir. 2004), and we decline to do so here.
C. Motion to Obtain Funds for Expert Witnesses
Lance argues that Brannon rendered ineffective
assistance because the motions for funds to hire
expert witness fell below the standard set by Georgia
law and that this deficiency caused Lance to suffer
prejudice, but we disagree. Although the Supreme
Court of Georgia held that the motions for funds were
not deficient, we consider only its holding that the
motions did not cause prejudice.
Lance argues that, had Brannon obtained funds
to hire expert witnesses, he would have presented the
testimony of a forensic pathologist, a crime scene
expert, a polygraph expert, and a fingerprint expert.

App-193
He contends that there is a reasonable probability
that this additional testimony would have changed
the outcome of the case. A forensic pathologist,
according to Lance, would have “uncovered . . . the
lack of physical evidence” in the case, testified to
inconsistencies in Agent Cooper’s testimony on the
times of death, and explained that it could have been
“‘virtually impossible for the person administering
the blows [to Joy Lance] to escape from the scene
with little or no blood on her/him.’” A crime scene
expert, according to Lance, would have testified that
the Jackson County Sheriff’s Office “failed to look for
footprints, tire marks, or other evidence on the
ground around Wood’s home.” A polygraph expert,
according to Lance, would have discredited the
testimony of Joe Moore, who took a polygraph test
and implicated Lance in the murders. And a
fingerprint expert, according to Lance, would “have
testified that [Lance’s] fingerprints were never found
in or around the crime scene.”
The Supreme Court of Georgia held that this
additional testimony would not have changed the
outcome of the trial. Lance II, 687 S.E.2d at 816–17.
The court explained “there is, even now, no
substantial dispute among the experts regarding the
time of death but, instead, that there is merely a
dispute over the manner in which the time of death
was established.” Id. at 816. The court reasoned that
the lack of blood spatter would “have been obvious to
the jury,” and it was also “consistent with Lance
having disposed of any bloody clothes at the same
time he obviously disposed of his distinctive shoes.”
Id. at 817. In addition, “the absence of shoe prints
was not a matter that was subject to varying

App-194
scientific opinions.” Id. A polygraph expert was
unnecessary, according to the Supreme Court of
Georgia, because “Moore’s volunteered testimony was
ruled inadmissible, and the jury was instructed to
disregard it.” Id. (citation omitted). Finally, the court
explained that the lack of fingerprint evidence was a
“matter of common sense,” not varying scientific
opinions. Id.
The decision of the Supreme Court of Georgia
was not an unreasonable application of federal law.
The court weighed the new evidence presented by
Lance during state habeas proceedings and
concluded that the new evidence would not have
changed the outcome of Lance’s trial. Lance II, 687
S.E.2d at 816–17. This analysis is the analysis
Strickland commands. The state habeas court
compared the “totality of the evidence before the . . .
jury” with the new evidence presented by Lance and
concluded that the new evidence had “an isolated,
trivial effect” on the whole “evidentiary picture.”
Strickland, 466 U.S. at 695. There was little
testimony introduced that went beyond ruminations
about common sense facts, and no testimony that
fundamentally undermined the state’s case. As the
district court correctly explained, Lance’s claim
amounts to a “quibble[]” with the conclusion of the
Supreme Court of Georgia, not that the conclusion
was truly unreasonable. None of the evidence
presented by Lance would have had a “pervasive
effect on the inferences” drawn by the jury.
Strickland, 466 U.S. at 695–96.

App-195
IV. CONCLUSION
We AFFIRM the denial of Lance’s petition for a
writ of habeas corpus.

App-196
MARTIN, Circuit Judge, concurring in the judgment:
Counsel’s performance at the penalty phase of
Donnie
Lance’s
capital
murder
trial
was
unquestionably deficient. Trial counsel conducted no
investigation into Mr. Lance’s background or mental
health. And at trial, counsel offered nothing in
mitigation. As a result, the jurors that decided
whether Mr. Lance should live or die never learned
any facts that gave them a reason not to sentence
him to death. The jury never heard that Mr. Lance
had suffered from repeated head trauma, including
the time he was shot in the head, and was braindamaged as a result. Neither did the jury learn of his
dementia or his borderline intellectual functioning.
Because the jury did not know of Mr. Lance’s mental
impairments, it could not “accurately gauge his moral
culpability.” Porter v. McCollum, 558 U.S. 30, 41, 130
S. Ct. 447, 454 (2009). Had the jury heard the
mitigating evidence uncovered during postconviction
proceedings, there is, in my view, a “reasonable
probability that at least one juror would have struck
a different balance” between the aggravating and
mitigating factors. Wiggins v. Smith, 539 U.S. 510,
537, 123 S. Ct. 2527, 2543 (2003).
Our death penalty jurisprudence is premised on
the idea that only those most deserving should
receive the ultimate punishment. See Woodson v.
North Carolina, 428 U.S. 280, 304, 96 S. Ct. 2978,
2991 (1976). That being the case, the “primary
purpose” of the penalty phase of a capital trial is to
ensure that the sentence is individualized “by
focusing on the particularized characteristics of the
defendant.” Brownlee v. Haley, 306 F.3d 1043, 1074

App-197
(11th Cir. 2002) (quotation omitted and alteration
adopted). This process doesn’t work, however, when
counsel fails to perform a constitutionally adequate
mitigation investigation, thereby denying the
defendant the opportunity to make the case that he
should live. I respectfully disagree with the Georgia
Supreme Court’s conclusion that Mr. Lance failed to
show prejudice here. The habeas court disagreed
with this conclusion as well, and so found that Mr.
Lance was entitled to relief on his ineffective
assistance claim and vacated his death sentences.
However, it is not the job of this Court to decide
the merits of Mr. Lance’s ineffective assistance claim
in the first instance. Rather, the Antiterrorism and
Effective Death Penalty Act (“AEDPA”), 28 U.S.C.
§ 2254, allows a federal court to grant relief to a state
prisoner challenging his conviction or sentence only if
the state court’s decision involves an unreasonable
application of the law or is based on an unreasonable
determination of the facts. Id. § 2254(d). Despite my
belief that the Georgia Supreme Court got this
wrong, I acknowledge that fairminded judges can
disagree. See Harrington v. Richter, 562 U.S. 86, 101,
131 S. Ct. 770, 786 (2011) (“A state court’s
determination that a claim lacks merit precludes
federal habeas relief so long as fairminded jurists
could disagree on the correctness of the state court’s
decision.” (quotation omitted)). For that reason, I
concur with the majority’s holding that Mr. Lance is
not entitled to federal habeas relief on his claims.

App-198
Appendix H
SUPREME COURT OF THE UNITED STATES
________________
No. 17-1382
________________
DONNIE CLEVELAND LANCE,
v.
ERIC SELLERS, WARDEN,
________________
On Petition for Writ of Certiorari to the United
States Court of Appeals for the Eleventh Circuit
________________
January 7, 2019
Cite as: 586 U.S. ___ (2019)
SOTOMAYOR, J., dissenting
________________
OPINION
The petition for a writ of certiorari is denied.
JUSTICE SOTOMAYOR, with whom JUSTICE
GINSBURG and JUSTICE KAGAN join, dissenting
from denial of certiorari.
Before deciding that petitioner Donnie Cleveland
Lance should die as punishment for two murders he
committed, a jury heard no evidence whatsoever to
counterbalance the State’s case for the death penalty.
Lance’s counsel bore responsibility for the onesidedness of the sentencing proceedings; he
inexcusably failed even to look into, much less to put
on, a case for sparing Lance’s life. And we have since

App-199
learned that Lance suffers from significant cognitive
impairments that the jury could have weighed in assessing his moral culpability. In other words, there is
a meaningful case to be made for sparing Lance’s life,
but—because he lacked access to constitutionally
adequate counsel—he has never had a chance to
present it.
The Georgia Supreme Court concluded that this
state of affairs was constitutionally tolerable because,
in its view, Lance’s untold story stood no chance of
persuading even a single juror to favor life without
parole over a death sentence. The U. S. Court of
Appeals for the Eleventh Circuit held that its
conclusion was not unreasonable. I cannot agree. Our
precedents clearly establish that Lance was
prejudiced by his inability to inform the jury about
his impairments. I therefore would grant Lance’s
petition for review and summarily reverse.
I
A
The facts of Lance’s crimes—murdering his exwife, Sabrina “Joy” Lance, and her boyfriend, Dwight
“Butch” Wood, Jr., in 1997—admittedly inspire little
sympathy. Lance went to Butch’s home, kicked in the
front door, shot Butch with a shotgun, then
bludgeoned Joy to death with the gun. According to a
fellow inmate, he later bragged about the killings.
Lance also had an extensive prior history of domestic
violence against Joy.1
1 Lance previously had kidnapped Joy, electrocuted her,
beaten her, strangled her, and threatened her with various
other harms. He also repeatedly had threatened to kill her if

App-200
Due to his counsel’s ineffectiveness, however,
those facts were all the jurors ever learned about
Lance; they heard no evidence why his life was worth
sparing. Lance was represented during both the guilt
and penalty phases of his trial by a solo practitioner
who became convinced of Lance’s innocence—and his
own ability to prove it—early in the representation.
He thus prepared exclusively for the guilt-orinnocence phase of the trial. Counsel did not even
broach the subject of possible penalty-phase evidence
with Lance or his family, because he did not want
them” thinking that [he] might be thinking in terms
of losing the case.” App. to Pet. for Cert. 232. So when
the jury found Lance guilty and the question became
whether Lance should be put to death, 2 Lance’s
counsel had no evidence whatsoever to present.
The State did. It called six witnesses, including
the victims’ relatives, to explain why Lance deserved
to die. The State’s closing argument emphasized
Lance’s history of violence against Joy, the brutality
of her killing, and Lance’s apparent lack of remorse.
The State urged the jury to perceive Lance as “‘cold
and calculating’” and repeatedly asked “‘what kind of
person’” would do these things. 1 App. in No. 16–
she left him or became involved with Butch. Four years earlier,
Lance and a friend took a shotgun to Butch’s home and kicked
in the door, but fled when a child inside spoke to them.
The jury found that two aggravating circumstances
supported Lance’s eligibility for the death penalty: that he
committed a double murder and that Joy’s killing was
“outrageously or wantonly vile, horrible, or inhuman.” App. to
Pet. for Cert. 74; Lance v. State, 275 Ga. 11, 23, 560 S. E. 2d
663, 677 (2002); see also Ga. Code Ann. §§17–10– 30(b)(2), (b)(7)
(Supp. 2018).
2

App-201
15008 (CA11), pt. 1, pp. 68, 75, 77. Lance’s counsel,
by contrast, made no opening statement and
presented no mitigating evidence. By his own
admission, he “had nothing to put on.” App. to Pet.
for Cert. 273. His closing argument merely urged the
jury to consider Lance’s family and to resist the
temptation to exact vengeance. About Lance, counsel
said only that he was “‘kind of a quiet person and a
country boy’” who “‘doesn’t talk a lot.’” 1 App. in
No. 16–15008, pt. 1, at 85.
The jury sentenced Lance to death.
B
In 2003, Lance filed a petition for postconviction
relief in state court, asserting that his trial counsel’s
failure to investigate or present any mitigating
evidence was ineffective assistance of counsel.
Essentially, he argued that there was a meaningful
case to be made for sparing his life, and that his
counsel had forfeited his chance to do so through
inattention. The evidence showed that counsel could
have found possible cognitive problems had he looked
into Lance’s personal history. That history included
repeated serious head traumas caused by multiple
car crashes, alcoholism, and—most seriously—
Lance’s once being shot in the head by unknown
assailants while lying on his couch. 3 In the aftermath
of the shooting, Lance had “terrible headaches,”
“dizziness,” “difficulty working,” and “became even
3 In addition to the history discussed by the court, Lance also
ingested gasoline as a small child, was trampled by a horse as a
teenager, and once was overcome by fumes while working to
clean the interior of an oil tanker truck. 1 App. in No. 16–15008,
pt. 2, pp. 202–203.

App-202
more quiet than he had before.” App. to Pet. for Cert.
171–172. The court found that any reasonable
defense attorney would have had Lance’s mental
health evaluated and, in so doing, uncovered
“significant mitigating evidence for the jury to
consider.” Id., at 174.
Four mental health professionals testified at an
evidentiary hearing.4 They agreed on many points.
First, Lance had permanent damage to his brain’s
frontal lobe. Second, his IQ placed him in the
borderline range for intellectual disability. Third, his
symptoms warranted a diagnosis of clinical
dementia. The experts differed somewhat, however,
over the extent and practical consequences of Lance’s
brain damage. Primarily, the experts seemed to
disagree about the extent to which Lance’s brain
damage affected his impulse control. 5

Lance put on Thomas Hyde, an expert in behavioral
neurology; Ricardo Weinstein, an expert in neuropsychology;
and David Pickar, an expert in psychiatry and clinical
neuroscience. The State called Daniel Martell, an expert in
neuropsychology. (A fifth expert’s unsworn report was ruled
inadmissible by the Georgia Supreme Court. See Hall v. Lance,
286 Ga. 365, 371, n. 1, 687 S. E. 2d 809, 815, n. 1 (2010).)
4

Hyde, Weinstein, and Pickar opined that the type and extent
of damage reflected in Lance’s test results would adversely
affect his ability to suppress impulsive behavior. Weinstein and
Hyde added that the damage could impair Lance’s ability to
conform his conduct to the law, and Hyde noted that the effects
of Lance’s impairments would be most acute in moments of
emotional stress. Martell, in contrast, saw no direct evidence of
impulse-control difficulties and opined that Lance’s brain
damage would not “‘prevent him’” from conforming his conduct
to the law. 1 App. in No. 16–15008, pt. 3, at 170.
5

App-203
The Superior Court granted Lance’s habeas
petition and vacated his death sentence, holding that
trial counsel’s failure to investigate and present
evidence of Lance’s mental condition was deficient
performance, and that his failure prejudiced Lance.
The missing evidence could have prompted a
different sentence, the court explained, because it
went directly to the key issue before the jury: the
assessment of Lance’s character, culpability, and
worth.
The Georgia Supreme Court, however, reversed
and reinstated Lance’s death sentence. Hall v. Lance,
286 Ga. 365, 687 S. E. 2d 809 (2010). It agreed that
counsel’s performance was deficient but held that
Lance suffered no prejudice. As relevant here, it held
that even if the jury had considered at trial all the
neuropsychological evidence adduced at the
postconviction hearing, there was no reasonable
probability that Lance’s sentence would have
changed. 6 In the Georgia Supreme Court’s view, the
new evidence was only “somewhat mitigating”
because it showed only “subtle neurological
impairments,” which would necessarily have been
outweighed by Lance’s prior threats and violence
toward the victims, the nature of the crime, and
Lance’s statements and demeanor in its aftermath.
Id., at 373, 687 S. E. 2d, at 815–816.
6 As an alternative ground for finding no prejudice, the
Georgia Supreme Court also hypothesized that even an
adequate investigation would not have uncovered the evidence
that Lance presented at the postconviction hearing. That
conclusion is not implicated by Lance’s petition because the
Court of Appeals did not address it.

App-204
C
Lance sought a federal writ of habeas corpus.
The U. S. District Court for the Northern District of
Georgia denied the petition but granted a certificate
of appealability. Under the deferential review
provisions of the Antiterrorism and Effective Death
Penalty Act of 1996, 28 U. S. C. §2254(d), the U. S.
Court of Appeals for the Eleventh Circuit affirmed,
holding that the Georgia Supreme Court’s conclusion
that the absence of the postconvictionmental health
evidence caused Lance no prejudice “was not
unreasonable.” Lance v. Warden, 706 Fed. Appx. 565,
573 (2017).
II
To prevail on a Sixth Amendment ineffectiveassistance-of-counsel claim, a defendant must show
both that his counsel’s performance was deficient and
that his counsel’s errors caused him prejudice. In
assessing deficiency, a court asks whether defense
“counsel’s representation fell below an objective
standard
of
reasonableness.”
Strickland
v.
Washington, 466 U. S. 668, 688 (1984). To establish
prejudice, a defendant must show “that there is a
reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding
would have been different.” Id., at 694. When, as
here, a petitioner seeks federal habeas review of a
state court’s rejection of his ineffective-assistance-ofcounsel claim, he can prevail only if the decision was
“contrary to, or involved an unreason-able
application of,” Strickland and its progeny, or rested”
on an unreasonable determination of the facts in

App-205
light of the evidence presented in the State court
proceeding.” 28 U. S. C. §2254(d).
Because the Supreme Court of Georgia
mischaracterized or omitted key facts and improperly
weighed the evidence, I agree with Lance that its
decision was an objectively “unreasonable application
of “our precedents. §2254(d)(1); see Wiggins v. Smith,
539 U. S. 510, 528 (2003). I would therefore grant the
petition and summarily reverse.
A
With regard to Strickland’s performance prong,
the Georgia Supreme Court determined that trial
counsel’s failure to investigate possible mitigation
was deficient. See Lance, 286 Ga., at 368, 687
S. E 2d, at 812–813. That is plainly correct. Counsel
in a death penalty case has an obligation at the very
least to consider possible penalty-phase defenses. See
Wiggins, 539 U. S., at 521–522. By his own
admission, counsel here did not. Without any inquiry
into what penalty-phase evidence he might be
forgoing, he succumbed to tunnel vision—and as a
consequence left Lance defenseless. Because nothing
here “obviate[d] the need for defense counsel to
conduct some sort of mitigation investigation,” Lance
has satisfied Strickland’s deficient-performance
requirement. Porter v. McCollum, 558 U. S. 30, 40
(2009) (per curiam); see also Rompilla v. Beard, 545
U. S. 374, 381 (2005); Wiggins, 539 U. S., at 534.
B
Turning to the prejudice prong, the Court of
Appeals was wrong to conclude that Lance suffered
no clearly established prejudice from his inability to
make his case. Georgia law permits a death sentence

App-206
only upon a unanimous jury recommendation, so
Lance needed only to show” a reasonable probability
that at least one juror would have struck a different
balance” between the aggravating and the mitigating
factors had he or she considered the missing
evidence. Wiggins, 539 U. S., at 537; see Ga. Code
Ann. §§17–10–31(a), (c). 7 The trial court, upon
hearing Lance’s proffered mitigation evidence,
concluded that it was “extremely important for the
jury to consider” and thus that its absence was
prejudicial. App. to Pet. for Cert. 174. Under any
reasonable application of Strickland and its progeny,
that conclusion was correct. See 28 U. S. C. §2254(d);
Wiggins, 539 U. S., at 528.
To determine whether a defendant reasonably
might have been spared a death sentence but for his
counsel’s deficiency, courts take into account “the
totality of the available mitigation evidence—both
that adduced at trial, and the evidence adduced in
the habeas proceeding,” then “reweigh it against the
evidence in aggravation.” Williams v. Taylor, 529
U. S. 362, 397–398 (2000). “We do not require a
defendant to show that counsel’s deficient conduct
more likely than not altered the outcome of his
penalty proceeding, but rather that he establish a
probability sufficient to undermine confidence in that
In Georgia, “a sentence of death shall not be imposed unless
the jury verdict includes a finding of at least one statutory
aggravating circumstance and a recommendation that such
sentence be imposed.” Ga. Code Ann. §17–10–31(a). “If the jury
is unable to reach a unanimous verdict as to sentence, the judge
shall dismiss the jury and shall impose a sentence of either life
imprisonment or imprisonment for life without parole.” §17–10–
31(c).
7

App-207
outcome.” Porter, 558 U. S., at 44 (internal quotation
marks and alteration omitted).
The jurors who sentenced Lance determined
whether he would live or die “knowing hardly
anything about him other than the facts of his
crimes.” Id., at 33. They heard nothing “that would
humanize [Lance] or allow them to accurately gauge
his moral culpability.” Id., at 41. Yet if counsel had
performed his duties, the jurors would have heard
that Lance’s brain endured physical trauma
throughout his life, resulting in frontal lobe damage
and dementia. The jury further would have heard
that Lance’s IQ placed him within the borderline
range for intellectual disability. The jury also would
have heard that Lance’s cognitive deficits could affect
his impulse control and capacity to conform his
behavior to the law, especially at moments of
emotional distress. Taken together, those facts—with
their accompanying explanatory potential to
humanize Lance, or at least to render less
incomprehensible his conduct—were significant
mitigating evidence. See id., at 36, 42–43 (noting the
potentially mitigating effect of evidence that the
defendant “suffered from brain damage that could
manifest in impulsive, violent behavior” and was
“substantially impaired in his ability to conform his
conduct to the law”).
To be sure, the evidence before the jury—the
brutality of Joy’s death, Lance’s past violence toward
her, and Lance’s conduct thereafter—could have
supported a death sentence. See Ga. Code Ann. §§17–
10–30(b), 17–10–31(a). But there is a stark contrast
between no mitigation evidence whatsoever and the

App-208
significant
neuropsychological
evidence
that
adequate counsel could have introduced as a
potential counterweight. Lance’s unintroduced case
for leniency, even if not airtight, “adds up to a
mitigation case that bears no relation to the few
naked pleas for mercy actually put before the jury.”
Rompilla, 545 U. S., at 393; see also Williams, 529
U. S., at 398. Our precedents thus clearly establish
Lance’s right to a new sentencing at which a jury
can, for the first time, weigh the evidence both for
and against death.
The Georgia Supreme Court reached its contrary
conclusion only by unreasonably disregarding or
minimizing Lance’s evidence. The state court
acknowledged that experts would testify that
“‘significant damage’” to Lance’s frontal lobe
compromised his ability “‘to conform his conduct to
the requirements of the law.’” Lance, 286 Ga., at 370–
371, 687 S. E. 2d, at 814. It failed, however, to allow
for the possibility that the jury might credit that
evidence. This Court previously has cautioned
against
prematurely
resolving
disputes
or
unreasonably discounting mitigating evidence in this
context. See Porter, 558 U. S., at 43 (“While the
State’s experts identified perceived problems with
the tests [showing brain damage and cognitive
defects] and the conclusions [the defense expert]
drew from them, it was not reasonable to discount
entirely the effect that [the defense expert’s]
testimony might have had on the jury”). We should
do so again here.
Further, the Georgia Supreme Court relied on
characterizations of Lance’s evidence that cannot be

App-209
squared with the record, which “further highlights
the unreasonableness of “the Georgia Supreme
Court’s decision. Wiggins, 539 U. S., at 528; see 28
U. S. C. §2254(d)(2). With regard to Lance’s frontal
lobe damage, the Georgia Supreme Court appears to
have credited the testimony of the State’s expert over
Lance’s experts’ testimony, treating as definitive
Martell’s assertion that “Lance’s symptoms were so
subtle that a typical court-ordered evaluation might
not have given any indication of problems.” Lance,
286 Ga., at 372, 687 S. E. 2d, at 815; see also id., at
373, 687 S. E. 2d, at 816. Yet the other experts
concluded that Lance’s impairments and resulting
behavioral
distortions
were
“serious”
and
8
“significant.” E.g., 1 App. in No. 16–15008, pt. 3, at
92; 2 id., at 10. The Georgia Supreme Court also
unreasonably dismissed the experts’ consensus that
Lance was in the borderline range for intellectual
disability, 9 and never mentioned—much less
Moreover, it is unclear even that Martell’s milder
characterizations genuinely contradicted the other experts’
testimony. Unlike the other experts, Martell seems at least
sometimes to have been characterizing Lance’s impairments
“relative to his overall borderline [intellectually disabled]
baseline,” 1 App. in No. 16–15008, pt. 3, at 151, not relative to
the average person or to the level at which Lance might have
functioned absent his head traumas. Compare 2 id., at 34
(Weinstein: specific test results “vastly excee[d] the threshold
for impairment” and “indicate significant organic impairment of
the frontal lobe”), with 2 id., at 152 (Martell: results on the
same test were “at a level expected for [Lance’s] IQ” or “showed
mild impairment”).
8

9 See Lance, 286 Ga., at 372, 687 S. E. 2d, at 815 (describing
Lance as merely “in the lower range of normal intelligence”).
But see, e.g., 1 App. in No. 16–15008, pt. 3, at 135 (Martell,

App-210
discussed the significance of—Lance’s dementia
diagnosis.
These errors, taken together, make clear that the
Georgia Supreme Court applied our Strickland
precedents in an objectively unreasonable manner.
The mental impairment evidence reasonably could
have affected at least one juror’s assessment of
whether Lance deserved to die for his crimes, and
Lance should have been given a chance to make the
case for his life. The Georgia Supreme Court’s
conclusion that it would be futile to allow him to do
so was unreasonable.
III
Absent this Court’s intervention, Lance may well
be executed without any adequately informed jury
having decided his fate. Because the Court’s refusal
to intervene permits an egregious breakdown of basic
procedural safeguards to go unremedied, I
respectfully dissent.

describing Lance’s intellectual functioning as “in the borderline
range,” which is “lower than low average”).

App-211
Appendix I
Relevant Statute
O.C.G.A. § 5-5-41
Requirements as to extraordinary motions for new
trial generally; notice of filing of motion; limitations
as to number of extraordinary motions in criminal
cases; DNA testing
(a) When a motion for a new trial is made after the
expiration of a 30 day period from the entry of
judgment, some good reason must be shown why the
motion was not made during such period, which
reason shall be judged by the court. In all such cases,
20 days’ notice shall be given to the opposite party.
(b) Whenever a motion for a new trial has been made
within the 30 day period in any criminal case and
overruled or when a motion for a new trial has not
been made during such period, no motion for a new
trial from the same verdict or judgment shall be
made or received unless the same is an extraordinary
motion or case; and only one such extraordinary
motion shall be made or allowed.
(c)
(1) Subject to the provisions of subsections (a)
and (b) of this Code section, a person convicted of
a felony may file a written motion before the trial
court that entered the judgment of conviction in
his or her case for the performance of forensic
deoxyribonucleic acid (DNA) testing.
(2) The filing of the motion as provided in
paragraph (1) of this subsection shall not
automatically stay an execution.

App-212
(3) The motion shall be verified by the petitioner
and shall show or provide the following:
(A)
Evidence that potentially contains
deoxyribonucleic acid (DNA) was obtained in
relation to the crime and subsequent
indictment, which resulted in his or her
conviction;
(B) The evidence was not subjected to the
requested DNA testing because the existence
of the evidence was unknown to the
petitioner or to the petitioner’s trial attorney
prior to trial or because the technology for
the testing was not available at the time of
trial;
(C) The identity of the perpetrator was, or
should have been, a significant issue in the
case;
(D) The requested DNA testing would raise
a reasonable probability that the petitioner
would have been acquitted if the results of
DNA testing had been available at the time
of conviction, in light of all the evidence in
the case;
(E) A description of the evidence to be tested
and, if known, its present location, its origin
and the date, time, and means of its original
collection;
(F)
The results of any DNA or other
biological evidence testing that was
conducted
previously
by
either
the
prosecution or the defense, if known;

App-213
(G) If known, the names, addresses, and
telephone numbers of all persons or entities
who are known or believed to have
possession of any evidence described by
subparagraphs (A) through (F) of this
paragraph, and any persons or entities who
have provided any of the information
contained in petitioner’s motion, indicating
which person or entity has which items of
evidence or information; and
(H) The names, addresses, and telephone
numbers of all persons or entities who may
testify for the petitioner and a description of
the subject matter and summary of the facts
to which each person or entity may testify.
(4) The petitioner shall state:
(A) That the motion is not filed for the
purpose of delay; and
(B) That the issue was not raised by the
petitioner or the requested DNA testing was
not ordered in a prior proceeding in the
courts of this state or the United States.
(5) The motion shall be served upon the district
attorney and the Attorney General. The state
shall file its response, if any, within 60 days of
being served with the motion. The state shall be
given notice and an opportunity to respond at
any hearing conducted pursuant to this
subsection.
(6) (A) If, after the state files its response, if any,
and the court determines that the motion
complies
with
the
requirements
of

App-214
paragraphs (3) and (4) of this subsection, the
court shall order a hearing to occur after the
state has filed its response, but not more
than 90 days from the date the motion was
filed.
(B) The motion shall be heard by the judge
who conducted the trial that resulted in the
petitioner’s conviction unless the presiding
judge determines that the trial judge is
unavailable.
(C) Upon request of either party, the court
may order, in the interest of justice, that the
petitioner be at the hearing on the motion.
The court may receive additional memoranda
of law or evidence from the parties for up to
30 days after the hearing.
(D) The petitioner and the state may present
evidence by sworn and notarized affidavits or
testimony; provided, however, any affidavit
shall be served on the opposing party at least
15 days prior to the hearing.
(E) The purpose of the hearing shall be to
allow the parties to be heard on the issue of
whether the petitioner’s motion complies
with the requirements of paragraphs (3) and
(4) of this subsection, whether upon
consideration of all of the evidence there is a
reasonable probability that the verdict would
have been different if the results of the
requested DNA testing had been available at
the time of trial, and whether the
requirements of paragraph (7) of this
subsection have been established.

App-215
(7) The court shall grant the motion for DNA
testing if it determines that the petitioner has
met the requirements set forth in paragraphs (3)
and (4) of this subsection and that all of the
following have been established:
(A) The evidence to be tested is available
and in a condition that would permit the
DNA testing requested in the motion;
(B) The evidence to be tested has been
subject to a chain of custody sufficient to
establish that it has not been substituted,
tampered with, replaced, or altered in any
material respect;
(C) The evidence was not tested previously
or, if tested previously, the requested DNA
test would provide results that are
reasonably more discriminating or probative
of the identity of the perpetrator than prior
test results;
(D) The motion is not made for the purpose
of delay;
(E) The identity of the perpetrator of the
crime was a significant issue in the case;
(F)
The testing requested employs a
scientific method that has reached a
scientific state of verifiable certainty such
that the procedure rests upon the laws of
nature; and
(G) The petitioner has made a prima facie
showing that the evidence sought to be tested
is material to the issue of the petitioner’s
identity as the perpetrator of, or accomplice

App-216
to, the crime, aggravating circumstance, or
similar transaction that resulted in the
conviction.
(8) If the court orders testing pursuant to this
subsection, the court shall determine the method
of testing and responsibility for payment for the
cost of testing, if necessary, and may require the
petitioner to pay the costs of testing if the court
determines that the petitioner has the ability to
pay. If the petitioner is indigent, the cost shall be
paid from the fine and bond forfeiture fund as
provided in Article 3 of Chapter 21 of Title 15.
(9) If the court orders testing pursuant to this
subsection, the court shall order that the
evidence be tested by the Division of Forensic
Sciences of the Georgia Bureau of Investigation.
In addition, the court may also authorize the
testing of the evidence by a laboratory that
meets the standards of the DNA advisory board
established pursuant to the DNA Identification
Act of 1994, Section 14131 of Title 42 of the
United States Code, to conduct the testing. The
court shall order that a sample of the petitioner’s
DNA be submitted to the Division of Forensic
Sciences of the Georgia Bureau of Investigation
and that the DNA analysis be stored and
maintained by the bureau in the DNA data bank.
(10)
If a motion is filed pursuant to this
subsection the court shall order the state to
preserve during the pendency of the proceeding
all evidence that contains biological material,
including, but not limited to, stains, fluids, or
hair samples in the state’s possession or control.

App-217
(11) The result of any test ordered under this
subsection shall be fully disclosed to the
petitioner, the district attorney, and the Attorney
General.
(12) The judge shall set forth by written order
the rationale for the grant or denial of the motion
for new trial filed pursuant to this subsection.
(13) The petitioner or the state may appeal an
order, decision, or judgment rendered pursuant
to this Code section.

